<html>
<title> - HEARING ON THE U.S.-CANADA PACIFIC SALMON TREATY</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
46-527 CC <l-ar/r-ar>

1998

            HEARING ON THE U.S.-CANADA PACIFIC SALMON TREATY

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                   SEPTEMBER 18, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-57

                               __________

           Printed for the use of the Committee on Resources



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                Christopher Stearns, Democratic Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 18, 1997..................................     1

Statement of Members:
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of....................................     2
        Briefing Paper...........................................     2
        Letter from President Clinton to Mr. Saxton..............     9
        Letter from Mr. Chretien to Mr. Saxton...................    11
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................    19
        Prepared statement of....................................     8

Statement of Witnesses:
    Allen, William Ronald ``Ron'', Commissioner for Pacific 
      Northwest Tribes...........................................    27
        Prepared statement of....................................    73
    Applegate, Rick, Chair, Southern Stakeholders Panel..........    42
        Prepared statement of....................................    69
    Bacon, Jim, Chair, Northern Stakeholders Panel...............    44
        Prepared statement of....................................    72
    Benton, David, Commissioner for Alaska.......................    31
        Prepared statement of....................................    64
    Murkowski, Hon. Frank H., a U.S. Senator from the State of 
      Alaska.....................................................     5
        Prepared statement of....................................     7
    Pipkin, James, U.S. Special Negotiator for Pacific Salmon....    11
        Prepared statement of....................................    52
    Shelton, Jev, Alternate Commissioner for Alaska..............    30
        Prepared statement of....................................    57
    West, Mary Beth, Deputy Assistant Secretary for Oceans, 
      Bureau of Oceans, Environment and Science, Department of 
      State......................................................    13
        Prepared statement of....................................    54

 
            HEARING ON THE U.S.-CANADA PACIFIC SALMON TREATY

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 1997

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to call, at 10:10 a.m. in 
Room 1324, Longworth House Office Building, Hon. Jim Saxton 
[chairman of the Subcommittee] presiding.
    Mr. Saxton. I apologize for the delay. There is a vote 
pending in the House and apparently most Members are waiting to 
try and determine whether or not they should come here before 
the vote or after the vote. It looks like they are coming after 
the vote so we are going to postpone for a few minutes.
    [Recess.]
    Mr. Saxton. Ladies and gentlemen, good morning, we still 
have a vote pending, however, we are going to begin the 
hearing. Let me ask unanimous consent that Adam Smith from the 
State of Washington, who is not a member of the panel, and 
Senator Murkowski, be permitted to join us. Without objection, 
it is so ordered.
    The Subcommittee will come to order.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee is meeting today to conduct an 
oversight hearing on the Pacific Salmon Treaty and recent 
negotiations between the United States and Canada. By way of 
background, after years of extensive negotiations, the United 
States and Canada signed the Pacific Salmon Treaty in 1985.
    In addition to the Treaty, there are four annexes that are 
negotiated on a rotating schedule. Annex IV deals specifically 
with the conservation and management of shared salmon 
resources. Since 1983, the parties have been unable to reach a 
long-term agreement on the renewal of any chapters within Annex 
IV. While the Pacific Salmon Commission was formed by the 
United States and Canada to implement the Treaty in 1985, it is 
not the entity through which negotiations are being handled. 
Instead, these discussions have taken place through the use of 
special negotiators, nonbinding mediation and now stakeholder 
meetings. Unfortunately, none of these efforts have been 
successful.
    The Canadian Government wants to resolve the current 
impasse through government-to-government negotiations, and has 
expressed frustration over what they view as the U.S.'s lack of 
authority to reach an agreement. This frustration has 
manifested it-

self into actions taken by the Canadians, infuriating Members 
of Congress and members of the public.
    The first action was the implementation of an illegal 
transit fee on hundreds of U.S. fishing vessels in 1994. These 
fees have been reimbursed through U.S. legislation, but have 
yet to be addressed and reimbursed by the Canadian Government. 
The second action was the blocking of an Alaskan ferry in 
Prince Rupert Harbor this past summer, which inconvenienced 
several hundred Americans and international tourists and cost 
the company thousands of dollars.
    There has been no effort by the Canada to compensate the 
owners of the ferry or its passengers who had nothing to do 
with the dispute.
    We look forward to hearing from our witnesses and let me 
ask the Ranking Member, Mr. Abercrombie, the gentleman from 
Hawaii, and Senator Murkowski, the gentleman from Alaska, if 
they have an opening statement.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Good morning. The Subcommittee will come to order. The 
Subcommittee is meeting today to conduct an oversight hearing 
on the Pacific Salmon Treaty and the recent negotiations 
between the United States and Canada.
    By way of background, after years of extensive 
negotiations, the United States and Canada signed the Pacific 
Salmon Treaty in 1985. In addition to the Treaty, there are 
four annexes that are negotiated on a rotating schedule. Annex 
IV deals specifically with the conservation and management of 
shared salmon resources.
    Since 1993, the Parties have been unable to reach a long-
term agreement on the renewal of any chapters within Annex IV. 
While the Pacific Salmon Commission was formed by the United 
States and Canada to implement the Treaty in 1985, it is not 
the entity through which negotiations are being handled. 
Instead, these discussions have taken place through the use of 
special negotiators, non-binding mediation and now stakeholder 
meetings. Unfortunately, none of these efforts have been 
successful.
    The Canadian Government wants to resolve the current 
impasse through government-to-government negotiations and has 
expressed frustration over what they view as the U.S.'s lack of 
authority to reach an agreement. This frustration has 
manifested itself into actions taken by the Canadians that have 
infuriated Members of Congress.
    The first action was the implementation of an illegal 
transit fee on hundreds of U.S. fishing vessels in 1994. These 
fees have been reimbursed through U.S. legislation, but has yet 
to be addressed and reimbursed by the Canadian Government. The 
second action was the blockading of an Alaskan ferry in Prince 
Rupert Harbor this past summer, which inconvenienced several 
hundred American and international tourists and cost the 
company thousands of dollars.
    There has been no effort by Canada to compensate the owners 
of the ferry or its passengers who had nothing to do with this 
dispute.
    I am looking forward to hearing from our witnesses.
                                ------                                


                  Briefing Paper to Subcommittee staff

MEMORANDUM

TO: Members, Subcommittee on Fisheries Conservation, Wildlife 
and Oceans
FROM: Subcommittee Staff
SUBJECT: Oversight hearing on the Pacific Salmon Treaty.

    At 10 a.m. on Thursday, September 18, 1997, in Room 1324 
Longworth House Office Building, the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans will hold an oversight 
hearing on the Pacific Salmon Treaty and the recent 
negotiations between the United States and Canada. Witnesses 
invited to testify include: Mr. James Pipkin, Special 
Negotiator for Pacific Salmon; Mrs. Mary Beth West, Deputy 
Assistant Secretary for Oceans Bureau of Oceans, Environment 
and Science, Department of State; Mr. William Ruckelshaus, 
Facilitator for the Pacific Salmon Treaty; Mr. David Benton, 
Commissioner for the State of Alaska; Mr. William Ronald 
``Ron'' Allen, Commissioner for the Pacific Northwest Tribes; 
Mr. Curtis Smitch, Commissioner for the States of Washington 
and Oregon; Mr. James Bacon, Chair, Northern Stakeholders 
Panel; Mr. Richard Applegate, Chair, Southern Stakeholders 
Panel.

BACKGROUND

    Pacific salmon and steelhead trout originate in streams 
located in both the United States and Canada. The five species 
of salmon in the Pacific northwest include chinook, coho, chum, 
sockeye, and pink. Pacific salmon and steelhead trout are 
anadromous fish whose life cycle starts in fresh water as eggs 
which develop into fry. Depending on the species of salmon, fry 
reside in freshwater either for months or up to several years 
and develop into smolts (juvenile salmon). Smolts migrate 
downriver and spend the majority of their adult life in the 
ocean. During the adult stage of their life cycle, salmon can 
migrate thousands of miles in the ocean crossing international 
boundaries. The migrating salmon from both countries 
intermingle and are harvested by both Canadian and United 
States fishermen. These interceptions are the cause of much 
debate and controversy.

Pacific Salmon Treaty

    Due to the transboundary nature of their respective salmon 
resources, the United States and Canada have always had a 
common interest in the management of Pacific salmon. 
Cooperative management between the two countries was initially 
undertaken through the Fraser River Salmon Treaty, which 
covered a narrow range of stocks. The need for a more 
comprehensive Treaty became apparent when each country noted a 
marked decline in chinook salmon throughout its range and, more 
recently, coho stocks in Oregon and Washington. Moreover, both 
countries recognized that investments in enhancement and 
conservation efforts would not be undertaken, even though the 
need was great, because there was no assurance that the 
benefits of enhancement and conservation would accrue to the 
country or state embarking on such efforts.
    After years of extensive negotiations, the United States 
and Canada signed the Pacific Salmon Treaty in 1985. The two 
main principles to the Treaty are: (1) to ``prevent overfishing 
and provide for optimum production'' (referred to as the 
conservation principle); and (2) to ``provide for each Party to 
receive benefits equivalent to the production of salmon 
originating in its waters'' (referred to as the equity 
principle). In addition to the Treaty, there are four annexes 
that are negotiated on a rotating schedule. Annex IV deals 
specifically with the conservation and management of the shared 
salmon resources.
    The Pacific Salmon Commission was formed by the U.S. and 
Canada to implement the Treaty. Each country has its own 
section, which consists of four Commissioners and a like number 
of alternates. The approval of both sections, each holding one 
vote, is required to effect a decision. Each party is obligated 
to promulgate regulations to implement fishing regimes approved 
by the Commission.
    The U.S. implementing legislation, the Pacific Salmon 
Treaty Act of 1985, mandates that the four commissioners must 
be in agreement on U.S. positions presented to Canada. However, 
the three voting U.S. commissioners representing Alaska, the 
states of Washington and Oregon, and the Pacific Northwest 
tribes control what positions are passed to Canada through the 
use of their assenting or dissenting votes. The U.S. government 
cannot force any of the voting commissioners to accept an 
agreement. On the other hand, the Canadian government has 
control over its commissioners and are therefore able to 
negotiate directly.
    The Commission receives conservation and management 
recommendations from the Panels that are established by the 
Annexes to the Treaty, namely, the joint U.S. and Canadian 
Northern, Southern, and Fraser River Panels. The Northern Panel 
is responsible for salmon original rivers with mouths entering 
the Pacific ocean between Cape Suckling in Alaska and Cape 
Caution in British Columbia. The Southern Panel is responsible 
for salmon originating in rivers south of Cape Caution with the 
exception of Fraser River sockeye and pink salmon. The Fraser 
River Panel has special responsibility for in-season regulation 
of Fraser River-origin sockeye and pink salmon fisheries in 
southern British Columbia and northern Puget Sound. Panel 
recommendations are based on information received by the Panel 
from a variety of bilateral technical committees. These 
technical committees rely on information provided by Canadian 
and U.S. fishery management agencies.

Negotiations between the U.S. and Canada

    Since 1993, the Parties have been unable to reach a long-
term agreement on the renewal of any chapters within Annex IV, 
which covers all fisheries issues. While the Commission is the 
forum designated to negotiate salmon fishery regimes, the 
Canadians have refused to participate in the Commission 
process. Instead, negotiations have taken place through the use 
of special negotiators in 1994, non-binding mediation in 1995, 
to the most recent stakeholder negotiations held this past 
spring. All of these forums failed to achieve consensus on a 
long-term agreement for fishery regimes. On July 25, 1997, the 
U.S. and Canada appointed two facilitators Mr. William 
Ruckelshaus and Dr. David Strangway, respectively, to 
reinvigorate the stakeholder talks.
    A major impediment to achieving consensus on a long-term 
agreement for fishery regimes is each country's interpretation 
of the equity principle. Specifically, the Canadians believe 
that there is currently an inequity of interceptions. The 
Canadians cite reduced interceptions of U.S. chinook and coho 
salmon by Canadian fishermen and increased U.S. interceptions 
of Canadian sockeye salmon as the cause of this inequity. The 
Canadians would like this inequity addressed prior to or 
included in an agreement on long-term fishery regimes. The U.S. 
does not agree with the Canadian interpretation of equity or 
that there is currently an inequity and has pushed to develop 
conservation and management regimes that take into account the 
equity principle.
    The Canadian Government wants to resolve the current 
impasse through Government to Government negotiations and have 
expressed frustration by what they view as the U.S. 
government's lack of authority to negotiate an agreement. The 
U.S. has maintained its commitment to the Commission process, 
as mandated by its implementing legislation, where each of the 
voting Members has a vote and consensus is needed for a U.S. 
position to be passed to Canada. The Canadians view this voting 
mechanism as having to negotiate with four separate countries 
and has tried to force the U.S. government into taking control 
of the negotiations by implementing an illegal 1994 transit fee 
on U.S. fishermen and by blockading the international movement 
of an Alaskan ferry this past summer.
    On Monday September 8, 1997, despite the fact that the two 
facilitators have not completed their work, British Columbia 
filed a lawsuit suing the United States and naming as 
defendants the Secretary of State, Madeleine Albright, the 
Secretary of Commerce, William Daley, and the States of Alaska 
and Washington. The Canadians are asking the U.S. District 
Court Western District in Seattle, Washington to declare the 
U.S. in violation of the Treaty and require the Secretaries of 
Commerce and State to direct the U.S. section to fulfill its 
international obligations under the Treaty.

Future of the Treaty

    For now, the Treaty remains in place until one party or the 
other gives notice of termination. Unless the U.S. and Canada 
can come to some resolution regarding the current disagreement, 
the future of the Treaty is unclear. Despite the current 
tensions, the Treaty is widely recognized as a significant 
focus of scientific and policy expertise and the preferred 
forum for bilateral management of an extremely complex fish 
resource.

ISSUES

<bullet> The U.S. and Canada established the Pacific Salmon Commission 
to implement the Treaty. Since 1993, negotiations have been conducted 
through a variety of forums, not including the Commission. How can the 
Commission be restored to ensure that it can accomplish its stated 
goal?
<bullet> Has Canada abrogated the Treaty by not negotiating through the 
Pacific Salmon Commission?
<bullet> Is a failure to negotiate a new agreement a significant 
obstacle?
<bullet> What was the rationale for the Canadian lawsuit? Could the 
U.S. use the same rationale to sue British Columbia or Canada, in 
general?
<bullet> In lieu of the lawsuit filed by British Columbia, are the two 
facilitators expected to continue their work? Can they continue their 
work?
<bullet> Will the lawsuit prohibit U.S. stakeholders from returning to 
negotiations with Canadian stakeholders?
<bullet> Have the owners of the Alaskan ferry, the MALASPINA, been 
compensated for their economic losses? When will this occur?

    Mr. Abercrombie. Mr. Chairman, I think the gentleman from 
Alaska probably would dispute that, although Hawaii and Alaska 
came in as States of the Union at the same time. Nonetheless, I 
am pleased to be associated with the good Senator and I would 
just simply like to say, Mr. Chairman, that I believe your 
statement has covered the circumstances and it is probably in 
everyone's interest to move right to the meat of the hearing.
    Mr. Saxton. Thank you.
    Senator Murkowski.

 STATEMENT OF HON. FRANK H. MURKOWSKI, A U.S. SENATOR FROM THE 
                        STATE OF ALASKA

    Senator Murkowski. Thank you very much, Mr. Chairman. I do 
have a short statement. First of all, let me thank you for 
holding this hearing. I think it is important to resolve this 
and I appreciate you taking good care of our friend and 
Chairman, Don Young.
    Mr. Saxton. I don't have a choice.
    Senator Murkowski. That is fair enough. And Representative 
Abercrombie, we appreciate Hawaii's contribution to the Pacific 
salmon issue by being a large consumer.
    Let me again say that I regret I can't remain here because 
of hearings that I have got as Chairman of the Energy 
Committee, but I think it is time to get the salmon debate back 
on an even keel, and I welcome the involvement of Bill 
Ruckleshaus on the USA side, and David Strangway. They are 
charged with getting the talks underway again. The solutions 
must start not with the policy wonks, so to speak, or the 
bureaucrats, but with the stakeholders themselves, those who 
are involved, the fishermen and others.
    I have faith in their good sense and practicality. They may 
not be able to rewrite history to erase the dispute, but with 
the support and trust of both of our governments, they may be 
able to reduce even the most complex issue to a manageable 
size. Some have suggested the Pacific Salmon Treaty is 
unworkable or that the way the U.S. deals with Treaty decisions 
is inappropriate. I don't believe that to be the case. Honest 
efforts will yield honest results.
    Those who reject the Treaty altogether, I think, are 
victims of their own rhetoric. Because they cannot win every 
point, they want to change the rules. Rather than changing the 
rules, both sides, I think, should focus on making the 
stakeholders' path as straight as possible. One important step 
is to discourage misinformation and encourage a clear 
understanding of the facts.
    Salmon, as you know, love herring. Unfortunately, the media 
seems to sometimes love and run for a red herring, as much as a 
salmon love and run for a real herring. For example, the other 
day we saw a flurry of claims that the so-called, ``Canadian 
First,'' fishing policy was a great success, proving the U.S. 
should have taken Canada's offer of 17 percent of the Fraser 
catch instead of insisting on a higher share. The goal was to 
create the impression that the U.S. was unreasonable and that 
had it been willing to compromise, we would have reached an 
agreement.
    Well, every article I saw reported these statements at face 
value. Unfortunately, just as everyone but Sherlock Holmes 
failed to notice the dog that didn't bark in the night, the 
readers did not receive one crucial detail--the fact that 
sockeye numbers were not why the southern stakeholders talks 
broke down. In reality, they broke down because Canada would 
not accept steps to conserve endangered Washington and Oregon 
coho stocks, a completely different species.
    The media obviously doesn't know the difference between the 
various species of salmon. The issue was not the Fraser stocks, 
but protecting the coho stocks. On June 20, 1997, after 
supplemental discussions were held between government 
negotiators, the State Department issued the following 
statement: ``Agreement has not yet been achieved because Canada 
has not been able to make or accept a proposal that would meet 
even the minimum requirements to conserve wild coho off the 
West coast, let alone allow both countries to maintain viable 
coho fisheries. To reach an agreement that would not consider 
these depleted stocks would be irresponsible for both 
countries.''
    To now suggest the Fraser sockeye numbers were a key issue 
is a disservice to the negotiation process and to those 
fishermen and stakeholders and other citizens who expect their 
representatives to do the very best to reach an agreement. As 
no one knows better than Alaska salmon fishermen, who have 
often suffered from it, disinformation doesn't resolve, it 
dissolves. It destroys the atmosphere needed for successful 
negotiation. Worse it creates an emotional atmosphere in which 
illegal actions take place, such as the blockade of the ferry, 
MALASPINA, carrying U.S. mail.
    I don't think linkage to other unrelated issues is the way 
to go. If we keep going in that direction, it is going to be a 
dead-end road.
    As some may know, I chair the Senate delegation of the 
annual Canada-U.S. Interparliamentary Conference. I just 
returned from those meetings, and we had a frank discussion on 
the salmon issue and I will leave it up to others to argue the 
fine points of policy and debate the numbers.
    However, I want to recommend two steps endorsed by the 
conference, which I believe will help bring us back on track. 
The first is that in order to deal honestly with legitimate 
policy issues, we need to work from a common understanding of 
the scientific issues and at present we are far from it. I 
believe it would be helpful to convene a symposium on salmon 
science.
    We should be able to hold our biologists accountable for 
their recommendations and they should be prepared to put their 
reputations behind their recommendations. Who else can we 
depend on? We are a group of novices on salmon science.
    Further, participants should be instructed to put their 
prejudice aside and focus on building common ground. To 
simplify the issues, not confuse them. Let's ask them to look 
carefully at the allegations against various fisheries and tell 
us if the charges are simply true or untrue. Let's ask them to 
tell us where real conservation problems exist and why, and 
let's ask them to tell us where the problem is not 
conservation, but the political problem of allocation.
    Finally, let's ask them to tell us honestly where political 
decisions are creating resource problems. Second, I think it is 
important to remind ourselves how foolish it is to allow 
frustrations over fishing to spill over into other areas where 
we have had long-lasting valuable relationships--Alaska, the 
Pacific Northwest, British Columbia have long-standing and 
important ties.
    If we allow such a spillover to go out of control, the law 
of unintended consequences may harm the entire region's common 
economic and cultural interests. I believe we should now 
encourage those interests to convene perhaps a second 
symposium, one on the positive nature of our relationship, in 
an effort to splice the frayed lines between us. The basic 
organizations are set up in southeastern Alaska, through the 
Southeast Conference. In British Columbia, they have the BC 
mayors and community groups along Highway 16 from Prince Rupert 
to Prince George. Those organizations are in existence and we 
recommend that they convene.
    Finally, to sum up, I think there is still an opportunity 
to reach an agreement, that we should encourage the 
stakeholders to step forward, encourage the governments to 
allow the stakeholders the freedom to do so, and finally make 
every effort to ensure that real resource problems are 
confronted and imaginary problems are rejected.
    Mr. Chairman, I thank you for the opportunity to be heard.
    [The prepared statement of Senator Murkowski follows:]

  Statement of Hon. Senator Frank H. Murkowski, a Senator in Congress 
                        from the State of Alaska

    Mr. Chairman, thank you for the opportunity to share my 
views on this matter.
    It's time to get the salmon debate back on an even keel. I 
welcome the involvement of Bill Ruckelshaus and David 
Strangway, who are charged with getting those talks underway 
again.
    Solutions must start not with policy wonks and bureaucrats, 
but with the fishermen themselves. I have faith in their good 
sense and practicality. They may not be able to rewrite history 
to erase the dispute, but if they have the support and trust of 
both governments, they may be able to reduce even the most 
complex issues to a manageable size.
    Some have suggested that the Pacific Salmon Treaty is 
unworkable or that the way the U.S. deals with treaty decisions 
is inappropriate. I do not believe that. Honest efforts will 
yield honest results.
    Those who reject the treaty altogether are victims of their 
own rhetoric. Because they cannot win every point, they want to 
change the rules.
    Rather than changing the rules, both sides should be 
focused on making the stakeholders' path as straight as 
possible. One important step is to discourage misinformation 
and encourage a clear understanding of the facts.
    Salmon love herring. Unfortunately, the media sometimes 
seems to love a red herring almost as much as salmon love real 
herring. For example:
    The other day, we saw a flurry of claims that the so-called 
``Canada First'' fishing policy was a great success, proving 
that the U.S. should have taken Canada's over of 17 percent of 
the Fraser catch instead of insisting on a higher share. The 
goal was to create the impression that the U.S. was 
unreasonable, and if had it been willing to compromise, we 
would have reached agreement.
    Every article I saw reported those statements at face 
value.
    Unfortunately, just as everyone but Sherlock Holmes failed 
to notice the dog that didn't bark in the night, readers did 
not receive one crucial detail--the fact that sockeye numbers 
were not why the southern stakeholder talks broke down. In 
reality, they broke down because Canada would not accept steps 
to conserve endangered Washington and Oregon coho stocks--a 
completely different species.
    On June 20, 1997, after supplemental discussions had been 
held between government negotiators, the State Department 
issued the following statement:
        ``Agreement has not yet been achieved because Canada has been 
        unable to make or accept a proposal that would meet even the 
        minimum requirements to conserve wild coho off the West coast, 
        let alone allow both countries to maintain viable coho 
        fisheries. To reach an agreement that would not conserve these 
        depleted stocks would be irresponsible for both countries.''
    To now suggest that Fraser sockeye numbers were the key 
issue is a disservice to the negotiation process and to those 
fishermen and other citizens who expect their representatives 
to do their best to reach agreement.
    As no one knows better than Alaska's salmon fishermen, who 
have often suffered from it, disinformation doesn't resolve, it 
dissolves.
    It destroys the atmosphere needed for successful 
negotiations. Worse, it creates the kind of emotional 
atmosphere in which illegal action such as this year's ferry 
blockade are encouraged, and in which linkage to other, 
unrelated issues seems a reasonable method of applying 
pressure.
    That is a dead-end road.
    As some may know, I chair the Senate delegation to the 
annual Canada-U.S. Interparliamentary Conference. I have just 
returned from this year's conference, where we had a very frank 
discussion of the salmon issue.
    I will leave it to others to argue fine points of policy 
and debate the numbers. However, I want to recommend two steps 
endorsed by the Conference, and which I believe will help us 
get back on track.
    First, in order to deal honestly with the legitimate policy 
issues, we need to be working from a common understanding of 
the scientific issues. At present, we are far from it. I 
believe it would be helpful to convene a symposium on salmon 
science.
    Participants should be instructed to put their prejudices 
aside, and focus on building common ground. Let's ask them to 
simplify the issues, not confuse them. Let's ask them to look 
carefully at the allegations against various fisheries and tell 
us if the charges are true or not. Let's ask them to tell us 
where real conservation problems exist, and why. And let's ask 
them to tell us where the problem is not conservation, but the 
political one of allocation. Finally, let's ask them to tell us 
honestly where political decisions are creating resource 
problems
    Second, I think it is important to remind ourselves how 
foolish it is to allow frustration over fishing to spill over 
into other areas. Alaska and the Pacific Northwest have long-
standing and important ties with British Columbia. If we allow 
such a spill-over to go out of control, the law of unintended 
consequences may damage the entire region's common economic and 
cultural interests.
    I believe we should now encourage those interests to 
convene a second symposium--one on the positive nature of our 
relationship--an effort to splice the frayed lines between us.
    To sum up, I think there is still an opportunity to reach 
agreement, and that we should encourage the stakeholders to 
step forward, encourage the governments to allow the 
stakeholders the freedom to do so, and finally, should make 
every effort to ensure that real resource problems are 
confronted and imaginary problems are rejected.

    Mr. Saxton. Senator, thank you very much. I would like to 
ask unanimous consent at this point that Mr. Young's statement 
be included in the record.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    Mr. Chairman, three years ago, we were having a very 
similar conversation in a room down the hall, before two 
Subcommittees of the now-defunct Merchant Marine and Fisheries 
Committee. Some of the faces here today may be new, but the 
topic certainly is not.
    It took many years to reach an agreement on what would be 
the content of a Pacific Salmon Treaty. The Treaty was signed 
and ratified by the United States in 1985. While many believed 
the signing of the Treaty would put an end to the disputes over 
salmon, specifics of the Treaty have been a source of 
contention between Canada and the United States since the 
signing of the Treaty.
    There are two main principles of the Treaty, commonly 
referred to as the ``conservation'' and ``equity'' principles. 
The conservation principle states that each Party should 
``prevent overfishing and provide for optimum production''. The 
equity principle states that ``each Party [shall] receive 
benefits equivalent to the production of salmon originating in 
its waters''.
    The Canadian interpretation of the equity principle has 
kept the Parties from successfully negotiating annual and long-
term fishery regimes. Now, before people push this statement 
aside as being inflammatory and adding to the current flow of 
rhetoric between the U.S. and Canada, let's review the history 
of the past five years.
    The last year of a negotiated fishery regime was 1992. 
Since 1993, the Canadians have refused to negotiate within the 
Pacific Salmon Commission and have pushed for government-to-
government negotiations, which is not allowed under the U.S. 
implementing legislation.
    In 1994, the U.S. and Canada appointed special negotiators. 
Mr. Pipkin was appointed as U.S. negotiator and is here today 
to give testimony. In 1995, the U.S. agreed to non-binding 
mediation, which I never supported. The most recent 
negotiations, conducted by the stakeholders, was the best 
chance to reach an agreement outside the Commission process and 
it also failed.
    The U.S. has bent over backwards to appease the Canadians, 
while their actions continually have been adversarial. In 1994, 
Canada implemented an illegal transit fee on fishermen 
transiting between Washington and Oregon through the inside 
passage. I will also point out that the U.S. has not been 
reimbursed by the Canadian Government for the fees paid to them 
by U.S. fishermen.
    In addition, former Fisheries Minister Brian Tobin 
implemented a fisheries management policy to ``maximize 
disruption'' to U.S. fisheries in order to force the U.S. to 
agree to their interpretation of equity. The current Fisheries 
Minister, David Anderson, has implemented a similar fisheries 
management regime for Fraser River salmon, a ``Canadian first'' 
policy. This policy, as the Canadians have stated publicly, is 
to prohibit Washington and Oregon fishermen from catching 
Fraser River salmon.
    This past July, Canadian fishermen took it upon themselves 
to block an Alaska State ferry. I referred to the blockade as 
``goon squad'' tactics. If the Canadian view of equity was 
valid, they would be able to argue its merits rationally. 
Instead they continually violate international law.
    The U.S. has maintained its commitment to conservation and 
has managed its fisheries to take into account the migration 
patterns of Canadian salmon. Basically, the U.S. incorporates 
both principles of the Treaty into its management practices. 
Therefore, in our view, there isn't an inequity of fishery 
interceptions. However, the Canadians are determined to get an 
agreement based on what they consider to be inequity.
    Here we are with this fundamental disagreement and a past 
filled with a multitude of deeds designed to force the U.S. to 
agree to their terms. Where do we go from here? Can we achieve 
the original intent of the Pacific Salmon Treaty--cooperative 
management and mutual benefits?
    British Columbia recently filed suit against the States of 
Alaska and Oregon, and the United States Government. While I 
realize this lawsuit will prohibit witnesses from freely 
discussing specific issues mentioned in the suit, I do hope we 
can still have a meaningful discussion on the Treaty itself and 
recent, as well as future, negotiations.
    It is time the Canadians stop their theatrics, stop 
violating international law, stop abusing my constituents, and 
roll up their sleeves and negotiate in good faith. It does not 
do anybody any good--including the salmon --if this controversy 
continues to escalate.
    I look forward to hearing from our distinguished witnesses 
and receiving their input on how we can solve this longstanding 
problem.
    Thank you, Mr. Chairman.

    Mr. Saxton. And I would also like to welcome the gentleman 
whose district is in the Puget Sound area, Adam Smith, to the 
panel this morning, and we are looking forward to the testimony 
of our first two witnesses, Mary Best West from the State 
Department, and Jim Pipkin, who is a U.S. special negotiator 
for Pacific salmon. You may proceed.
    Those little lights in front of you, of course, indicate 
when 5 minutes has expired and we would appreciate you using 
them as a guide and try to complete your statement as soon 
after the red light appears as you possibly can. You may 
proceed as you wish.
    Senator Murkowski. Mr. Chairman, this is the letter I would 
like to have introduced into the record from the President of 
the United States.
    Mr. Saxton. We have a letter here from President Clinton, 
which I ask unanimous consent be made part of the record. 
Without objection. Thank you, Senator.
    [The information follows:]
                                   THE WHITE HOUSE,
                                                 WASHINGTON
                                                 September 8, 1997.
The Honorable Frank H. Murkowski
Chairman, Committee on Energy and Natural Resources,
United States Senate,
Washington, DC. 20510
Dear Mr. Chairman:
    Thank you for your letter which included a copy of the U.S. Senate 
resolution condemning the Government of Canada for its failure to 
accept responsibility for the illegal blockade of a U.S. vessel in 
Canada.
    I want to assure you that we have made clear to Canada how 
seriously we view the action against the M/V Malaspina. Immediately 
upon learning of the blockade, we vigorously protested to the 
Government of Canada at very senior levels both here and in Ottawa. 
While I am pleased that no violence occurred and that the vessel was 
eventually released, we have continued to underscore to Canada the 
seriousness with which we view the blockade and the failure of Canadian 
authorities to immediately enforce their own court order.
    I understand that Alaska is pursuing a civil suit for damages in a 
Canadian court. Parallel to this effort, we have made clear to the most 
senior Canadian government officials that any recurrence of illegal and 
inexcusable actions on the West coast, such as those involving the 
Malaspina, will necessitate our taking appropriate countermeasures.
    Resolution of the underlying Pacific salmon dispute will require 
the goodwill of all parties involved. I believe the stakeholders' 
process offers the best method to make progress on this vexing problem, 
because it involves discussions between those directly involved. It is 
for this reason that the United States and Canada have agreed on the 
naming of envoys to facilitate reinvigoration of the stakeholders' 
process. As you are aware, William Ruckelshaus has been named our 
Special Representative, and David Strangway has been appointed to a 
similar position by the Canadian government. Both will work closely 
with the stakeholders and relevant government officials in an effort to 
advance the process. Bill Ruckelshaus will report to me through the 
Secretary of State.
    Thank you again for your letter and for your interest in this 
important matter.
            Sincerely,
                                               Bill Clinton
                                                         President.
                                 ______
                                 
                          Pennsylvania Avenue, N.W.
                                      Washington, DC. 20001
                                                 September 15, 1997
The Honourable H. James Saxton,
Chairman, House Subcommittee on Fisheries Conservation, Wildlife and 
        Oceans
U.S. House of Representatives
Washington, DC.
Dear Chairman Saxton,
    I write in reference to the hearing that the Subcommittee which you 
chair will hold September 18 on the Canada-U.S. Pacific salmon dispute.
    This hearing will be helpful in bringing members up to date on 
recent developments and on larger issues concerning the future of this 
important resource and the relationship between our two countries. I 
therefore wish to highlight some of Canada's perspectives and concerns 
in this connection with a view to moving beyond the emotion that has 
characterized this issue in recent months.
    The geography of the Pacific coast of North America and the biology 
of Pacific salmon stocks mean that neither the United States nor Canada 
can effectively manage their fisheries on their own--cooperation is 
essential for the conservation and rebuilding of vulnerable salmon 
stocks. The principles of equity and conservation enshrined in the 
Pacific Salmon Treaty take account of this imperative.
    It is important to understand the frustration of Canadians involved 
in the Pacific salmon industry over the longstanding inability of the 
two sides to come up with a way, under the Treaty, to address the twin 
goals of conservation and equity. Since the Treaty was signed in 1985, 
U.S. interceptions of Canadian-origin salmon have increased while 
Canadian interceptions of U.S.-origin salmon have decreased. The 
cumulative interception imbalance amounts to about 40 million fish 
worth C$650 million (Canadian wholesale value for the period 1985-96). 
It is against this backdrop that Canadian fishers have faced reduced 
fishing opportunities and catches because of these excessive U.S. 
catches and the conservation of critical Canadian salmon stocks has 
been compromised. As a result, these are communities faced with ever 
more limited opportunities to pursue their livelihood. This has led to 
a very high level of frustration among those most affected, directed at 
both our Governments. At every opportunity, the Government or Canada 
has worked, generally successfully, to ensure that these emotions not 
find expression in counterproductive actions.
    The Government of Canada is determined to make the utmost efforts 
to put in place a framework for the future implementation of the Treaty 
that will minimize misunderstandings and maximize our joint efforts to 
conserve the resource. That is why Canada's Prime Minister, Minister of 
Foreign Affairs and Minister of Fisheries and Oceans have intervened 
personally and directly in this matter. They have taker decisive action 
to ensure a responsible and sustainable Canadian fishery and to avoid a 
negative impact on other sectors of our relationship to which this 
dispute has been inappropriately linked.
    Our first preference was and remains binding arbitration, but we 
have nevertheless agreed to a renewed attempt at finding a negotiated 
solution and we are fully committed to the process that has been agreed 
for this purpose, namely the appointment of Dr. David Strangway and Mr. 
William Ruckelshaus. This process will benefit from the support of your 
Committee, particularly when the time comes to put in place financial 
instruments to implement the arrangements that will hopefully be agreed 
upon.
    In closing, I wish to emphasize the view of the Canadian Government 
that this dispute should be and can be treated in a manner consistent 
with the close and mutually beneficial relationship that Canada enjoys 
with the Government and people of the United States, including in the 
fisheries sector. Our two countrie have cooperated closely at the 
bilateral and international level to advance our mutual conservation 
goals.
    The preservation of a thriving salmon fishery on the west coast of 
North America is a goal that we share. I am confident that we can make 
the necessary longterm commitment to act accordingly and in unison to 
achieve that goal.
    We in the Embassy would be pleased to assist you and your staff in 
any way we can as you prepare for these important deliberations, for 
which I wish you every success.
            Yours sincerely,
                                          Raymond Chretien,
                                                         Ambassador
Members of the House Subcommittee on Fisheries Conservation, Wildlife 
and Oceans

STATEMENT OF JAMES PIPKIN, U.S. SPECIAL NEGOTIATOR FOR PACIFIC 
                             SALMON

    Mr. Pipkin. Thank you, Mr. Chairman and members of the 
Subcommittee. I was the Chief U.S. Negotiator for Pacific 
Salmon from 1994 until early 1997. I continue to be U.S. 
Special Negotiator and Acting Federal Commissioner.
    The dispute between Canada and the United States over 
salmon harvest precedes my involvement by many years and indeed 
many decades. The current Treaty was adopted in 1985. Both 
countries hoped that it would provide the framework for a 
permanent resolution of the issue, and it did, in fact, make 
possible 8 years in which the parties agreed on fishing regimes 
and undertook efforts to address a mutual conservation problem. 
That status didn't last and even for those 8 years, Canada has 
raised a question as to whether the agreements were fully in 
compliance with all Treaty principles.
    For the last 5 years, there has been much more disagreement 
than agreement. Each fishing season has been approached with an 
air of crisis, with accusations and sometimes with threats. 
This summer we saw frequent reports that one country's fishing 
policy amounted to waging a war on the other, and some people 
have begun to suggest that no treaty at all may be better than 
the current status.
    The disagreement goes to whether the principles that appear 
in the Pacific Salmon Treaty are being fully implemented, and 
specifically to whether harvests reflect an appropriate 
allocation of fish.
    In the short time I have, I am not going to try and explain 
the principles or even tell you which country is right and 
which is wrong. I would only say the principles are stated in 
general terms and they interrelate.
    The Treaty negotiators left it to the Salmon Commission to 
work out how the principles should be applied and that often 
has not proved possible. Each country has its own 
interpretation of how the principles should be implemented and 
each country strongly believes the other country's 
interpretation is wrong.
    I became the U.S. Chief Negotiator at a time when both 
countries agreed to elevate the issue in priority and make a 
determined effort to find a solution. In 1994 and 1995, we 
conducted high level government-to-government negotiations. 
Unfortunately, they did not succeed.
    Later in '95 and early '96, a mediator was asked to try to 
bring the parties together and, unfortunately, that didn't work 
either. This year the parties attempted a different way to 
approach the issue. The new approach reflected a joint proposal 
by the Governors of Alaska, Washington and Oregon, later 
endorsed by the tribes, and it is referred to as the 
stakeholder process. Other witnesses will tell you more about 
that process. But I would like to say the stakeholder process 
represented a major step forward. It recognized the best 
solution is likely to come from the region and not from 
Washington and Ottawa, and it must involve fishermen and others 
who have a stake in the outcome.
    In addition, it recognized that because the two governments 
have been unable to come to terms on what the Treaty principles 
were intended to mean, if a solution is to be found, it will 
likely be a pragmatic solution, based on an examination of 
individual fisheries and not on theoretical grounds. This 
spring the stakeholders made real progress. American 
stakeholders both in Alaska and Washington/Oregon made far-
reaching proposals that would have involved substantial 
sacrifice for U.S. fishermen and would have required a 
significant financial commitment at the Federal and State 
levels.
    In the end, Canada decided the proposals did not go far 
enough. Recently, Mr. William Ruckelshaus was appointed as 
special representative of the President and Secretary of State. 
The charge of Mr. Ruckleshaus and his Canadian counterpart is 
to try to get the stakeholder talks going again. They have a 
difficult assignment.
    The U.S. stakeholders stretched to make the proposals they 
did and they were disappointed and frustrated their proposals 
were not accepted. In the months since May, the prospects for 
resolving our differences certainly have not been enhanced by 
some of the provocative actions and statements that have taken 
place. Those events served to fuel a continued anger of the 
stakeholders and their concern about whether Canada has a real 
interest in finding a long-term, mutually acceptable solution. 
Nevertheless, I believe the stakeholder negotiations represent 
our best hope for a settlement and we will do everything we can 
to get that process back on track and to give it a chance.
    Despite the differences between the two countries, in my 
prepared testimony, I have outlined the general framework of a 
possible settlement. In my view, any lasting settlement is 
likely to: one, be built from the bottom up, fishery-by-
fishery, not the top down; two, involve separate regional 
negotiations for northern and

southern fisheries; three, involve full participation by the 
States and tribes in developing a solution; four, be based on 
abundance-based management; five, include a proposal to 
establish a salmon management research and conservation fund; 
six, involve some reduction in fishing capacity; and, seven, 
resolve the dispute about Treaty principles for a substantial 
period of time.
    I explain in more detail those points in my prepared 
statement. The stakeholder process was on its way to addressing 
all of those components and it has the potential to achieve a 
lasting solution. On the other hand, if the stakeholder process 
fails, that does not bode well for the future of the Pacific 
Salmon Treaty.
    At that point, many in the United States would be likely to 
recommend a hard look be taken at whether there is a real 
reason for the United States to remain a party to the Treaty. 
We hope that does not occur and we will do whatever we can to 
help the renewed stakeholder talks succeed. Thank you, Mr. 
Chairman. I would be happy to answer any questions.
    [The prepared statement of Mr. Pipkin may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much. Mary Beth, do you have 
some testimony for us?

  STATEMENT OF MARY BETH WEST, DEPUTY ASSISTANT SECRETARY FOR 
 OCEANS, BUREAU OF OCEANS, ENVIRONMENT AND SCIENCE, DEPARTMENT 
                            OF STATE

    Ms. West. Surely. Mr. Chairman and members of the 
Subcommittee, thank you for the opportunity to be here today to 
discuss the Pacific salmon stakeholders process. As you know, 
the U.S. and Canada have asked two distinguished individuals, 
former EPA Administrator, William Ruckelshaus for the U.S., and 
former B.C. University President, Dr. David Strangway from 
Canada, to attempt to reinvigorate the stakeholders talks.
    Because this process is ongoing and may lead to further 
negotiations, I will not be able to discuss the specifics of 
the negotiations in this hearing. However, we have offered and 
offer here again to provide a further confidential briefing if 
any of the Members so wish. In addition, because there is now 
litigation concerning this issue, there may be areas of 
discussion that we will not be able to pursue. We sincerely 
appreciate the assistance and responsiveness of the Members and 
staff throughout the last year, as we have pursued this issue, 
and I want to say we fully intend to continue those cooperative 
relationships in the future as we grapple with this issue.
    The concept of involving the real constituents, those with 
the greatest stake in achieving a workable fishery, makes 
particular sense, because the major stumbling block in past 
negotiations with Canada has been the strongly held, almost 
theological, position of the two governments concerning the 
interpretation of the equity principle in Article III of the 
Treaty.
    The hope is that the stakeholders can put aside those 
differences, concentrating instead on pragmatic, fisheries-
related solutions that could be implemented through 
modifications to the annexes that originally went into force 
under the Treaty.
    For this reason, working with the PSC Commissioners, State 
and tribal representatives and Hill staff, we developed and 
presented to Canada a proposal for a stakeholders process, 
overseen by the governments. Canada was willing to agree to 
such a proposal, but only if any issues not resolved by the 
stakeholders would go to government-to-government negotiations. 
The two governments agreed to establish two groups of 
stakeholders, one for the North and one for the South.
    Each was charged to develop pragmatic recommendations for 
each fishery that would implement the principles of Article III 
of the Treaty--conservation and equity. The governments further 
agreed to give stakeholder groups considerable flexibility. 
Each group was to decide how to organize its efforts, including 
the selection of co-chairs, if deemed desirable.
    On the U.S. side, the stakeholders were chosen by States 
and tribes with the concurrence of U.S. Pacific Salmon 
Commissioners. Eight representatives were chosen for each 
group. The two governments also selected government observers 
for each group.
    Beginning in the week of February 10th, U.S. stakeholders 
began their work and worked incredibly hard. They presented to 
their Canadian counterparts creative and far-reaching 
proposals. These proposals, in fact, involved more potential 
sacrifice than the government representatives would have 
predicted.
    And they appeared to form a promising basis for potential 
solutions. By the agreed ending date for the stakeholders 
process, May 9, the northern stakeholders had made significant 
progress, but had not yet finished their work. Because of the 
advent of the fishing season, however, scheduling further 
meetings proved an insurmountable difficulty.
    The southern stakeholder group defined proposals on sockeye 
and coho and made progress on narrowing the differences on 
sockeye. By May 9, however, southern stakeholders felt they had 
reached the end of their ability to negotiate as a stakeholder 
group and reported this fact to the government.
    Subsequently, the governments undertook negotiations 
concerning the sockeye and coho fisheries. As you know, the 
governments were ultimately not able to achieve agreement on 
either fishery, although progress was made on narrowing the gap 
on sockeye and somewhat on coho. In particular, we were unable 
to get Canada to propose or to agree to a regime for the coho 
fishery, which meant what our science showed to be the minimum 
necessary standards for long-term conservation and rebuilding 
of the coho stock, while allowing for reasonable fisheries in 
both countries. Because conservation of coho was one of our 
major objectives, we could not see the possibility for an 
agreement.
    During the government-to-government talks, the two sides 
began to look at the type of framework that might exist for an 
ultimate arrangement bridging our differences. Such an overall 
arrangement could involve specific fisheries regimes, 
establishing conservation and allocation systems for the 
fisheries at issue for a relatively long time period, such as, 
perhaps, 10 years.
    In order to resolve the equity issue, however, any overall 
arrangement would likely also need to involve another 
component, such as creation of a salmon resource fund. Such a 
fund would likely involve contributions from the United States 
and other public or private bodies to be used for salmon 
conservation management, research, enhancement and habitat 
restoration.
    We have discussed the concept of a fund with many of you 
and your staffs. Our view and Congress' view of such a fund 
will, of course, depend on the nature of an overall solution, 
whether it is viewed as good for the U.S. and good for the 
resource.
    Finally, let me speak briefly to the problems that occurred 
in the stakeholders process this spring. I cannot be definitive 
because this is the very issue we have asked Messrs. 
Ruckleshaus and Strangway to assess. However, let me make two 
general points.
    First, there appeared to be considerable difference in the 
way the U.S. and Canada approached the stakeholders process and 
in the commitment of the two sides to it. The U.S. viewed and 
continues to view the stakeholders process as the best 
opportunity to achieve a resolution.
    Canada, on the other hand, appeared to view the government-
to-government negotiations as the real forum. The differences 
in these two viewpoints meant that the stakeholders were 
working from different points of reference. That difference 
will have to be resolved if we are to proceed productively.
    Second, as I am sure you are all aware, Pacific salmon is a 
large and extremely complex subject, involving numerous 
fisheries and issues. In attempting to find a resolution, we 
must put together the pieces of a puzzle that has many 
interrelated parts. We have no illusions about the difficulty, 
but we believe we must try, and for that purpose, the 
Department intends to give the stakeholders process our full 
support. Thank you, Mr. Chairman. I would be pleased to answer 
questions.
    [The statement of Ms. West may be found at end of hearing.]
    Mr. Saxton. Thank you very much. As you can tell, we are in 
the process of holding a vote. Mr. Abercrombie has a few 
questions and we will proceed with his questions before we 
break.
    Mr. Abercrombie. Mr. Chairman, I am not sure we can get 
through it all, but on this issue, Ms. West, and Mr. Pipkin, 
since the resolution, you are familiar with Mr. Young's 
resolution in July of this year, H.R. 124, urging the 
government to give back. I have tried to study it since then 
because of the unfortunate circumstances of the holding 
hostages, which is what I characterize the situation as being, 
and what I have concluded is neither government is right. This 
whole thing is being handled wrong.
    First of all, it is ludicrous. If Canada is determined to 
have this government-to-government, no offense to you, Ms. 
West, but you are not a marine biological, are you?
    Ms. West. No, sir.
    Mr. Abercrombie. You haven't done scientific research, nor 
does the Department of State have the kind of capacity to do 
the scientific research in salmon runs, changes in fisheries. 
You have no capacity to do that, right?
    Ms. West. We rely on scientific advice from the Department 
of Commerce and the PSC.
    Mr. Abercrombie. Yes, right, the Department of Commerce, I 
am sure, has a lot of scientific advice to give. That makes my 
point. And I don't expect that the Canadians have much to offer 
either in that regard. There are principles being--please don't 
think I am criticizing you personally. I am not. I think you 
have an impossible task here. There can't be one side saying 
government-to-government negotiations, another side saying we 
have another process, a commission, et cetera. With all that is 
involved in the commissions, nothing against people on the 
commission either, but that is not going to work. You are just 
going to be at an impasse. Meanwhile, people doing the fishing 
are frustrated. The Canadian Embassy sent a letter. Are you 
familiar with the letter sent to Mr. Saxton on September 15th? 
Have you seen that letter?
    Ms. West. I have not seen that letter.
    Mr. Abercrombie. Maybe a copy could be provided. But it is 
very revealing, Ms. West. I want to quote a couple sentences to 
you. In the third paragraph, it says, ``The geography of the 
Pacific Coast of North America and the biology of Pacific 
salmon stocks mean that neither United States or Canada can 
effectively manage their fisheries on their own. Cooperation is 
essential for the conservation and rebuilding of vulnerable 
salmon stocks.''
    Just on the surface of my representation to you, does that 
sound like a reasonable statement? It does to me.
    Ms. West. Yes, I think that is the very reason why we have 
the Treaty and are trying to make the Treaty work.
    Mr. Abercrombie. Yes, but the Treaty isn't going to work. 
It is not working now and it isn't going to work. In the second 
to the last paragraph, he says, the preservation, this is by 
Mr. Chretien, the Ambassador, ``The preservation of a thriving 
salmon fishery on the West Coast of North America is a goal we 
share.'' Does that sound like a reasonable statement?
    Ms. West. Yes.
    Mr. Abercrombie. Okay. In other words, I conclude from 
this, and I have the map here, Pacific Salmon Treaty, the area 
that is involved, and because of the initiative of the 
Chairman, Mr. Saxton, with respect to scientific inquiry and my 
association with that effort on his part, where oceans are 
concerned and conservation is concerned, I have taken a good 
look at this.
    There is no way that salmon are going to examine this piece 
of paper, right? Salmon don't look at maps. Salmon don't look 
at geographic borders. Salmon are not interested in commissions 
and salmon don't negotiate government-to-government. Has it 
ever been considered by anybody that, first of all, we do real 
scientific studies of what salmon do and why they are doing 
what they are doing, and in that process, then, why don't we 
have a fishery where we split the difference? No matter where 
the fishery is, no matter where the catch is, why don't the 
Canadians and Americans cooperate with one another and go 50-50 
no matter where it is. Has that ever been considered?
    Ms. West. Let me say, first, to the issue of science, I 
fully agree, and this was included in Senator Murkowski's 
statement, that we need to have a common understanding of the 
scientific issues. I think we need to work on that because I 
don't think the process is working now as well as it could. We 
need to rely on our science. We need to have common science.
    Mr. Abercrombie. Okay. Let's agree on that.
    Ms. West. With regard to the question of splitting the 
difference, I believe that we have been trying to find with 
Canada an allocation scheme.
    Mr. Abercrombie. It is not going to work.
    Ms. West. That the two governments would agree to. 
Splitting the difference across the board, I do not believe, 
would ever be something either side would agree to.
    Mr. Abercrombie. I understand, but I will tell you 
something right now. If the Americans were on the short end of 
the catch, they are not now, they would all be here in front of 
this Committee screaming the Canadians are taking too many 
salmon and we ought to work the deal out and that is not fair. 
And the Canadians would have a different kind of letter. 
Instead of talking as the Ambassador does here of the excessive 
U.S. catches, we would be here talking about the excessive 
Canadian catches. And on that note, we have to go and vote and 
I'm sorry.
    But I am deadly serious when I say I don't want to involve 
myself in a ritual in the Committee and I am sure the Chairman 
doesn't, where we just passively acquiesce to something we 
don't think is going to work. The Fisher people in Canada and 
the United States have to seriously consider how they are going 
to maybe get a co-op between the two of them and work to see 
how everybody can prosper, and nobody will prosper if we don't 
have a clear understanding of what the actual salmon runs in 
the fisheries are all about.
    [The information may be found at end of hearing.]
    Mr. Saxton. I thank the gentleman from Hawaii and we will 
hold your response until you get back. That is assuming you can 
stay.
    Mr. Abercrombie. You can think deeply on this while we are 
away.
    Mr. Saxton. Mr. Pipkin, in your statement, you listed a 
number of ingredients that you thought were likely necessary in 
building a successful negotiating process. The first that you 
listed was the bottom-up approach, fishery-by-fishery. Would 
you explain to a Northeasterner, who has not followed this 
issue as closely as some others, precisely what that means?
    Mr. Pipkin. I would be happy to, and this also is 
indirectly in response to Mr. Abercrombie's question as well. 
The fact is that we are dealing with a series of fisheries that 
have very different circumstances involved, different 
characteristics of the fisheries. That is partly why, in this 
country, we have traditionally let management be done primarily 
by the States and the tribes who have the expertise and 
knowledge about fisheries, rather than by the Federal 
Government. And it is why we think that the stakeholders 
process is so well founded, because the stakeholders are doing 
exactly that.
    Let me give you two examples that will show the range of 
fisheries involved. Take, as one example, the U.S. tribes in 
the Washington area, who have caught Fraser sockeye for 
literally hundreds of years and who have Treaty rights with the 
United States that protect their ability to continue to fish. 
The fish that they catch are Canadian-spawned sockeye, but they 
have historic and probably legal rights as well to continue to 
fish. That is one kind of circumstance that we are dealing 
with.
    A different kind of circumstance can be described in some 
of the Alaskan fisheries where fish that are spawned in Alaska 
mingle with fish that are spawned in Canada and the fisheries 
that are targeted on Alaskan fish can't avoid catching some 
Canadian-spawned fish. That is why when the Treaty was 
presented to the Congress, the Secretary of State pointed out 
those two examples. We said in the case of the northern 
boundary area, stocks cannot be segregated. ``The U.S. fishery 
targeted on U.S.-origin salmon must catch Canadian-origin 
sockeye in an incidental manner. . . . A reduction in 
interception levels would preclude a party from targeting on 
its own stocks. That would be plainly contrary to the parties' 
objective.''
    He said on Fraser that that was ``a fishery developed and 
maintained jointly by the parties since the 1930s.'' Canada 
``affirmed that it had no intention of closing down a historic 
U.S. fishery'' and the Treaty provides ``an assurance that the 
commission will seek to avoid social and economic 
dislocations.'' So I am saying that all of these fisheries are 
different and that is why the stakeholder process makes sense, 
to look at the individual characteristics of each fishery, look 
at the role of interceptions in the fishery and decide what is 
appropriate for that fishery.
    Mr. Saxton. Now, obviously that is a position of the United 
States Government and presumably some Northwest fishermen or 
fishermen's groups; is that correct? Now, I think I heard----
    Mr. Pipkin. And the Governors of Alaska, Washington, 
Oregon, who proposed the stakeholder concept in the first 
place.
    Mr. Saxton. Now, I gather from earlier testimony that one 
of you gave that the Canadian position is somewhat different 
relative to this bottom-up approach that the United States 
favors. Is that correct?
    Mr. Pipkin. Traditionally, it has been. The Canadians have 
always favored the same kind of approach that is mentioned in 
the letter from Ambassador Chretien, which is you add up 
everything, balance it out and see who is ahead. We have always 
felt a solution needs to be arrived at by looking at it from 
the other end. But the Canadians did agree to the stakeholder 
process this spring and a premise of the process was you look 
at it on a fishery-by-fishery basis and we think that makes 
sense.
    Mr. Saxton. Now, beyond the fishery-by-fishery, bottom-up 
stakeholder approach, you also have in your testimony that it 
would be desirable to also have regional negotiations. Can you 
explain to me how this differs from the stakeholder concept?
    Mr. Pipkin. Well, in fact, that is the stakeholder concept. 
By setting up a separate panel for northern fisheries and for 
southern fisheries, it addresses the problem that I refer to in 
my testimony. We have always felt that it is not appropriate to 
say to fishermen in Alaska that they have to make up for sins 
in the South or vice versa, and that each State is responsible 
for its own actions, but it shouldn't have to be responsible 
for things that take place beyond its borders.
    Mr. Saxton. And, again, the United States feels strongly 
that the stakeholder approach is the appropriate approach, 
because people who are involved in the fisheries get to help 
make decisions on both the Canadian and the United States side, 
but the Canadian position is not the same in some ways that are 
meaningful.
    Mr. Pipkin. Well, we are getting to----
    Mr. Saxton. Let me tell you what I am trying to get at. I 
remember some international negotiations that took place a few 
years ago where the negotiators spent some days or weeks 
negotiating what shape the table was going to be and I think I 
see a lot of negotiating taking place here over how to 
negotiate. Is that correct?
    Mr. Pipkin. Well, I think that the task that has been 
assigned to Mr. Ruckleshaus and Dr. Strangway is to look at the 
stakeholder process and make sure that both countries are 
approaching it in the same fashion, and that the objectives 
that the stakeholders are trying to achieve are commonly 
understood on both sides of the table.
    Mr. Saxton. Thank you. My time has expired, and Mr. Young, 
the gentleman from Alaska, has arrived, so I would like to call 
on him.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Chairman Young. I thank the Chairman and I thank you for 
conducting these hearings. This has been an issue I have been 
involved in as long as I have been in Alaska, which is 34 
years. I will tell you right up front, for the State 
Department, when this Treaty was first signed, Mr. Chairman, 
many years ago, I opposed it at that time. I think it was 
incorrect for the State to enter into the Treaty. I wanted to 
say that for the record.
    We implemented everything we could with the Treaty and cut 
back on the catch of our fish, below what the Treaty originally 
agreed to, so I believe Alaska has played fair, much fairer 
than I would have if I had been Governor because I think we 
have done what is correct in taking care of our fisheries. And 
for the Canadians, I will tell you, I have seen your timber 
cuts and I have seen your factories. I have seen your catching. 
I have seen your nonconservation practices and I have seen our 
State do an admirable job, in fact, a job beyond any other 
State or any other area in the world. So I will tell you, I am 
probably a little opinionated about this process, right up 
front.
    Mr. Abercrombie. Why change your way of living now, Mr. 
Chairman.
    Chairman Young. Even though I had physical problems 
recently, I am trying to be calm, and I will be so. But the 
question I have is----
    Mr. Abercrombie. This is as calm as he gets, by the way, I 
hope we all enjoy it today.
    Chairman Young. Does the Canadian Government provide to 
U.S. Commissioners or U.S. science the annual harvest level of 
Canadian commercial harvests in a timely manner? Do we know 
what they are catching?
    Mr. Pipkin. I readily admit that my knowledge on this is 
not great and that other witnesses will be better able to 
answer that question, I'm sorry.
    Chairman Young. Then, you ought to say, no, if you don't 
know.
    Mr. Pipkin. I really don't know.
    Chairman Young. Because to my information, we do not know 
what they are catching. They do not have a harvest ticket. They 
do not have a weigh ticket. There is no reporting at all, and 
when it finally gets to us, it is made up of blue sky and that 
bothers me a great deal because they are talking about equity 
and they talk about fisheries and fairness and conservation. We 
don't know what they are doing. All I hear is they want to 
catch more fish, and mostly my fish. Which reminds me, can 
anybody answer this? Does Canada count sport-caught fish 
against its total harvest numbers. Does anybody know that 
answer?
    Mr. Pipkin. Could you repeat that?
    Chairman Young. Does Canada count its sport-caught fish.
    Mr. Pipkin. I think it does not.
    Chairman Young. It does not. In fact, we cut our king 
salmon or chinook to one per sport fisherman, and I believe, 
that is per day--no, I don't think it is per day. It is 
probably cutoff. We cut silver salmon to two per day to keep, 
and I have seen ads in the papers in Seattle, come to 
Vancouver, come to British Columbia and you can keep six kings 
and six silvers a day.
    Now, where is the equity in that? I am saying this 
primarily for your information, because you don't know that 
much, but the State Department better know these things because 
there is an unfairness here. There is a $70-million sport 
fishing program in British Columbia catching fish, far 
outnumbering what we catch sport-wise because we limit our 
catch.
    Being that you don't know everything, can I ask Ms. West, 
what is the United States position on binding arbitration?
    Ms. West. The U.S. has indicated to Canada on several 
occasions that we are not in a position to arbitrate this 
matter. The Treaty does not provide for binding arbitration of 
this kind of issue. Our general practice is that we would make 
a commitment to binding arbitration in this kind of case only 
with congressional concurrence, and it has been made clear to 
us by congressional committees that they would be opposed to 
such a process.
    Chairman Young. I thank you for that answer because that 
means a great deal to me.
    Now, let's get back to the stakeholders. If I understand 
correctly, stakeholders are going to be the major players in 
these negotiations and in fact, Mr. Ruckelshaus, who I happen 
to know from the previous administration, is going to try to 
expedite that, but not take the dominating role over the 
stakeholders; is that correct?
    Ms. West. That is correct. Part of the job given to Mr. 
Ruckleshaus and Dr. Strangway is to take a look at the 
stakeholders process and find ways to make it work. This 
responds to Mr. Abercrombie's question about the stakeholder 
process not working. We know that it was not able to reach a 
conclusion last time. We need to find out what the problems 
were and solve those so that we get a stakeholder's process 
that can work. That is why we have brought in these 
distinguished individuals.
    Chairman Young. Well, the Canadians blame you for the 
demise of the stakeholders' negotiations this past spring. In 
fact, they use that as an excuse of leaving the table because 
you don't have negotiating authority. How do you respond to 
that accusation?
    Ms. West. As you know, under the legislation implementing 
the Pacific Salmon Treaty, the authority rests with the States 
and the tribes. We have always, and will continue under that 
legislation, to need to make sure we have a consensus position 
on things and it is simply that process that the Canadians were 
referring to--that we checked with the States and tribes.
    Chairman Young. In these negotiations and in the 
stakeholders, do you see a division as far as the North and 
then the South, when I am suggesting northern British Columbia 
and Alaska negotiating, because there are different species and 
different stocks, and the South being British Columbia, 
Washington and Oregon. Do you envision that to Mr. Ruckleshaus?
    Ms. West. Yes, I think the stakeholders will continue to be 
set up in two panels; a panel for the northern issues and a 
panel for the southern issues. I believe, as Mr. Pipkin said, 
that it is a major step forward to separate the northern and 
southern issues and I think it will assist in the eventual 
resolution of the matter.
    Chairman Young. Now, we come back--how long did it take for 
us to first achieve the Pacific Salmon Treaty? How long did 
that take; does anybody know?
    Ms. West. It was 15 or 20 years, something like that.
    Chairman Young. And we had it ratified in 1985 and how many 
years have we been without a treaty?
    Ms. West. We have a treaty, the Pacific Salmon Treaty is 
still in force. However, some of the annexes that are attached 
to it, which contain specific fisheries regimes, have expired. 
The Treaty itself still exists and we are trying to find a way 
to replace those annexes and make the Treaty work.
    Chairman Young. Now, when we do this, is there a selective 
group of scientists that also have their input or is this all 
political?
    Ms. West. We need to rely on science. We need a common 
understanding of science. We rely on the science from the 
States, the tribes, the Pacific Salmon Commission and National 
Marine Fishery Service. There has been some very good 
scientific work done, but I will also say that it can be done 
better, and I think we need to look for ways to improve that 
process.
    Chairman Young. Part of the whole program, if it is to 
work, Canada, British Columbia has to be part of the science 
also. They can't expect us to issue the science, do the study 
and do the right things and Washington try to do the same 
thing. But if we were to do the right thing, that has to be 
part of this annex to the Treaty to make it work.
    Mr. Pipkin. And the technical panels of the Pacific Salmon 
Commission are bilateral panels that do include scientists from 
both sides. In recent years, there is a question as to whether 
policy and politics have gotten in the way of that process 
working.
    Chairman Young. I go back to what I said before. If you 
don't know what the catch is that comes out of Canada, how can 
you base any science on that? You can't. The second is they 
have a six limit of king salmon, a six limit of silver salmon a 
day, sports fishing, and all the sports fishermen in Washington 
State go up there, and we are limited to one. Where does the 
science come from that? Do they report that? Do you have any 
knowledge of that?
    Mr. Pipkin. I don't.
    Chairman Young. Mr. Chairman, my time has run out.
    Mr. Gilchrest. Thank you, Mr. Young. This is sort of a 
general overall question. From Mr. Young's statement, it 
appears to me, and having worked with people in Alaska, one of 
the key ingredients, to my understanding, that improved the 
Magneson Act was to take a piece out of what Alaska's Fisheries 
Council was doing, as far as scientific data was concerned. And 
you may not be able to answer this question, but what is the 
driving force behind Alaska in trying to meet an agreement and 
the driving force behind Canada in trying to meet an agreement?
    You alluded to it a little bit about is it the science that 
people are trying to achieve, is it the political policymakers, 
is it the charter boat captains from British Columbia that want 
to get a few more people on the boat? In your opinion, what is 
driving the issue from an Alaskan American perspective and from 
a Canadian perspective? Could you both comment on that?
    Mr. Pipkin. I am not quite sure how to answer that. The 
Alaskans are very proud of their management of fish and the 
fact that most of the fisheries in Alaska are flourishing and 
doing very well. And they are also very proud of the science 
that is behind their management of their fisheries.
    As to the differences between Alaskan and Canadian 
compliance with the Treaty, I am not sure what to say, other 
than just the fact the two countries are so far apart on their 
interpretation of the Treaty, that, you know, that has led to 
the problem we are in.
    Mr. Gilchrest. You said the Treaty is still in force, but 
some of the annexes of the Treaty have expired. You also said 
there is a Bilateral Technical Advisory Committee, and is that 
a group of scientists that assess the stock of the different 
species, and then presents that information to both countries? 
Is that how that works?
    Mr. Pipkin. There are different states of information about 
the different species of salmon that are involved. Probably the 
most is known about the Fraser River sockeye and their 
movements are followed quite closely, and assessments are made 
on, I guess, pretty much a weekly basis during the season about 
the abundance that is coming back and all the details about 
that. Less is known about some other species.
    In the case of chinook, they come from a very broad 
geographic area and the information about their origin and how 
many return to particular streams in British Columbia is 
different.
    Mr. Gilchrest. Understanding the latitude of that 
assessment, could you say--understanding the difficulty of that 
science, that Alaska is erring on the side of conservation and 
Canada is not?
    Mr. Pipkin. I could not make that statement. This year, 
Canada has taken strong measures for conservation on its own 
part. Last year, it took some similar measures. We have always 
tried to put conservation first on our side of the border. 
There has been a dispute about the extent to which that has 
been true in Canada as well, but I wouldn't make a blanket 
statement.
    Chairman Young. Will the gentleman yield? You know, one of 
the things we have to keep in mind, 95 percent of the salmon 
Alaskans catch are from Alaskan waters. There happens to be, 
though, 3 million British Columbians, and 7 million people in 
the State of Washington, and we have 70,000 people in southeast 
Alaska. This is a political gamut. It is not based on science. 
And I am really concerned because we don't know why there 
aren't fish in British Columbia or other areas.
    In El Nino we are catching tuna now off the coast of 
Kodiak. A little marlin was caught off the coast of Washington 
State, a marlin, which is a Mexican fish. There is a tremendous 
change going on, and as a representative of the State that has 
taken care of their fish, and I want to stress this, the 
logging practices in Canada are deplorable. Their fishing 
practices were deplorable. Now, yes, they have implemented in 
the last two years, but you are not going to reestablish a 
species in two years of so-called conservation practices, and 
that is my frustration.
    I want to bring up, Mr. Chairman, I will shut up again, 
there are a little bit of other politics involved in there, 
because there is urging by the State Department. I am asking if 
you are aware of this, that maybe some troops should go to 
Bosnia, and Canada quit sending troops to Bosnia, or more of 
them, if they are not there already, is for the State 
Department to solve the fishing problem between Alaska and 
Canada, and I hope that is not true because that is really 
going to get my poor little old heart pumping. It is not that 
political, is it Mary Beth?
    Ms. West. Let me say we have taken the position all the way 
along that Pacific salmon is an extremely difficult issue on 
its own and should not be connected to other issues. That is 
the position we took this summer when British Columbia 
attempted to link it to other issues and has always been the 
position we have taken internally as well.
    Chairman Young. Could I ask one more question? In your 
testimony, you mention the conservation fund and contributions 
that would come from the U.S. and possibly public and private 
entities, but you never mentioned any Canadian contributions. 
Are they expected to be part of that package?
    Ms. West. This is something we would have to talk about in 
negotiations. I certainly would hope Canada would contribute to 
such a fund as well because the fund would be used throughout 
the range of the salmon for enhancement, habitat, restoration 
and other resource uses.
    Chairman Young. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Young. Mr. Abercrombie, any 
more questions?
    Mr. Abercrombie. Yes. Let me pickup, Ms. West, where I 
left, and I am going to refer to Mr. Pipkin's statement and you 
both can comment, but I am more interested in your reaction at 
this point. Have you guys coordinated your statements, by the 
way? Are you in accord on this?
    Ms. West. Yes.
    Mr. Pipkin. Yes.
    Mr. Abercrombie. Are you sitting there as partners, if you 
will, at the table?
    Ms. West. Yes.
    Mr. Abercrombie. Okay. By the way, your testimony is very 
clear, Mr. Pipkin, and I appreciate that.
    Mr. Pipkin. Thank you, sir.
    Mr. Abercrombie. You may not be so happy about it as a 
result with where I am going, but I do understand clearly what 
you have said here, and I think this is important, Mr. 
Chairman, for an understanding of whether the Treaty can 
proceed or whether these negotiations can proceed to come to a 
conclusion. You weren't here when I made my original remark and 
I want you to know where I am going with this.
    Chairman Young. I heard about it already in the hallway and 
I wanted to talk to you so you don't go too far down that 
slippery path, but go ahead.
    Mr. Abercrombie. I know it is a slippery path, but let me 
quote Mr. Pipkin, because that is the reason of where I am 
going. In the fall of '94 and '95, high level government-to-
government negotiations took place. That didn't achieve the 
breakthrough, right?
    Mr. Pipkin. No, sir.
    Mr. Abercrombie. Then, in '95 and '96, you went to a 
mediator, and that didn't work either, right?
    Mr. Pipkin. No, sir.
    Mr. Abercrombie. And so we are still at an impasse as to 
how the Treaty principles should be implemented.
    Mr. Pipkin. Yes, sir.
    Mr. Abercrombie. Now, we have Mr. Ruckelshaus and Dr. 
Strangway, right?
    Mr. Pipkin. Yes, sir.
    Mr. Abercrombie. Okay. And I can't, for the life of me, see 
how they are going to operate any differently than what 
happened in the other situations, regardless of their good will 
and good intentions and qualifications. You say in your 
testimony at the top of page 3 that you, nonetheless, felt the 
stakeholder process represented a step forward, and you said 
that the best solution is likely to come from the region. I 
agree. When you say region, are you talking everything from the 
southeast Alaska area all the way down into Washington and 
Oregon?
    Mr. Pipkin. Yes, sir.
    Mr. Abercrombie. And out into the Pacific, obviously. Then 
you say, in the second paragraph, on page 3, that the 
stakeholders have been in Alaska, Washington and Oregon, made 
far-reaching proposals that would have involved substantial 
sacrifice for U.S. fishermen and would have involved 
significant financial commitment at the Federal and State 
levels. That is a fair quote, it is not pulling something out 
of context.
    Mr. Pipkin. No, sir.
    Mr. Abercrombie. Okay. You say the Canadians' decided the 
proposals did not go far enough. In what sense did they not go 
far enough? It is very important to me to understand that. That 
is not clear to me from all the reading I have gone through.
    Mr. Pipkin. Well, I don't know quite how to get into this 
because, you know, I am concerned both about the lawsuit that 
has been filed by British Columbia and also not wanting to say 
something that interferes with the process that is going with 
Mr. Ruckleshaus and Mr. Strangway, but----
    Mr. Abercrombie. Let me go over it, then, because we are 
pressed for time. Did they make a statement at the time as to 
what was--for example, if I understand it correctly, you said 
that the--going to the U.S. Fraser sockeye fishery, the 
stakeholders deemed such a reduction, there was an agreement, I 
mean there was a proposal put forward for a permanent reduction 
on the part of the U.S. Fraser sockeye fishery to be 
effectuated through a voluntary buyout program.
    The stakeholders deemed such reduction necessary in order 
to achieve an overall arrangement in which Canada would make a 
long-term commitment to reduce the coho harvest. That sounds 
like that was something that was agreed upon. Was it?
    Mr. Pipkin. Well, I think that the stakeholders came pretty 
close on some of the individual issues that were involved in 
the stakeholder negotiations. At the end of the day, the issue, 
I believe, was with Canada. Canada recognized that those 
negotiations represented progress on the issues, that in terms 
even of the equity balance, Canada sees that progress was made.
    Mr. Abercrombie. But they didn't agree.
    Mr. Pipkin. But at the end of the day, Canada did not think 
the proposals went far enough.
    Mr. Abercrombie. Then that gets to my point. You said, 
then, for the past 5 years, parties have lurched from one 
crisis to another and finally, on the other hand, if the 
stakeholder process fails, that does not bode well for the 
future of the Treaty.
    Now, if they can't agree on something like that, when one 
side, the American side, was already saying, okay, we will take 
less and you do this and all that, why doesn't my idea, at 
least for discussion purposes, make some--would my idea for 
some discussion purposes make some sense that you develop a co-
op, and that the co-op then, instead of telling people to 
reduce and you go through this fine line of trying to figure 
out exactly who takes what and when and how, particularly under 
the circumstances the Chairman outlined when the ocean is not 
cooperating with you, when the atmosphere and the elements of 
nature are doing as it will, nature will rule in the end, not 
the State Department or this Committee or anything else, we 
have to be in tune with nature.
    Why not form a co-op, then, of all the interested parties 
and figure out--and then negotiate a process for the division 
of the potential profits based on good science that can then be 
put to work on behalf of the co-op in which nobody wins and 
loses, but, rather, the science is working on behalf of the 
best interests of the co-op.
    Mr. Pipkin. I think you will have a chance to ask the 
stakeholder Chairs, who represent fishermen, how they feel 
about that concept, but I really don't think that this--if what 
is involved with a co-op is a summing up the resource, and 
figuring out sort of an overall allocation--is as good a way to 
approach this issue as a fishery-by-fishery analysis of the 
characteristics of the fisheries by the people who have the 
most interest in those fisheries, which is a description of the 
stakeholders.
    Mr. Abercrombie. What I am saying doesn't obviate that, not 
in the least. On the contrary, it seems to me it would enhance 
it because right now you can do all of that and you are still 
right back where you started, which is, okay, what do we do 
now? Who gets what, and under what circumstances?
    Mr. Pipkin. Well, then I am afraid I probably don't 
understand the concept well enough, but I go back to what I was 
suggesting.
    Mr. Abercrombie. Let me ask one other question because I am 
at the end of my time. We have this NAFTA with the North, where 
we are supposed to be opening borders and I hear all about free 
trade all my life. We already have a NAFTA and everything is 
supposed to be open and free trade. Why don't we get rid of the 
false borders between Oregon and Washington and Canada and 
Alaska, and all the rest? Treat it as a region, treat it as a 
whole entity and everybody work together for the common good.
    Mr. Pipkin. And that is what the Pacific Salmon Treaty was 
intended to do, to establish science across jurisdictional 
boundaries----
    Mr. Abercrombie. But you are still acting as if it is 
Bosnia and Herzegovina.
    Chairman Young. If the gentleman will yield for a moment. 
What I am saying, Neal, is I want to go back to why I believe 
most of the fisheries in Canada are in horrible shape. If they 
are not willing to work on the conservation end of it like we 
have done, why should we be the ones that go 50-50 and let them 
take the fish from us?
    Mr. Abercrombie. Good point. Would you yield?
    Chairman Young. Yes. Before I do, though, look at the 
interest there. There is a disputed area between Canada and 
Alaska. There are 60 Canadian boats fishing now. We sometimes 
think in our water, we don't know how many fish they are 
catching out of our species. There is absolutely no 
cooperation. The stakeholders can sit down and, by the way, 
this goes back to about 4 years ago. The Commissioner Tobin or 
Prime Minister Tobin from Ottawa came down and threatened me in 
my office, after he was suddenly removed.
    Mr. Abercrombie. I don't believe you.
    Chairman Young. Oh, he left very quickly.
    Mr. Abercrombie. I think he would get about 12 seconds in 
there.
    Chairman Young. That is about what he had. If we could get 
the British Columbian fishermen to quit using the rhetoric and 
the PR firms they have hired to say how bad we are, sit down 
with the science and sit down with the stakeholders on both 
sides, I think we can reach a solution. If they don't do that, 
there won't be a Treaty.
    Mr. Gilchrest. [presiding] Is everybody done with 
questions? Okay. Ms. West and Mr. Pipkin, I appreciate your 
time and we hope Mr. Ruckleshaus is successful.
    Mr. Pipkin. Thank you very much. We do, too.
    Mr. Gilchrest. If not, maybe the Committee should go up and 
begin the process of negotiating.
    Chairman Young. Well, go to British Columbia because you 
can keep six kings. You can't do it in Alaska.
    Mr. Gilchrest. It was very unfortunate the Commissioners 
for the States of Washington and Oregon could not attend the 
hearing today. I welcome the other two Commissioners from the 
Pacific Salmon Commission, Dave Benton, with the alternate 
Commissioner that is Jev Shelton for Alaska and Ron Allen, 
Commissioner for the Northwest Treaty tribes.
    Gentlemen, thank you very much for taking the time to 
travel down here to the Nation's capital and we look forward to 
your testimony. Mr. Allen, we will start with you.

  STATEMENT OF WILLIAM RONALD ``RON'' ALLEN, COMMISSIONER FOR 
                    PACIFIC NORTHWEST TRIBES

    Mr. Allen. Thank you, Mr. Chairman. It is always an honor 
to be here and to provide some testimony to this Committee 
regarding the issues that it addresses, and particularly with 
the U.S.-Canada, Pacific Salmon Commission Treaty. I extend my 
apologies, my alternate, Ted Strong, who is from the Columbia 
River, is not able to be here with us. He had a conflicting 
meeting and he couldn't be here to accompany me.
    We pretty much share the tribal input on the Commission 
with regard to this process. But the tribes, as you well know, 
have long-standing treaties with the United States Government 
that protect our rights, and in the Northwest, of course, those 
treaties include the preservation of our fishing rights, and so 
the fishery resource and the health and the future of their 
fishery resource, is very important to our people, both 
culturally, historically and legally, and we have been very 
involved with this Treaty since its very beginning, back in 
1985.
    We were involved in negotiations and we were involved in 
every step of implementation of it throughout its duration. We 
share the frustration and the concerns that the Committee has, 
and we also share the same frustrations that our counterparts 
in Canada have as well with regard to the process. The issue 
for us is what is the solution here, and the tribes have spent 
a great deal of energy, resources, and technical resources and 
policy resources to make the Treaty work.
    We do firmly believe the Treaty is essential for the future 
and the livelihood of the fishery resource in the Pacific 
Northwest. If we don't make this thing work, then our opinion 
is that we are going to suffer a very serious depletion of a 
resource that is important to all of our communities, from 
Alaska to British Columbia to the Southern States.
    We firmly believe the stakeholder process is a useful 
process. We believe that the normal process in U.S.-Canada 
could have worked, but we were having problems getting off our 
philosophical approach about the intent or the spirit of the 
Treaty or the meaning of the Treaty. Often we joke we are two 
countries separated by the same language. We often look at this 
Treaty from a different perspective and the issue for us are 
principles in the Treaty in regard to equity, with regard to 
conservation, with regard to not causing any undue disruption 
to fisheries and to find a way to balance how we manage the 
fisheries from North to South.
    It is a very delicate matter. And what we argue is that 
this is not a simple matter. People can't just come into the 
arena and think it is a simple matter because as the 
Congressman has pointed out earlier that the fish don't know 
these borders. They don't know these management regimes being 
established by different States and British Columbia and the 
Federal Government, so the issue is how are we as individuals 
going to address it? How are we going to find compromise and 
find reason and find a way to bridge the gap of our perception 
of how this Treaty is supposed to be implemented and what the 
spirit of it is?
    We firmly believe the answer is in abundance. The answer is 
how are we going to try to enhance the abundance of the 
fisheries? If we are going to look at equity from the 
perspective of counting fish, then we have a problem, because 
it is going to be an accounting nightmare for everyone, but we 
do believe the fundamental principles, that the countries of 
the origin of the fish should benefit and we do agree that is a 
fundamental principle and it should be enhanced and it should 
be an incentive and encouragement for the countries and the 
respective managers to enhance the fisheries, both natural and 
artificial, because there are a lot of industries out there 
that depend on it, and for us, in Indian country, our 
communities have been depending on it culturally, as has been 
noted earlier for hundreds of years.
    We want to make sure we move forward in that process. We do 
believe the stakeholder process, in terms of the way it was 
structuring the current efforts, between the North and the 
South, is appropriate, so they are dealing with their issues in 
their respective regions. We also believe that we will 
eventually have to get to a collective stakeholder process to 
deal with chinook because chinook crosses all borders, from 
Alaska to Columbia River, up in the highest regions of Columbia 
River, so everybody should be involved in that and we believe a 
lot of constructive efforts have been taking place.
    We believe over the course of a number of years, a lot of 
constructive efforts have taken place, that the success and the 
sophistication of our science and technology has grown. It has 
evolved. We have shared a great deal, and we have shared with 
each other a different approach and different technique on how 
to manage fisheries and our counterparts in Canada are agreeing 
with us about some components with regard to coho. We recognize 
there is a problem with coho and it became a political 
component to the fisheries because of the equity principle and 
that is not in the best interest of the fishery. There is no 
question about that, but as we resolve those differences as we 
bridge this gap over good science and good management 
techniques, as opposed to political pressures, and I might 
footnote, when I say political pressures, I talk about the 
sophistication of our fisheries. We are just better fisher 
people.
    Our skills and techniques in fishing, on harvesting the 
fish are better than before and unfortunately the numbers are 
increasing and the resource is not keeping pace with the amount 
of resources out there. So the question in our minds is, what 
is the solution? We do believe the stakeholders, the people who 
do the fishing, should enter in and try to find solutions and 
try to separate themselves from politics. We don't think that 
is necessary, a complete reality of separating the two, but we 
do believe they are giving clean, clear instructions, the same 
instructions from both sides. They can achieve their 
objectives, but it doesn't resolve it.
    Once they come to an understanding, we still have to 
implement it. We have to move forward on a day-to-day basis and 
that is the duties of all the fishery managers on both sides of 
the borders. So for us, the issue is not are we interested in 
terminating the Treaty; absolutely not. What is going to be the 
cost to the fisheries if we can't agree and we end up in 
constant fish wars and we end up in political theatrics? That 
won't be constructive at all.
    We believe there are constructive recommendations by the 
Governors Summit, from Alaska, Oregon and Washington, in terms 
of enhancing the fishery. We think the Congress should take a 
look at those recommendations in your approaches on solutions, 
and finally, let me say, from the tribal perspective, that the 
way we look at it in terms of a heritage, the past is our 
heritage. It includes fisheries. The present is our 
responsibility and the future is our challenge and are we going 
to have the right attitude to achieve and address that 
challenge? We believe we can and can achieve that objective. 
Thank you and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Allen may be found at end of 
hearing.]
    Chairman Young. Mr. Chairman, I ask unanimous consent that 
Neil has an opportunity to ask questions now. He has to go.
    Mr. Gilchrest. Without objection, Mr. Abercrombie.
    Mr. Abercrombie. Thank you. Mr. Allen and Mr. Benton and 
Mr. Shelton, I am really interested in what you have to say and 
I will follow it. I will regret I am compelled to leave at this 
point.
    Mr. Allen, your statement, though, zeros in on my point. 
You say we would like to separate from politics and I 
understand. We are both sufficiently involved in this process 
to understand that politics always plays a role. The point that 
you are making, I believe, is that you do not want to let the 
politics interfere with getting a solution to the question at 
hand and I agree with that. I was not being facetious, nor was 
I being superficial, I hope, in indicating to Ms. West and to 
Mr. Pipkin that I would like to explore the question of a co-
op, a regional co-op, a transnational co-op.
    I haven't detailed outlines or anything, but from what I 
can discover in this process, that doesn't operate against me 
at this particular junction, so I just wonder what your 
reaction is perhaps, Mr. Benton and Mr. Shelton, just to the 
concept of the idea, and/or whether this idea has ever been 
discussed before, this concept.
    Mr. Allen. Well, for us, Mr. Congressman, we have never 
discussed that kind of a concept, and I know that the approach 
of how that would even work is an idea that I would have to go 
back and talk to all the travel representatives from the tribes 
I represent to even know whether I think that would work. It is 
a pretty far-reaching concept, and----
    Mr. Abercrombie. I am thinking primarily administratively. 
I am not talking about where you have to share boats or, as Mr. 
Young pointed out, if you were at the Dixon Entrance, you may 
have a preponderance of boats from one country or one area, and 
the patterns of the fish movement may change, and all of those 
things come into it.
    I am thinking primarily of how you would administer the 
results and outcome with respect to profitability, with respect 
to risk taking for capital infusion, with respect to division 
of profits and reinvestment, with respect to having a 
scientific inquiry as to how the fisheries are developing and 
what the resources are, et cetera. That is what I am thinking 
of, primarily. You don't have to say yes or no, I am just 
saying, is it too outlandish to even consider or is it 
something that at least might offer some possible way of trying 
to deal with these transnational biological, geographic and 
other questions.
    Mr. Allen. Well, there are too many questions in there for 
me to give a very definitive answer. Inside of your explanation 
are a number of concepts and components that we believe should 
be a part of this Treaty in terms of our collaborative effort 
and I do believe we should be united. There should be a very 
strong bilateral effort. I have gained great respect in this 
process for my counterparts in the U.S. section, but as well as 
in the Canadian section, so we should be able to bridge the 
gap.
    Mr. Abercrombie. Mr. Chairman, can I ask Mr. Benton and 
Shelton a quick comment and I will back off and I appreciate 
your indulgence, thank you.
    Mr. Benton. Thank you, Mr. Chairman, Mr. Abercrombie. I too 
can't really comment on the notion of a co-op of that nature, 
but I would state that a lot of the elements of what you are 
talking about are at play, even now. For example, in Alaska, a 
lot of the fish that are harvested in Alaska are transported 
into British Columbia and processed. There is an economic 
relationship there. There is an economic relationship in 
particular with Prince Rupert in that regard before the ceasing 
of the MALASPINA. That economic relationship, unfortunately, no 
longer exists, or certainly is in question and in doubt because 
of that action.
    In addition, the kinds of dialogue--because what I am 
hearing you say is your idea is that fosters a dialogue among 
the users that then allows us to maybe get beyond some of the 
theological and rhetorical issues and let them get down to 
practice.
    Mr. Abercrombie. And some of the governmental barriers.
    Mr. Benton. Exactly. And that is what I think spurred us in 
Alaska to try and break away from the government-to-government 
talks and say let the fishers from Alaska and British Columbia 
and fisher's from southern U.S. and southern British Columbia 
get together themselves and get the bureaucrats and politicians 
out of the room and see if they can come up with practical 
solutions they can live with. So in many ways, the spirit of 
where the stakeholders' process came from carries that element.
    Whether that can lead to something else in the future of 
the scale you are talking about, I don't know at this time, but 
I think the ideas that you are talking about, are they 
outlandish? I think we have to think out of the box. I don't 
know if they are outlandish enough, but I appreciate the 
thought.
    Mr. Abercrombie. Mr. Shelton, if you could give me a brief 
summary, I don't want to abuse the good will of the Chair.

  STATEMENT OF JEV SHELTON, ALTERNATE COMMISSIONER FOR ALASKA

    Mr. Shelton. Fair enough. Congressman Abercrombie, I 
certainly would not respond to the idea as being wholly off the 
wall, although I guess my initial reaction is, that it is quite 
aside from the set of issues around the borders of what is 
involved there. I would reinforce one of the comments that Mr. 
Pipkin made in passing in response to that question and that is 
that the kind of thing that you are suggesting seems to me to 
be fundamentally what we thought we had when the Treaty was 
concluded in 1985.
    What we had at that time was not a set of developing 
fisheries. These are mature fisheries where there is a 
reasonable amount known about the stocks involved, where we 
recognized that there is a shared resource with fisheries on 
both sides of the borders, separately the South and the North, 
commonly utilizing that resource, and where there is the need 
for that kind of cooperation in determining who got what, in 
order to facilitate those resources remaining healthy and 
productive on both sides of the border.
    I don't see that there is an inherent conflict in the kind 
of thing you are suggesting from what I think we had at the 
time the Treaty was concluded. The hang up that we have 
encountered over the years has been in coming to grips with the 
question of how that shared resource is, in fact, divided up. 
The U.S. and the Canadians have had radically different 
approaches to that issue. I don't know that your proposal would 
go directly to resolving how you accomplish that division. I 
mean, 50-50, I take it to be a convenient number and not one to 
be taken wholly literally. There is enough history----
    Mr. Abercrombie. I don't mean literally in terms of the 
take. I meant in terms of the administrative consequences of 
profit-taking and/or risk capital investment, et cetera.
    Mr. Shelton. I guess in as short a time as we have here, I 
wouldn't be able to respond in a reasonable fashion to that 
kind of thing. But I mean to say, the manner in which the 
harvestable surpluses available from these stocks is divided is 
the essence, is the crux of the issue we have and the kind of 
thing we are dealing with is that this is a very flexible 
resource, in terms of its abundance.
    I mean, the nature of salmon is that the abundance year to 
year changes over a very, very wide range and the type of 
proposal that has been offered on the U.S. side is to allow 
these catches to fluctuate with that abundance. That is where 
the problem has been encountered with the Canadians who want to 
do this on an absolute count of the numbers. Numbers in a 
strictly numerical system rule. That is the essence of the 
allocation issue, which, in your description or in the original 
Treaty, remains the fundamental problem here.
    [The statement of Mr. Shelton may be found at end of 
hearing.]
    Mr. Abercrombie. Thank you very much. Thank you, Mr. 
Chairman.
    Mr. Gilchrest. Thank you, Mr. Abercrombie. Mr. Benton, you 
may give your testimony.

       STATEMENT OF DAVID BENTON, COMMISSIONER FOR ALASKA

    Mr. Benton. Thank you, Mr. Chairman, I will keep my remarks 
brief, as time is passing on. Mr. Chairman, today we have heard 
a lot about the Pacific Salmon Treaty and trying to implement 
the various principles and projections in that Treaty, and over 
the course of the last couple of years, there have been a 
number of accusations leveled about whether or not the United 
States or Canada is complying with that Treaty and those 
provisions.
    One thing, sitting here today, listening to the testimony 
from others and some of the questions, that certainly has 
occurred to me and I think it is a fundamental issue, is what 
does it mean in terms of implementing the Treaty. One of the 
obvious and most fundamental components is the Pacific Salmon 
Commission itself. When the Treaty was negotiated, it was 
recognized at that time that the document didn't answer all the 
questions, so a structure was put in place that would allow 
those people who are most knowledgeable about the fisheries and 
most affected by decisions regarding those fisheries to make 
decisions and recommendations to the governments for 
implementing the Treaty.
    Since 1993, Mr. Chairman, unfortunately, Canada has by and 
large refused to participate in the very fundamental framework 
and the foundation of the Treaty. In 1993, and in years since 
that time, there have not been substantive negotiations through 
the Pacific Salmon Commission. The Canadians, for policy 
reasons, I guess, related to their equity stance the allocation 
problems surrounding equity, have not participated in the 
Treaty itself, or in the Commission itself, in a way that would 
allow us to resolve these issues and implement the Treaty. That 
was highlighted in 1994, when then Minister Tobin staged a walk 
out, pretty much, from those negotiations, and then called for 
an aggressive fishing strategy designed to force the United 
States to accept Canada's interpretation of the so-called 
equity principle by putting pressure on southern U.S. interests 
in order to get Alaska to do certain things and make the U.S. 
Government step in to basically make those decisions, and force 
a decision on both the southern and United States interests.
    That divide-and-conquer strategy, if you would, Mr. 
Chairman, has carried through to this day and we saw it this 
year. We, at the conclusion of the stakeholder process in the 
north, we had an understanding, we thought that we would 
reconvene stakeholder negotiations this fall. We did not agree 
with Canada on how to conduct fisheries, although we did agree 
that what we would do is ensure conservation measures were met, 
and that we would ensure that no disruptive actions were taken 
in the fisheries and that both sides would have orderly 
fisheries.
    Obviously, the events of this summer would lead one to 
conclude that that was not a successful attempt. Those events 
began with a very well-orchestrated public relations campaign 
in the southern United States. It involved radio and newspaper 
ads by the--coming out of the Premiere of British Columbia 
Office, aimed at the southern U.S. fisherman that were fishing 
on the early stewards in the Fraser River. That set of tactics 
was then shifted to the North once our fisheries started and 
that eventually led to inciting Canadian fishermen to blockade 
the ferry, MALASPINA, and the Canada First strategy implemented 
by Minister Anderson.
    That Canada First strategy is very reminiscent of the same 
strategy implemented by Mr. Tobin in 1994. In 1994, that 
strategy resulted in serious conservation problems for Canadian 
coho stocks, and for Canadian sockeye stocks. This year, 
Canadian conservationists are complaining again about the 
pattern of fishing Canada has instituted. This attempt to put 
pressure on the United States is causing conservation problems 
again for Canadian coho stocks. That pattern of using 
conservation as a lever on the United States has got to stop, 
Mr. Chairman, and the United States has an obligation here to 
deliver a message to Canada that we are not going to allow that 
kind of tactic to influence how we approach these negotiations.
    I was pleased to here statements from the U.S. Government 
representatives about the stakeholder process. I concur with 
Mr. Allen's assessment of the kinds of progress that were made 
and fully support the stakeholder process. But if it is to be 
successful, that stakeholder process has to have some rules 
around it.
    The first rule is that there has to be a division between 
northern and southern stakeholders because that allows the 
issues to be manageable and does not allow them to get 
complicated and confuse the U.S. position on those issues. We 
were successful last year in maintaining that ability. The 
second is that the stakeholders must have the authority to 
actually negotiate and there has to be a commitment on the 
government's part for both Canada and the United States, that 
the results of those negotiations are going to be adhered to.
    Third and finally, Mr. Chairman, there can't be sort of two 
bites of the apple here. One of the problems we had was that 
the prospect during the negotiations earlier this year was that 
the Canadian Government and the U.S. Government were going to 
solve the problem if the stakeholders could not. That led to, I 
think, a negotiating strategy that resulted in an Oregon 
outcome that the stakeholders could not succeed and we cannot 
allow that to happen this time, it needs to be strictly the 
stakeholders and we should be willing to abide by what comes 
out of that process. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Benton may be found at end 
of hearing.]
    Mr. Saxton. [presiding] It seems to me one of the key 
issues here has a lot to do with the process. We heard from the 
previous panel and from you that the United States believes 
that sound conservation practices can best be arrived at 
through the bottom-up stakeholder approach. The Canadian 
Government seems to take the position that they don't want to 
have or would rather not have the negotiations between three or 
four entities that they refer to as special interest groups, 
but they would rather have government-to-government 
negotiations. How do you respond to this situation, and is this 
not the key problem with regard to progress?
    Mr. Benton. Mr. Chairman, in years past, at times the U.S. 
section has had its own differences that have prevented it from 
having a position on some issues. By and large, I would say, 
you know, in the realm of the 90 percentile range, we have had 
positions and had the ability to negotiate. One of the most 
contentious issues over the years has been chinook and what did 
you do with chinook management. About a year and a half ago or 
so, the United States section put together a proposal on 
chinook for presentation to Canada, and in the hopes that we 
would be able to engage in negotiations with Canada for a 
coast-wide chinook regime.
    Canada has to date refused to even sit down and have us 
make a presentation of them of what is in that proposal, let 
alone negotiate it. Now, the Canadian Government and the 
Canadian side, in our discussions with them on chinook, 
throughout the years have said to us, when you get a position, 
we will negotiate with you. We are looking forward to receiving 
it. It has been a year and a half since they have had that 
proposal.
    We have repeatedly encouraged them to come to the table so 
we can negotiate with them. I tend to think and others may 
disagree with me, I don't know, I tend to think that is more an 
excuse than a reason. Yesterday in I believe it was the House 
Committee on International Relations, we heard a call for 
binding arbitration again.
    This morning we heard the United States Government response 
on binding arbitration. From our perspective, binding 
arbitration isn't going to solve anything. It is going to be 
fraught with the same kinds of problems that you have when you 
go government-to-government or use an outside mediator when you 
bring in people that don't understand the fisheries, that are 
not affected by the decisions and don't have the detailed 
knowledge of the complexities of the fisheries. They are not 
going to make good decisions and it really depends, I think, on 
having the people that are directly affected and most 
knowledgeable sit at the table, in good faith negotiations, and 
if it is good faith negotiations, they will solve the problem.
    Mr. Saxton. Mr. Young.
    Chairman Young. Is the other gentleman going to give his 
testimony? He is not going to. Okay. Along those lines, David, 
is it true, the Treaty, over 1985, what was the limitation of 
chinook salmon that Alaska was allowed to catch?
    Mr. Benton. Under the Treaty in 1985, when we signed it, 
Mr. Chairman, the annex was for 263,000 chinook salmon.
    Chairman Young. And what is it today?
    Mr. Benton. Mr. Chairman, there is no annex in place on 
chinook salmon now.
    Chairman Young. And how many is the State allowing us to 
catch as far as king salmon?
    Mr. Benton. We have an agreement, Mr. Chairman, with the 
Southern United States that sets up an abundance-based regime 
for determining the harvest in southeast Alaska and under that 
regime this year, we were allowed a range between 277,000 and 
302,000 chinook. So this year, our harvest level would be in 
the range, and this is for all fisheries, in the 280,000 range, 
I am guessing.
    Chairman Young. Now, my understanding is the United States 
helped rehabilitate several Canadian salmon runs. Is that true? 
A few years ago, didn't the United States work on some salmon 
runs in Canada?
    Mr. Allen. Are you referring to me?
    Chairman Young. Yes.
    Mr. Allen. If you are referring to the Fraser River 
enhancement.
    Chairman Young. Right.
    Mr. Allen. I can't remember exactly when it was the Fraser 
River had some serious problems in one of its main tributaries. 
The United States contributed quite a few million dollars to 
assist Canada in restoring that stock, which resulted in an 
agreement. I can't remember if it was a treaty or not off the 
top of my head here, but that agreement was the United States 
could be able to share 50 percent of the stocks and we were 
managing that through the old IPFSC regime which got replaced 
by the U.S.-Canada Pacific Salmon Treaty, and that commitment 
was made years and years ago and I couldn't tell you how much 
money actually went into it and how often the United States 
contributed to it and since then we have basically contributed 
in a co-management relationship to assure the restoration of 
those stocks.
    Chairman Young. One of the things in recent efforts, again, 
any of you can comment on this because you are all 
commissioners. Mr. Tobin's strategy in 1994, as I mentioned, he 
was a complete jerk, but Canada First, supported by Minister 
Anderson as to redirection of the Canadian fisheries, do you 
believe or do you think outside the Commission, that this is a 
concentrated effort or a deliberate effort and they are really 
not seeking any solution to this Treaty problem at all? You 
don't have to answer if you don't want to. I am just saying 
there has got to be a reason this is all occurring. It started 
with Tobin. It has accelerated and I don't see how. In good 
faith, you mentioned it, David, the Commission had a position, 
Alaska had a position, now they don't want to talk about 
chinook. They don't want to meet with you.
    Mr. Benton. Mr. Chairman, Congressman Young, my observation 
is Canada instituted a set of strategies to create each year a 
sense of crisis and urgency to try to force the United States 
to come their way in any negotiations and it all has to hinge 
on interpretation of the equity principle in their mind and 
that strategy has very often sacrificed conservation to meet 
their allocation goals.
    For example, you cited Minister Tobin's 1994 actions, and 
as I said in my testimony, that had serious conservation 
consequences for both Canadian and U.S. stocks. This year, the 
Canada First strategy is causing concerns among Canadian 
conservationists. In years past, we had similar problems in 
Alaska with other fisheries. I don't see how Canada is acting 
at all like a country that wants to resolve the issue, at least 
not through negotiation and not through the specific Salmon 
Treaty process. It seems they have been mounting a strategy to 
look for any other processes except through the Pacific Salmon 
Commission and the Treaty to see if they could force their view 
on to the United States.
    Chairman Young. I would like to suggest one thing to 
everybody in this room. I have asked the Canadians if they 
would come and testify and they chose not to do so. They sent 
me a letter. I always love these letters. Then they want to 
come to my office some day and ask me for something. I also 
asked people in British Columbia, and they chose not to, but to 
go to the press instead. It was more exciting to go to the 
press and make a press comment.
    The letter says, since the Treaty was signed in 1985, and 
this is up for interpretations from any one of you, U.S. 
interception of Canadian-origin salmon have increased while 
Canadian interceptions of U.S.-origin salmon have decreased. 
Crop interception amounts to about 40 million fish worth $650 
million.
    Now, would you like to comment on that statement? I mean, 
being we don't get the information on what they are catching in 
our fish, that they indicate 40 million of their fish during 
that Treaty, from 85 to 96. Now, if I got my figures right, 
that means we were catching something like 100 million fish a 
year, which is impossible in southeast Alaska. That is an 
impossible statement, but this is what the Canadian Prime 
Minister tells me, sent me this letter, with no scientific 
facts. You can comment if you want to.
    Mr. Allen. Mr. Chairman or Mr. Young.
    Chairman Young. I am the Chairman of the full Committee and 
he is Chairman of the Subcommittee, so you can call me Mr. 
Chairman if you like, or you can call me Don or if you are from 
Canada, you can call me any other thing you want to call me, 
but go right ahead.
    Mr. Allen. I agree with a lot of what David was saying in 
terms of the political problems we have and Mary Beth West made 
a comment in her statement that referenced a fundamental 
problem we had in making this Treaty work. And that is a, 
quote, unquote, ``theological understanding'' of how the Treaty 
is supposed to be interpreted and we got caught up in the 
principle of equity. And in their view, equity is very clearly 
numbers of fish and we argued the numbers.
    Whenever we get into discussion about how we can advance 
constructive management approaches on any of the species, it 
seems to get obstructed over the equity principle, so if we 
can't get past the equity principle, are we going to agree to 
bridge the gap of the differences of fish in the way we 
calculate the numbers and the way we assess the value of the 
numbers, which is a very convoluted and complicated matter. You 
can end up in an economic nightmare.
    Economists would love this kind of debate, but our point is 
if we can't get past that hurdle, then we can't get into 
constructive solutions on how we can manage each of the 
fisheries, and we have made great strides in cutting back our 
fisheries at great cost. The numbers of sockeye we caught and 
kings we have caught has diminished in terms of level of the 
fish. Our percentage has diminished dramatically. It has 
impacted our fisheries, so when we get into the arguments or 
debates, we talk about due disruptions versus undue disruption. 
There has been disruption to our fisheries as part of the 
commitment to the Treaty, but it is a matter of how far we have 
to go.
    Chairman Young. Well, again, though, having a guy send me a 
letter, his name is Ambassador Raymond Chretien, saying we have 
40 million of their fish in southeast Alaska, is a ridiculous 
comment to make, because I think that exceeds the total amount, 
if you add those numbers up, and that is what one of the 
problems is, is on what basis does he make that comment? There 
is no scientific information of how they do it.
    Let's get back to the Commission. We are going to have a 
vote here. Why can't the Commission solve this problem, the 
Pacific Commission? I mean, what is the holdup? What can we do? 
Can we fix your role as Commissioners to make sure that--make 
you the resolvers of this problem?
    Mr. Allen. In my opinion, we could have if we could have 
gotten past the theological argument about equity. If we could 
get by that to get to the needs of implementing the Treaty, the 
Commission and its structure could do its job, but because we 
couldn't get to that political argument----
    Chairman Young. Let me interrupt you. How many are on the 
Commission?
    Mr. Allen. There are eight on each country's side, each 
party has eight, four Commissioners and four alternates.
    Chairman Young. So at the table, how many, if everybody sat 
down, would there be physically?
    Mr. Allen. Sixteen.
    Chairman Young. Sixteen. Now, do you think you have the 
authority to solve the problem and/or do you believe within the 
16, the theology is so rampant you couldn't solve the problem?
    Mr. Allen. Well, personally, I believe we could. I think 
the fisher people themselves needed to help break the logjam. 
Then it can work, and you have got some good people in there if 
they were given the instruction to do their job. What I said 
earlier is they can only go so far. Sooner or later, they have 
to hand it back to the Commission and the Commission has to do 
their job anyhow.
    Chairman Young. What I am leading up to is I believe in the 
stakeholder process, but, also, I can't help but think there 
could be a Commission set up, if you have the authority to 
solve this problem and take the politics out of it, and I am 
serious. So if you are on that Commission, you can't be 
expelled by the present Prime Minister or the Governor. You 
can't be eliminated just because you take a different position, 
but if you base it on science, I am referring to the Fisheries 
Council. I think they do an excellent job and certainly not 
everybody agrees, but they come down with a decision and the 
fishermen and conservationists, Federal Government and State 
government all live by that decision, and they complain 
sometimes, but the truth of the matter is it works.
    Mr. Benton. Thank you, Mr. Chairman. I concur with Ron. I 
think that if Canada decided tomorrow that they wanted to go 
and negotiate in the Commission and make the bilateral panels 
that are established under the Treaty, that are intended to 
resolve these issues, function properly and give the panels the 
authority, the panels have stakeholders on them, too, if they 
were to do that, then we could sit down and we could solve 
these problems, but they would have to do a couple of things.
    One is they would have to be willing to go and actually 
negotiate, as opposed to take their theological condition. And 
the other thing they would have to do is they would have to 
give the power to their panels to do the job. Canada has, since 
1993, has basically taken a totally different tactic, which is 
anything but that, and I, too, firmly support the stakeholder 
process, but let's be honest with ourselves. The reason there 
is a stakeholder process is because we are trying to 
accommodate Canada's pension for not negotiating in the 
Commission. It is just another extension of that. If they were 
working through the Commission process, we wouldn't be using a 
stakeholder process, although we would have our stakeholders 
involved through the panels.
    Chairman Young. I am out of time and we are going to have 
another vote.
    Mr. Gilchrest.
    Mr. Gilchrest. I am just fascinated by the line of 
questioning and I would just strongly--in fact, one of my 
questions is how can we resolve this issue and I think Don has 
hit the nail on the head, to give the panels from both 
countries a charge, a responsibility, and people live with what 
comes out of it.
    Mr. Allen, you mentioned the differences, fundamental 
differences is the philosophy or theology about how to manage a 
fishery, how to enhance the fishery, the equitable distribution 
of that, the eight members on each side. I think you said they 
could probably resolve that philosophical, theological 
difference and come to some consensus.
    Mr. Saxton. If the gentleman will yield to me for just a 
moment, we have to go vote. I think what I heard Mr. Benton say 
is that--I think--maybe I was reading between the lines of what 
you said, but I think you said the Canadian Government is not 
serious about negotiating, pretty simple.
    Mr. Benton. Pretty simple.
    Mr. Saxton. And until they get serious about negotiating, 
it doesn't matter who does the negotiations because they won't 
occur, right?
    Mr. Benton. Mr. Chairman, that is correct. Mr. Chairman, to 
simplify it all down to a nutshell, Canada is presently, and 
has for quite a while, called for binding arbitration. The root 
word of arbitration is arbitrary, and one of the reasons that I 
believe that the United States Government has the kind of 
position it has for treaties in general is that if the only 
time the United States would agree to binding arbitration is if 
that was part of the originally negotiated treaty because that 
is a recognition, those decisions are arbitrary, they are not 
necessarily the product of compromise and negotiation.
    Mr. Saxton. Thank you. We have to run and vote and we will 
be back. This is a series of votes. There are at least two, 
maybe more, so we will likely be gone for a half hour or so.
    Wayne, do you have further questions for the panel? Do you 
want to talk to the guys after the vote is what I am trying to 
find out. Would you wait for us? Thank you.
    [Recess.]
    Mr. Saxton. Mr. Gilchrest is trying to take care of some 
other responsibilities. He will come back and Mr. Young will be 
here momentarily. I don't, for my purposes, need to get into 
the fine points of the negotiation process and all that stuff 
because it seems clear to me, from what has been said from the 
American side that we have a reluctant, at the very least, 
negotiating partner and I am curious to hear your insights as 
to why that is.
    Obviously, they have a large fishing industry. Obviously 
there is limited resource, and I guess all people being 
relatively intelligent who are involved in the situation would 
conclude that if a conservation effort isn't forthcoming, that 
they are going to have a major problem in their big industry. 
So I am curious to know what might motivate them to refuse to 
negotiate. It doesn't make sense--I can't draw it, at this 
point, to a logical conclusion based on what I know about it. 
Would you comment?
    Mr. Shelton. Congressman Saxton, I certainly don't want to 
be in the position of speculating on voters in Canada. It has 
been true, however, from the beginning of the negotiations and 
certainly from the time the Treaty was signed in 1985, that 
this in the official Canadian view was not really a necessarily 
cooperative exercise, but a Canada First policy applied across 
the board.
    The fundamental difficulty that I think we have in this 
Treaty is that the Canadian perception of how they own fish is 
really contrary to the nature of the resource, on the one hand. 
I mean, it is simply incompatible with the way salmon 
populations function. And it also is in complete denial of the 
notion that the United States may have legitimate interests in 
these fish, including some of those that spawn in Canada, and 
complete denial that the United States might have a legitimate 
perspective that can be put on the table to be negotiated, 
opposite the Canadian perception of their owning anything that 
happens to have been spawned in Canada.
    That has made, I think, an extraordinarily difficult 
situation for any kind of meaningful negotiation to go on and 
it is becoming ever more difficult, the more distant from the 
actual fisheries the discussions have been. As the discussions 
have gotten outside of the realm of the fishery managers and 
the fishermen and those who are directly responsible for the 
well-being of the resource, it has become more abstract, more 
theoretical, a more theological kind of debate in which a lot 
of political face can be hung out and without any particular 
worry of what the consequence is that the real people have to 
live with, the end product.
    The Treaty worked, to a reasonable extent, during its 
initial years and by that I mean the 4 or 6 years, where the 
initial negotiation of the Treaty had been translated into the 
negotiation of very specific fishery arrangements on both sides 
of the border. Those were perceived, I think, on both sides, as 
entirely fair and equitable. And I guess my reaction, (I 
approach this somewhat differently, than, I suppose, do some of 
my colleagues. I am a professional fisherman. I am a commercial 
fisherman. I am not a bureaucrat).
    The solution would appear to me to require that there be 
some effective way to truncate the tendency to get off into the 
never-never land of philosophy and back into the real world, 
where the folk who are in the end going to be affected, have, 
if not a decision-making authority, have at least a very 
substantial input into the way in which their future is 
structured and the way in which the future of the resource they 
depend on is preserved.
    The Canadian perspective and their behavior throughout this 
Treaty has been to put ahead of any notion of conserving the 
resource, the priority of getting fish taken out of traditional 
American fisheries and put into Canadian fisheries. That is not 
cooperation; that is not negotiation. This is a shared 
resource. It doesn't belong to one side or the other. We all 
invest in it, we all have interest in it, and in the end, both 
sides who are in that kind of a position have got to come down 
and work out the details of what is an acceptable pattern for 
conducting fisheries responsibly.
    I think we showed in 1985 that that could be done. We have 
had experience, at least within the northern panel of the 
Salmon Commission, the ability to do that subsequently. There 
were a number of, I think, really rather innovative, in the 
end, quite productive agreements struck within the Alaska, 
northern British Columbia panel, from which all of us are 
benefiting today. That strikes me as the only way in which this 
in the end can be resolved.
    I doubt there is ever going to be resolution to the 
theoretical debate. But as long as we are in the business where 
everything that we consider to be relevant and important on 
these fisheries is brought into a good-faith negotiation among 
the folk who are directly affected, (we are good neighbors, we 
respect each other, at that level, anyway), I think we are 
fully able to resolve these issues, as long as it is left on a 
fishery-by-fishery basis. In that sense, I have to say I really 
concur fully with the kind of outline provided by Mr. Pipkin. 
That is the only route apparent to me that stands a chance of 
rendering this Treaty successful.
    Chairman Young. Can I go back to my thoughts a moment ago? 
What if the State Department of the United States and the 
Canadian Government of Canada were to invest the authority 
exclusively with the Commission and, say, solve this problem. 
Do you think you could do it?
    Mr. Shelton. Yes.
    Mr. Saxton. But that supposes the Canadian Government----
    Chairman Young. What I am suggesting and what I am still 
frustrated--and if the Canadian press thinks I am being mean to 
Mr. Tobin, that is unfortunate, what bothers me the most about 
this, because they have been very aggressive in their position 
media-wise about how bad the Alaskan fishing process is and how 
wrong we are and they have 40 million fish. And I still say 
that is a terrible, fictitious number. They played the role 
very well in the media.
    Now, I think if we could get the State Department and the 
Commission on board and say, all right, we are going to make 
this offer, and see what the Canadians say, and if they say, 
because I think there has been good effort so far, and this at 
least exposes them to what they are, nonnegotiators. They want 
our fish, they don't want to conserve the fish. They want our 
fish because they don't have their own fish. That is the 
reality. This is something we want to bounce around. I can't do 
it myself.
    I hope Mr. Ruckelshaus can speak on that line, but you have 
your stakeholders. You would have a Commission that is very 
well represented by the States and Canada if they sit at a 
table and I think you can solve the problem. I don't think the 
theology would be that ripe in the group. That is just an idea, 
Mr. Chairman. You are looking for solutions.
    I want to thank the panel, by the way. I don't have any 
other questions. I do thank you for appearing and presenting 
your points of view, and I believe if the Canadians want to 
solve this, we can solve it, because I think we are more 
willing to do it. I am not willing to give up everything.
    Mr. Saxton. Let me follow up, if I may. When we were 
talking a minute ago about the reluctance of the Canadians to 
seriously negotiate, it seems this is a big wide world and in 
order for negotiations to take place, sometimes leverage needs 
to be created in one way or another to help those who do want 
to negotiate. Are there some things, outside of perhaps the 
direct negotiation process that you have been involved in that 
need to be done in order to help create a situation where they 
might be more than willing to negotiate?
    Mr. Allen. Well, let me just add quickly, I think the 
stakeholders had made good success in closing the gap, and they 
were close. Now incorporated into it, and you will hear in the 
next panel, that there are some needs we will have from the 
Congress in order to close this gap, so that is going to be a 
component to this effort.
    Mr. Saxton. Thank you very much.
    Mr. Benton. I would like to respond briefly to your 
question. I think the key and fundamental issue here, in terms 
of these negotiations, is Canada right now does not feel they 
have anything they have to lose. They have it going both ways. 
Canadian politicians are finding it very convenient and quite 
useful to use the United States, both North and South, as the 
enemy to further their own domestic political agendas and that 
is certainly going on with British Columbia. And as long as 
that can continues, and as long as Canada can institute things, 
like a Canada First policy, that then hurts U.S. fishermen, 
just to further their basic position of trying to drive a wedge 
between the United States and move these negotiations to some 
other venue.
    As long as they can get away with that, we are not going to 
be able to settle this dispute, and if there is something that 
I think that needs to happen, it would be that the United 
States Government and this Congress needs to send a clear 
message to Canada that the stakeholders process is it, and if 
you can't--if those people can't solve it, then we have a real 
fundamental problem here and our bilateral relationship, at 
least on fisheries matters, is in serious trouble. They have to 
have a clear message something is at stake for them, otherwise 
they can continue to play the scam they have been.
    Chairman Young. I have one question I forgot to ask. Mr. 
Ruckelshaus asked me the other day--I asked the question, I 
said what if we don't have a Treaty, what if we don't adopt the 
appendices, and he said, well, probably endangered species 
would be implemented, and I forgot to ask, how can you apply 
the endangered species to British Columbia and would they 
recognize it. It doesn't do any good to apply it to us because 
our species aren't in danger.
    They say sockeye out of the Columbia River and the Snake 
River are in danger, and I said I could refurbish that quickly 
if they let me do it. There are a few people who don't want us 
to do it. They can put a damn Canadian Wolf in Yellowstone Park 
but they can't put an Alaskan fish in the Columbian River. That 
is sort of the stupidity of some of our government officials 
nowadays, but they could do that.
    But what I am saying is I don't think that is a legitimate 
threat to Alaska because we have a good species, and especially 
if Canada wouldn't follow the restrictions, I mean, we would be 
whistling in the dark, and I have no indication they would, but 
do you think that endangered species somehow could be applied 
to this thing?
    Mr. Benton. Mr. Chairman, the Endangered Species Act would 
have some implications for Alaska, but it does whether or not 
we have a Treaty. So I, for one, don't necessarily make those 
linkages, but I would say, and I agree with Ron's testimony, 
that we want to try and make this Treaty work. We need to have 
a Treaty with Canada.
    If this Treaty doesn't work, however, maybe we need a new 
treaty, and maybe we need one that is less ambiguous about some 
of these terms. Now, the last time around, it took a long time 
to negotiate a treaty, and certainly our preference is to try 
and make this one work, and we think the structure can work if 
Canada wants to come to the table, but, believe me, if the 
stakeholders process fails, I can't imagine another process 
going forward that is better or more likely to have success. 
And so far as binding arbitration is considered, that is 
tantamount to renegotiating the Treaty anyway, so we might as 
well consider methods that we can go and tell Canada, look, 
this Treaty is off the table and we are going to come back and 
look at a new one, so that is the only answer I can have on 
that issue.
    Chairman Young. I thank the panel.
    Mr. Saxton. Thank you very much for being with us. You have 
been very helpful and we apologize for so many interruptions.
    The third and last panel is made up of Mr. Jim Bacon, Chair 
of the Northern Stakeholders Panel, and Mr. Rick Applegate, 
Chair of the Southern Stakeholders Panel. Welcome aboard.
    Mr. Bacon. Thank you.
    Mr. Saxton. We are anxious to hear your testimony. Mr. 
Young, do you have something?
    Chairman Young. I just wondered, Mr. Applegate, do you say 
you all or what, I mean, southern negotiating board.
    Mr. Applegate. We tried everything we could think of to 
make progress.
    Mr. Saxton. You may proceed as you are comfortable.

STATEMENT OF RICK APPLEGATE, CHAIR, SOUTHERN STAKEHOLDERS PANEL

    Mr. Applegate. Yes, Chairman Saxton and Chairman Young, we 
appreciate the opportunity to be here today. I am the Chair of 
the U.S. Southern Stakeholders and when the negotiations were 
under way, I was West Coast Conservation Director for Trout 
Unlimited.
    I need to say that today I am a Senior Policy Advisor with 
the National Marine Fishery Service, so my views today don't 
necessarily represent the position of the Federal Government. 
We as stakeholders are I think very fortunate to have had the 
opportunity to participate in these unique negotiations.
    We examined our long-held views. We made some significant 
and very much unprecedented proposals and we almost got the job 
done on the southern issues, particularly on coho and sockeye. 
And even now with so much acrimony and the recrimination that 
grows out of this past fishing season, we still basically know 
the terrain of an agreement with Canada. The rough dimensions 
are not all that hard for us to discern. It is clear both 
nations suffered a great deal this year and the need for 
resolution remains very great.
    Now in the negotiations, as charged by our governments, we 
tried to avoid ritualistic debates on the equity principle 
under the Salmon Treaty, and we offered a series of pragmatic 
and creative proposals to do a couple things, ensure 
conservation of west coast salmon and a reasonable sharing of 
the fishery resource. We insisted as a first principle, that 
the wild coho stocks of the West Coast had been harvested at 
excessive rates and those rates needed to come down; that large 
harvest reductions were required to conserve the wild stocks of 
both nations, not just U.S. stocks.
    We submitted a substantial amount of technical analysis, 
along with our proposed harvest reductions and we did, in 
response to an issue that was raised earlier, include a 
proposal for reporting the volume of Canadian recreational 
harvest off Vancouver Island. We were well aware that any 
reductions in Canadian coho harvest, beyond those required to 
conserve coho stocks, would entail concessions from U.S. 
fishers on the levels of Fraser River sockeye harvest. We were 
willing to pay for coho reductions that allowed for a U.S. 
fishery, but not for the substantial reductions that were 
required to conserve the resource.
    Now, for a variety of reasons, Canada did not table a firm, 
scientifically sound, long-term coho harvest regime as part of 
the negotiations and that, more than any other factor, is why 
we were unable to reach an agreement and it is an area that 
needs more work on a technical and policy level now.
    On the sockeye side of the equation, we proposed a 
substantial reduction in the U.S. interception of Fraser-bound 
sockeye. And in order to make those cuts larger, we agreed 
among our stakeholders on a sizable and unprecedented buyout of 
a large portion of the non-Treaty U.S. sockeye harvest share. 
That was a difficult and very painful step for U.S. fishers, 
but we knew it was essential, if an agreement was to be reached 
with Canada.
    The Canadian reaction to that proposal, treating it as 
something of a minor U.S. domestic matter, made it very hard 
for our stakeholders to stay at the table, but we did stay at 
the table. In effect, at bottom, our sockeye proposal would 
have left Canada with over 80 percent of the Fraser River 
sockeye harvest and we were very disappointed with the ultimate 
Canadian reaction to that important and as I say, unprecedented 
U.S. proposal. We moved a long, long way from historical 
harvest levels.
    To the ultimate question of why we didn't get an agreement, 
I don't think anyone will ever have a complete answer that is 
satisfactory. We certainly felt, based on the signals we 
received from the Canadian side, we were getting very close to 
an agreement. So we were baffled and discouraged when at the 
end of negotiations, we seemed to be further apart than ever.
    A couple things that will help in further negotiations. 
First, as has been mentioned before, we need clarification of 
the terms of the negotiations. Both parties have to understand 
the table they are sitting at is the table at which a final 
agreement will be reached. The U.S. stakeholders, for their 
part, did not look at some later negotiating process and for 
that reason, we put on the table our strongest, best and our 
most creative options.
    Second, there was kind of an unspoken connection between 
northern and southern issues. There had been an effort to keep 
them separate and I think that would have been beneficial. It 
seemed like when progress was being made in the North in the 
negotiations, we made progress in the South and then we bogged 
down together and that linkage was troublesome and probably 
needs to be clarified in the future.
    Third, I want to say not all the problems occurred on the 
Canadian side. We had some coordination problems in the U.S. 
that I referred to in the testimony and I think those have been 
corrected now, but they were very problematic at the time. Let 
me just add, the Commissioners and U.S. Government negotiators 
abided by the rules that were put to the negotiations. They 
made no effort to intrude upon or sway our stakeholder efforts 
and they were very helpful. We had a high regard for the work 
of Jim Pipkin, Mary Beth West and Commissioners Allen, Benton 
and the others. All this good work, of course, still languishes 
in the shadow of not having an agreement with Canada.
    It leaves people to wonder what an unfulfilled and largely 
inoperative salmon treaty is really worth. For me, and I 
believe for most of those who have tried to make the Treaty 
work for a decade or more, it is not irretrievably broken yet, 
even though it may appear to be. We are very disappointed an 
agreement has not been reached, but there is no point in giving 
up or succumbing to another few months of bellicose rhetoric. 
The issues are simply too important for that.
    So we have still to reach an agreement, and the frustration 
and disappointments and even the embarrassment of that are with 
us. But when the dust of this year's feuding finally clears, we 
will still be left with the same problems and the same basic 
prospects for a resolution. These issues are not intractable. 
We got very close, and I still believe we are about a series of 
difficult negotiations and a handshake away from a long-term 
agreement with Canada. Thank you for the opportunity to appear 
and I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Applegate may be found at 
end of hearing.]
    Mr. Saxton. Thank you for the testimony. Jim, you are up.

   STATEMENT OF JIM BACON, CHAIR, NORTHERN STAKEHOLDERS PANEL

    Mr. Bacon. Thank you, Mr. Chairman, and members of the 
Committee. Thanks for the opportunity to testify today. My name 
is Jim Bacon. I am a commercial fisherman from Juneau, Alaska. 
I have been fishing for over 20 years and currently serve as 
Chairman for the U.S. Northern Stakeholders.
    No international agreement is of greater importance to 
Alaska and my fishing industry than the Pacific Salmon Treaty. 
Commercial fishing is the largest private employer in Alaska 
and the Pacific Salmon Treaty plays a major role in the 
management of our State salmon resource.
    Since the inception of the Treaty in 1985, the boundary 
area between southeast Alaska and northern British Columbia has 
experienced several record salmon returns. It is important to 
note these facts when attempting to navigate through the sea of 
rhetoric generated by the Canadian media machine.
    The issue now before us in the boundary area is not 
conservation of depleted salmon stocks, but rather how to 
devise a fair sharing arrangement which allows both countries 
to effectively harvest its salmon resource. The Pacific Salmon 
Commission, established by the Treaty, is to serve as the forum 
for both countries to exchange information for the dual purpose 
of conserving salmon and achieving optimal salmon production.
    Canada, unfortunately, has subverted these treaty 
principles by dwelling solely on the issue of accounting for 
Canadian-spawned salmon caught, incidently, by U.S. fishermen. 
When Canada could not prevail on this single issue, it 
abandoned the Commission process. Unwilling to follow the 
Canadian lead, the U.S. proposed a new format involving 
stakeholders, those who actually fished for or processed 
salmon.
    The stakeholders' task was to break the ideological 
gridlock that had stalled previous talks within the Salmon 
Commission and between the governments, to formulate realistic 
fishing agreements that protected and enhanced the salmon 
resource while preserving the tens of thousands of jobs, 
dependent on the Pacific Coast salmon stocks. In hindsight, it 
is obvious that Canada had no intention of allowing its 
stakeholders to reach agreement.
    This was never more evident than on the last day of 
stakeholder talks, when after lengthy consultation with its 
government, the Canadian stakeholders returned with a hard line 
position designed to bring the talks to a halt. Premiere Glenn 
Clark then unleashed a barrage of anti-American sentiment which 
brought his fishing community to a boiling point, culminating 
with the blockade of the Alaska ferry and Prince Rupert.
    Despite condemnation by the community of Prince Rupert, the 
Canadian Federal Government and members of this Committee, 
Premier Clark termed the blockade courageous. This atmosphere 
of lawlessness then turned itself on the Canadian Government, 
with the staging of illegal fisheries in northern British 
Columbia.
    The Canadian fishermen cited a tremendous surplus of 
salmon, returning to the Skeena River, as the basis for 
conducting these illegal fisheries. It is notable that the 
catch of these same Skeena River salmon by Alaskan fishermen 
provides the basis upon which Canada claims that we are 
pirating Canadian fish or fishing Canadian stocks to 
extinction.
    The claims are insupportable and this best illustrates our 
point of departure with Canada. The State of Alaska and its 
fishing industry have an unparalleled history of salmon 
management success. We would never embark upon a fishing regime 
detrimental to salmon, either U.S. or Canadian origin. However, 
we refuse to adopt a Canadian ideology, which relegates the 
harvest of Alaskan salmon to the avoidance of Canadian-origin 
salmon present during our fisheries.
    Simply put, the salmon are not segregated while in Alaska 
waters. Such a policy would not benefit Canadian salmon stocks 
or its fishermen and would cause grave economic hardship to the 
coastal communities of southeast Alaska. I do believe the 
stakeholder process can lead to a fair and durable agreement 
between our countries. However, without a strong message from 
our government to Canada that the stakeholder process is the 
only forum outside the Pacific Salmon Commission for 
negotiation, without this commitment, the process will fail.
    Equally important, Canada must plainly understand the 
theatrics and media sound bites will not bring forward U.S. 
concessions. We are gravely troubled by the lawsuit filed last 
week in Seattle by the British Columbian Government and its 
fishing industry, seeking $325 million in damages against the 
U.S. for alleged Treaty transgressions. The filing of a lawsuit 
cannot lay the groundwork for productive negotiations. Thank 
you, Mr. Chairman.
    [The prepared statement of Mr. Bacon may be found at end of 
hearing.]
    Chairman Young. Thank you, Jim. A couple questions. To your 
knowledge, is there any accounting for the sport fishing in 
Alaska, as far as numbers?
    Mr. Bacon. In Alaska?
    Chairman Young. Yes.
    Mr. Bacon. Yes, there is.
    Chairman Young. Well, that's good. I probably should have 
asked them because I have to go back. If you were willing to 
give up 80 percent, Mr. Applegate, of the catch, did that 
include the sport-caught fish in Canada, include the sport-
caught fish in the Alaskan waters? You cannot solve this 
equation problem of amounts of fish if you don't include the 
sporting fish, is that correct?
    Mr. Applegate. The 80 percent, we would have left Canada 
with over 80 percent of the Fraser River sockeye.
    Chairman Young. You were willing to cut 80 percent of the 
Fraser River sockeye commercially.
    Mr. Applegate. That is essentially a commercial fishery 
obviously, and they would have had over 80 percent. On the coho 
side, however, we did raise the concern about their unreported 
recreational harvest. Our general impression is that it has 
been small in the past, but what we wanted was an accounting 
system so we could be sure that it did not adversely affect 
either the shares or the conservation of the resource. We had 
that as part of our proposal.
    Chairman Young. So the accounting system--you agreed to the 
sport fish in the accounting system.
    Mr. Applegate. Well, we didn't reach a final agreement with 
them. It was part of our proposal that they expressed some 
reservations about.
    Chairman Young. Well, I can't see how we can do this 
legitimately if we don't take all takings of fish into 
consideration. The escapement on the Fraser River, is that 
healthy, Jim, to your knowledge?
    Chairman Bacon. Again, the Fraser issues were covered in 
the southern panel.
    Mr. Applegate. It has been a well-managed and rebuilding 
run over time, and in fact, we argued the abundant-based 
approach to management of Fraser River sockeye is the kind of 
approach we should have for the coho resource as well. So there 
has not been a large conservation problem with respect to 
Fraser River sockeye as there has been in the case of both 
Canadian and U.S. wild coho stocks.
    Chairman Young. Jim, without the Annexes with the Treaty, 
how does that affect you in the Southeast, as far as fisheries?
    Mr. Bacon. Well, how does the implementation----
    Chairman Young. Because we are not--we are now what, 4 or 5 
years without the adoption of the Annexes to the Treaty. Does 
that affect you adversely? Does it have any affect? Does it 
cause you any problems?
    Mr. Bacon. In prior years, when we were unable to reach an 
agreement that designed a specific annex for the fishery, I am 
a purse seiner. I participate in the District 104 purse sein 
fishery. In prior years, without a Treaty agreement, Alaska 
made the decision to unilaterally abide by previous agreements, 
and so basically, we continued to operate as if we did have an 
agreement, and this was done in a manner to continue to 
extend--to continue to extend the olive branch to Canada that 
we want to negotiate and set up a regime in the boundary area.
    In this year, after we--we felt mistakenly, in hindsight, 
we were close to getting an agreement in the fishery and when 
that was jerked out from underneath us, it was a decision, and 
the State can speak to this, but it was a decision on the part 
of the State that we are going to fish based on the abundance 
of Alaskan stocks in the region and take appropriate 
conservation measures necessary to protect all of the stocks in 
the region and basically we are not going to continue to abide 
by expired annexes.
    Chairman Young. To your knowledge as a fisherman in the 
State, you are not abandoning conservation principles.
    Mr. Bacon. Absolutely not.
    Chairman Young. Let's go back to stakeholders. You heard my 
suggestion. Do you think the Commission with stakeholder 
representation could solve these problems or do you think we 
ought to go back to stakeholder negotiations totally, if the 
Commission had the authority from the Federal Government and 
the Government of Canada to solve the problem? Can you comment 
on that because I am looking for a solution.
    Mr. Bacon. Yes, Mr. Chairman. I agree with Commissioner 
Benton's response to that, which is if Canada understands 
clearly the Pacific Salmon Treaty set up the Salmon Commission 
to be the forum to resolve these issues and they understood 
there was no end running of that forum. There was no way around 
that. Then they would realize that that would be the--that 
could be a very effective forum for resolving these issues, and 
it is a forum that does include stakeholders such as myself and 
it does include representation from our industry and we would 
be comfortable in that forum.
    Chairman Young. What I am saying is they made a proposal 
and the only thing they support is binding arbitration, with 
the outsider being the arbitrator who knows nothing about 
fisheries. But if you had the Commission set up under the 
Treaty, which they did sign, and gave the Commission the 
authority or direction that their recommendations would be the 
law, and if we offered that to the Canadian Government and then 
if they say to the Canadian Government--if British Columbia 
said, no, they are exposing them for what they are and that is 
they want all the fish. They don't want conservation purposes. 
They don't want to reach an agreement. They want to use this as 
a political gamut, and I really think it would be calling their 
bluff big time, and I don't know whether it can be done or not, 
but I would like to have Mr. Ruckelshaus, the State Department 
and yourselves, the State of Alaska, the State of Washington, 
the State of Oregon, people involved in this problem, say, 
okay, can this work, and I always thought the Commission could 
do it. I mean, that is the way we set it up.
    I probably did not agree with the Treaty the first time 
because I have dealt over the years with different aspects, and 
I wasn't sure everybody wanted to live up to it, but the 
Commission was a good idea. Do either one of you have any other 
suggestions on how you think this issue can be solved? You said 
you were real close and then you stepped away from it. Were you 
communicating between the North and the South while you were at 
it?
    Mr. Applegate. There were briefings from time to time where 
both northern and southern issues were discussed. I think in 
the longer term, getting back to a table and negotiating is 
obviously in everyone's interest. Both sides sustained a lot of 
damage this year. Certainly the U.S. coho fishery has been very 
depressed over time and the sockeye fishery can't live with the 
kind of instability we have seen. I think the suggestion of 
some combination of commissioner and stakeholder representation 
may very well be the way to get that done.
    Chairman Young. What I am saying to the Chairman, we have 
to somehow get Canada's attention, and other than my 
suggestion, we make them an offer that the Commission is the 
law and if they turn that down, that means they are not acting 
in good faith. I don't know how else you can do it. The State 
Department is not anxious to really enforce any of the--what I 
would call unfair trade practice with Canada anyway, timber and 
a few things they managed to ship to the United States without 
any reservations at all. I am not knocking you right now, I am 
serious about that. Somehow we have to get them back to the 
table to make this thing work, as far as I am concerned.
    Before I do this, you heard my comments about 40 million 
salmon caught, incidentally, from the Canadian Embassy down 
here. How could he reach that number? Forty million salmon is a 
big bunch of fish in 10 years.
    Mr. Bacon. Mr. Chairman, I don't know. We have seen some 
tremendously creative mathematics. There are people within the 
Canadian section that they referred to as biometricians and we 
refer to as biomagicians and people that can--they can take a 
tremendous amount of information and translate numbers, and 
both parties can do it and both parties have very smart people 
with good calculators that can create a whole barrage of 
numbers that we could argue about ad nauseum and in the very 
end, it wouldn't make a hoot of difference to the people who 
fished there or the stocks.
    Chairman Young. Let me ask you a question, in southeast 
Alaska how many salmon are caught on an annual basis a year by 
all fishermen?
    Mr. Bacon. We have had runs--prior to this year, I don't 
know what the return is from this year, but we have had, in 
southeast Alaska alone, we have had runs that were upwards of 
100 million.
    Chairman Young. That is all species.
    Mr. Bacon. That is all species.
    Chairman Young. But 40 million salmon caught, when 95 
percent of the salmon we catch in our water are produced in 
Alaska, we are talking about intermingled stock of 5 percent, 
and the numbers don't add up is what I am saying.
    Mr. Bacon. And also, Mr. Chairman, Canada will take--the 
United States has had a Fraser River fishery, as has been 
explained for a very long time, but Canada will take every 
Fraser River sockeye harvested and say that is a Canadian fish, 
basically taken from Canada by the United States.
    Chairman Young. Although they originated in the Stikine or 
the Taku Rivers.
    Mr. Bacon. Well, there was a very interesting discussion in 
the stakeholder process. We attempted to work on establishing 
appropriate percentage shares of stocks. Prior to that 
discussion, Canada always said all the sockeye you catch are 
ours. When we attempted to establish an appropriate percentage 
share based on a historical number of those sockeye they were 
saying were all theirs, they all of a sudden said, well, wait a 
minute, a lot of those sockeyes you guys produce and you are 
trying to establish a number based on your own fish and that is 
not fair. And I thought, well, at last, if the stakeholders 
process accomplished anything, at least it got them to 
understand we do produce sockeye in southeast Alaska, but these 
are sort of incremental successes.
    Chairman Young. Mr. Applegate, in your testimony, you said 
there is increasing pressure on all salmon species, but my 
knowledge, and, Jim, you can address this, too, do we have any 
more new salmon fishermen in Alaska or are we limited by 
limited permits?
    Mr. Bacon. In Rick's situation and the situations in the 
South are different with different stocks.
    Chairman Young. You don't have limited permits in that 
area.
    Mr. Applegate. We do not. The real situation is the coho 
stocks have been declining and that is what I mean by the 
intensifying pressure. There is obviously an effort to keep 
fisheries going on those stocks and what we have got to do is 
turn them around, so they are back on the path to recovery. 
Occasionally, in some years, there are some portions of the 
Fraser River run that are small as well and that are a concern.
    Chairman Young. Let me get back to that reestablishment of 
the stocks. Are you one that believes there are other ways of 
reestablishing stocks in those rivers, too, or do they have to 
have the same DNA that the river produces. We have cohos in the 
northern part of Alaska. I am sure we would be willing to help 
you out. The price is terrible. They are great fish, but we 
can't sell them. I mean, it is one of the biggest disasters we 
have ever had.
    Mr. Applegate. We have envied your abundance there. I think 
in the case with the coho, there are obviously some habitat and 
enhancement activities that can be undertaken over the long-
term to keep the run sustainable. We have an interest in making 
sure that we have diverse life histories of coho and strong 
runs in a wide variety of watersheds in the Puget Sound area so 
we don't want to just homogenize those runs.
    Chairman Young. I have been hard on the Canadians today and 
I think justifiably so. But go back to the practice. At any 
time in the discussion of rehabilitation of the streams of the 
Canadian Rivers or anything, and the logging practices they 
have implemented and practiced for years, the ITT Rainier pulp 
mill that used to dump the raw waste into the rivers and the 
oceans for years and years, and were doing it until, I think, 3 
years ago, has that ever been in part of this negotiation or 
discussion about rehabilitating Canadian stocks.
    Mr. Applegate. In fact, we have habitat protection and 
restoration problems on both sides of the border.
    Chairman Young. Very little on our side of the border, I 
want you to know that. We have healthy strong runs on our side 
of the border, in the northern part.
    Mr. Applegate. I am speaking about Puget Sound where it is 
very clear we have our work cut out for us.
    Chairman Young. See, I hate to say it, but I am very 
prejudiced. I am an Alaskan representative. I am not a 
Washington representative.
    Mr. Applegate. I understand. Some of us go up there as 
often as we get a chance.
    Chairman Young. I know. We are going to talk to you about 
that. Go ahead.
    Mr. Applegate. My point is there are habitat protection and 
restoration problems on both sides of the border. Those have 
been discussed some in the negotiations, and obviously we won't 
correct all the problems simply by balancing or restricting 
harvest to both nations. We have work to do.
    Chairman Young. Going back to the endangered species 
concept, have you proposed or encouraged a view on endangered 
species? And I am referring primarily to sea lions and a few 
other species that are endangered and cannot be managed that 
are killing all our smolts as they come out of the locks and 
that type of thing. I mean, how do we adjust to that?
    We tried to do it in Congress, by the way. We gave the 
authority to remove that animal permanently, if you wanted to, 
and I don't think anybody has done that. But there are going to 
be other predators other than fishermen that are preying upon a 
diminishing stock, and has there been any discussion of how you 
would solve that problem? Are you going to let Congress try to 
do it for you because we are going to get pressure after a 
while to do something else, you know.
    Mr. Applegate. Mr. Chairman, we didn't discuss that much in 
the stakeholder negotiations, but there are a few sea lions 
that have been evacuated in the Puget Sound area and the issue 
has come up as well in the Columbian River. There is a bounty 
program on squawfish that are predators on migrating juvenile 
salmon--so there is some attention being paid to that.
    Chairman Young. If you follow what I am saying, you cannot 
solve this problem if the other predators are increasing, which 
they have increased dramatically, but I went through the old 
years, Jim, when we used to have a bounty on seals in Alaska, 
and by the way, a few other things, too, which I won't mention, 
but it was to protect the fish, because fish was king down 
there. It was protect the fish, and did a fairly good job. And 
as we go through the cycle, we have to understand, to protect 
another endangered species, then we also have to recognize that 
if the endangered species is eating the other, then we are 
losing the battle. Something has to be done, otherwise we are 
going to lose this war.
    Mr. Applegate. If I could, Mr. Chairman, one other way the 
Endangered Species Act came up in our discussions, we did note 
that in the case of wild coho stocks, there has been some 
pressure in Alaska, or in British Columbia I mean, to have 
similar legislation, given the depressed status of those 
populations, so it is not just a problem we have in the Puget 
Sound area. It is potentially one they have in Canada as well.
    Chairman Young. As I say, this whole salmon issue is not 
only interesting because we had two nations and three States 
involved here, and we also have the Atlantic Salmon, which is 
being farm raised. Before I finish, I can never understand how 
Chile, who competes directly with our fish, Jim, get all their 
eggs from the State of Washington. Now I can never figure that 
one out.
    I mean, I can go to Seattle and go on a fish run and the 
fish are coming out of Chile, but the eggs originated in the 
State of Washington. And when you have a shortage of fish in 
the State of Washington, I can't figure out how can you sell 
those eggs to Chile to have them shipped back to us and knock 
our prices down. I hope as time goes by we can solve some of 
those problems, too.
    I want to thank both of you. And don't feel bad about not 
having anyone here. What happens is we have all these different 
votes and committee meetings and this has been long because 
there was a disruption of votes and this has gone longer than I 
thought it would. I want to thank both of you and hopefully we 
can solve this problem and work very hard to do so. Thanks for 
being before us. The hearing is adjourned.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
 Statement of James Pipkin, U.S. Special Negotiator for Pacific Salmon 
 and Acting U.S. Federal Commissioner of the Pacific Salmon Commission

    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to be here today to discuss Pacific salmon.
    I am Counselor to the Secretary of the Interior. I became 
involved in the U.S./Canada salmon issue in 1994, when the 
State Department appointed me U.S. Special Negotiator for 
Pacific Salmon and asked me to act as Chief Negotiator in 
government-to-government negotiations with Canada. I was also 
named Acting Federal Commissioner on the Pacific Salmon 
Commission. Later I was given the personal rank of Ambassador 
in connection with that work. In February of this year, I was 
succeeded as Chief Negotiator by Ms. Mary Beth West, Deputy 
Assistant Secretary of State. I continue to be U.S. Special 
Negotiator and Acting Federal Commissioner.
    The dispute between Canada and the United States over 
salmon harvests precedes my involvement by many years, indeed, 
many decades. Salmon are not great respecters of jurisdictional 
boundaries, and, for as long as anyone can remember, the two 
countries have argued about who has the right to catch which 
fish. From time to time, international arrangements have 
temporarily settled the issue, but only temporarily. Changes of 
circumstance have caused one country or the other to feel 
aggrieved, and the issue has been reopened.
    The current Treaty was adopted in 1985. Both countries 
hoped that it would provide the framework for a permanent 
resolution of the issue, and it did in fact make possible eight 
years in which the parties agreed on fishing regimes and 
undertook efforts to address a mutual conservation problem. 
That status did not last, and even for those eight years, 
Canada has raised question as to whether the agreements were 
fully in compliance with all Treaty principles.
    For the last five years, there has been more disagreement 
than agreement. Each fishing season has been approached with an 
air of crisis, with accusations, and sometimes with threats. 
This summer we saw frequent statements in the press that one 
country's fishing policy amounted to waging a ``war'' on the 
other, as well as claims of ``piracy.'' Some people have begun 
to suggest that no treaty at all may be better than the current 
status.
    The disagreement goes to whether the principles that appear 
in the Pacific Salmon Treaty are being fully implemented, and 
specifically to whether harvests reflect an appropriate 
allocation of fish. There are two major principles in the 
Treaty. The parties agreed to conduct their fisheries and 
salmon enhancement programs so as to (1) ``prevent overfishing 
and provide for optimum production,'' and (2) ``provide for 
each party to receive benefits equivalent to the production of 
salmon originating in its waters.'' The first is referred to as 
the ``conservation'' principle, and the second is commonly 
called the ``equity'' principle. In addition to those two major 
principles, there are three sub-principles. The Treaty says 
that in fulfilling obligations under the two main principles, 
the parties are to take into account (1) ``the desirability in 
most cases of reducing interceptions,'' (2) ``the desirability 
in most cases of avoiding undue disruption of existing 
fisheries,'' and (3) ``annual variations in abundance of the 
stocks.''
    I am not going to try to explain the principles or tell you 
which country is right and which is wrong. I would say only 
that the principles are stated in general terms, and they 
interrelate. (A former Canadian commissioner described the 
Treaty as a ``bare-boned document with no agreement on even 
simple concepts.'') The Treaty negotiators left it to the 
Pacific Salmon Commission to work out how the principles should 
be applied, and that has often not proved possible. Each 
country has its own interpretation of how the principles should 
be implemented, and each believes strongly that the other 
country's interpretation is wrong.
    I became the U.S. Chief Negotiator at a time when both 
countries agreed to elevate the issue in priority and make a 
determined effort to find a solution. In the fall of 1994 and 
the first half of 1995, we conducted high-level government-to-
government negotiations. The United States advanced a proposal 
that we hoped might provide a breakthrough. It did not.
    Later in 1995 and the first part of 1996, the countries 
invoked the aid of a well known diplomat to act as a mediator 
to try to bring the parties together. That did not work either, 
and eventually the mediator announced that the two countries 
were simply too far apart for his effort to be successful.
    In short, despite a determined effort by both countries, 
Canada and the United States have been unable to resolve their 
differences with respect to how the Treaty principles should be 
implemented.
    This year, the parties attempted a different way to 
approach the issue. The new approach reflected a joint proposal 
by the governors of Alaska, Washington, and Oregon, later 
endorsed by the tribes, and it is referred to as the 
``stakeholder'' process. Ms. West, and others here today, will 
tell you more about that process.
    Let me just say that the stakeholder process represented a 
major step forward. It recognized that the best solution is 
likely to come from the region, not from Washington and Ottawa, 
and it must involve fishermen and others who have a stake in 
the outcome. In addition, it recognized that the two 
governments have been unable to come to terms on what the 
Treaty principles were intended to mean and that if a solution 
is to be found, it will likely be a pragmatic solution, based 
on the characteristics of individual fisheries, and not on 
theoretical grounds.
    The stakeholders made real progress. They met for several 
months in panels, one for fisheries in Alaska and north central 
British Columbia, and one for fisheries in southern British 
Columbia and Washington State. They listened to each others' 
needs, and they made proposals that narrowed the gap. The 
American stakeholders, both in Alaska and in Washington/Oregon, 
made far-reaching proposals that would have involved 
substantial sacrifice for U.S. fishermen and would have 
involved a significant financial commitment at the Federal and 
state levels. The stakeholders went farther than we had been 
able to go in government-to-government negotiations, and we 
were hopeful that the U.S. stakeholder proposals might finally 
provide the breakthrough that we all sought. In the end, that 
did not happen, because the Canadians decided that the 
proposals did not go far enough.
    Recently, as you know, Mr. William Ruckelshaus, former EPA 
Administrator, was appointed as Special Representative of the 
President and the Secretary of State. The charge of Mr. 
Ruckelshaus and his Canadian counterpart, Dr. David Strangway, 
is to try to get the stakeholder talks going again. Mr. 
Ruckelshaus has my wholehearted support, as I continue to 
believe that the stakeholder negotiations provide the best 
opportunity for resolving our disagreement with Canada. Mr. 
Ruckelshaus and Dr. Strangway began work in late July, and the 
next few months will be critical.
    In my opinion, during the stakeholder talks that ended in 
May, the U.S. stakeholders really stretched to make the 
proposals they did. They were genuinely disappointed and 
frustrated that their proposals were not accepted. They were 
angry about the way the process ended. In addition, the 
prospects for resolving our differences certainly have not been 
enhanced by the ``Canada first'' policy that was adopted this 
summer with respect to Fraser sockeye, the blockade of the 
Alaskan ferry ``Malaspina,'' the threats to close the submarine 
testing base at Nanoose Bay, the frequent provocative 
statements made by some in Canada, or the lawsuit recently 
filed by British Columbia. Those actions serve to fuel the 
continued anger of the stakeholders and their concern about 
whether Canada has a real interest in finding a mutually 
acceptable solution.
    Nevertheless, as I indicated before, I believe that the 
stakeholder talks represent our best hope for a settlement, and 
we will do everything we can to get that process back on track 
and to give it a chance.
    The controversy with Canada is complicated. It requires a 
solution that puts in place a system for long-term cooperation, 
and that system must give priority to conservation needs while 
also resolving allocation issues. The controversy involves 
legal rights of Indian tribes on both sides of the border. It 
has economic, cultural, and social implications. It encompasses 
a number of fisheries with dissimilar characteristics and 
dissimilar management opportunities. According to the 
Canadians, a solution must address alleged past ``equity 
imbalances'' as well as allocations that are fair for the 
future. The dispute has defied previous attempts at resolution.
    Although a settlement has thus far proved elusive, I think 
I can outline for you the general framework of a possible 
settlement.
        <bullet> A settlement is likely to be built from the bottom up, 
        fishery by fishery, not the top down. Efforts to agree on the 
        theoretical intent of the Treaty have failed, and a successful 
        resolution is likely to start from an analysis of reasonable 
        fishing arrangements for individual fisheries and the role of 
        interceptions in each of those fisheries. That is why the 
        stakeholders were asked to take a pragmatic, fishery-by-fishery 
        approach.
        <bullet> A resolution of the dispute is likely to involve 
        separate regional negotiations. It is not fair to penalize 
        fishermen in Washington State for what happens in Alaska, and 
        vice versa. Under our system, the states (and tribes), not the 
        Federal Government, are the primary managers of fisheries, and 
        it is appropriate to make a state accountable for management 
        decisions concerning its waters but not the waters of other 
        states. A separation of northern and southern issues was 
        adopted in the stakeholder process.
        <bullet> A solution must have the full support of the states 
        and tribes. The legislation implementing the Pacific Salmon 
        Treaty places the authority in the states and tribes. Any 
        solution must be approved either by the U.S. Congress or the 
        U.S. section of the Pacific Salmon Commission. As a practical 
        matter, if the affected region does not support a proposed 
        settlement, the settlement will not go forward. A settlement is 
        more likely to gain that support if the region has a major role 
        in developing the settlement. In the stakeholder process, the 
        U.S. stakeholders were nominated by the governors and the 
        tribes, and any solution accepted by the stakeholders has a 
        good chance of receiving the support of the states and tribes.
        <bullet> A settlement is likely to involve abundance-based 
        management. Years of experience under the Treaty have 
        demonstrated that catch ceilings tend to be regarded as 
        entitlements and that a ceiling approach to management is less 
        consistent with conservation needs than an abundance-based 
        approach. (For many years, an abundance-based approach has been 
        in effect for Fraser River sockeye, where each country agrees 
        to take a certain percentage of the allowable catch, and where 
        the allowable catch is determined annually based on abundance). 
        The stakeholder panels seemed to be in agreement on that point.
        <bullet> A negotiated agreement will probably include a 
        proposal to establish a salmon fund. Because the two countries 
        disagree on what the Treaty principles were intended to mean, 
        the stakeholders were unable to come to a consensus on whether 
        any reasonable fishing arrangements will fully satisfy the 
        ``equity'' principle of the Treaty. That is why the U.S. 
        northern stakeholders came up with the concept of a fund for 
        salmon conservation, research, management, enhancement, and 
        habitat restoration. Such a fund could bridge the gap between 
        the two countries on the intent of the ``equity'' principle.
        <bullet> A settlement may involve a reduction in fishing 
        capacity. During the southern stakeholder negotiations, 
        consideration was given to a permanent reduction of part of the 
        U.S. Fraser sockeye fishery, to be effectuated through a 
        voluntary buy-out program. The stakeholders deemed such a 
        reduction necessary in order to achieve an overall arrangement 
        in which Canada would make a long-term commitment to reduce its 
        WCVI coho harvests.
        <bullet> A solution must resolve the dispute about Treaty 
        principles for a substantial period of time. For the last five 
        years, the parties have lurched from one crisis to another. If 
        painful changes are to be made in fisheries, and if significant 
        contributions are requested from Federal and/or state 
        treasuries, the solution must be long term and it must fully 
        resolve the dispute during that term. The stakeholders were 
        considering fisheries arrangements that could extend for 
        approximately ten years.
    The stakehoider process is well suited to address all of these 
components. That is the principal reason I have such a strong belief 
that the stakeholder process is our best chance for a lasting solution.
    On the other hand, if the stakeholder process fails, that does not 
bode well for the future of the Pacific Salmon Treaty. At that point, 
many in the United States would be likely to recommend that a hard look 
be taken at whether there is any real reason for the United States to 
remain a party to the Treaty. Termination of any treaty is a major step 
and one that should only be taken after a thorough assessment of pros 
and cons, including consultation with the Congress, the governors, the 
treaty tribes, and all other interested parties. However, if the 
stakeholder talks cannot be restarted or if they end in failure, many 
may recommend that consideration be given to that option. We hope that 
does not occur. We will do whatever we can to help the renewed 
stakeholder talks succeed.
    Thank you, Mr. Chairman. I would be happy to answer any questions.
                                 ______
                                 
 Statement of Mary Beth West, Deputy Assistant Secretary of State for 
                     Oceans, Science and Technology
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to be here today to discuss Pacific salmon. As you know, we 
have been working hard on this issue during the past year, and I am 
pleased to be able to discuss the stakeholders process that has been 
instituted to attempt to resolve U.S.-Canadian differences concerning 
the interpretation and application of the 1985 Pacific Salmon Treaty.
    As you are aware, the U.S. and Canada have asked two distinguished 
individuals--former EPA Administrator William Ruckelshaus for the U.S. 
and former B.C. University President Dr. David W. Strangway for 
Canada--to assess how the stakeholders talks can best be continued and 
to attempt to reinvigorate that process. These eminent persons are now 
meeting with the stakeholders, state officials, and with interested 
Members of Congress to further their mandate. Because this process is 
ongoing and may lead to further negotiations, I will not be able to 
discuss the specifics of the negotiations in this hearing. However, we 
have offered--and offer here again--to provide further confidential 
briefings if any of the members so wish. In addition, because there is 
now litigation concerning this issue, there may be areas of discussion 
we will not be able to pursue.
    As we have addressed Pacific salmon issues during the year, we have 
attempted to keep in close communication with the Subcommittee and its 
staff. We sincerely appreciate the assistance and responsiveness of 
members and staff as we have posed questions and ideas. We have also 
worked very closely with the Governors' offices and fisheries 
representatives of the states and Treaty Indian tribes involved with 
Pacific salmon, and with the U.S. Pacific Salmon Commissioners. We 
certainly hope and anticipate that these cooperative relationships will 
continue as we continue to grapple with this issue.
    Mr. Pipkin has already described in general the nature of our 
dispute with Canada and the attempts to resolve it during the past 
several years. I will limit my remarks, in particular, to the 
stakeholders process.
    When I came to my current position in the Bureau of Oceans, and 
International Environmental and Scientific Affairs (OES) slightly less 
than a year ago, two sets of discussions on Pacific salmon were 
ongoing. First, the governors of Alaska, Washington and Oregon had made 
a proposal, arising out of the Sitka Summit, for a stakeholders process 
in which persons directly involved in the fishery would be engaged in 
an attempt to resolve the Pacific salmon issue. This proposal also 
received support from Congressional representatives.
    The concept of involving the real constituents--those with the 
greatest stake in achieving a workable fishery--was an idea that had 
surfaced before. This seemed a favorable time to look at it seriously. 
The idea made particular sense because the major stumbling block in 
past negotiations with Canada had been the strongly-held, almost 
theological positions of the two governments concerning the 
interpretation of the ``equity'' principle in Article III of the 
Treaty. We hoped that the stakeholders would be able to put aside those 
differences, concentrating instead on pragmatic, fisheries-related 
solutions, and opening the possibility of fisheries-based solutions 
that could be implemented through modifications to the Annexes that 
originally went into affect under the Treaty.
    Second, government-to-government discussions were ongoing between 
the Assistant Secretary of State and the Canadian Special 
Representative concerning methods to resolve the impasse.
    It soon became clear that these parallel tracks should be combined 
into a proposal for a process. Working with the PSC Commissioners, 
state and tribal representatives and Hill staff, we developed and 
presented to Canada a proposal for a stakeholders process overseen by 
the governments. Canada was willing to agree to such a proposal, but 
only if any issues not resolved by the stakeholders would go to 
government-to-government negotiations.
    The two governments agreed that as part of a renewed commitment to 
resolve disputes concerning Pacific salmon, they would ask two groups 
of stakeholders to review individual fisheries and make recommendations 
to the chief negotiators. One stakeholder group was to look at northern 
boundary fisheries, and the other group was to review southern 
fisheries, starting with the fisheries in which sockeye and coho are 
harvested
    It was agreed that each group was to be charged to develop 
pragmatic recommendations for each fishery that would implement the 
principles of Article III of the Treaty--conservation and equity. It 
was also agreed that if the stakeholder groups had made sufficient 
progress, the governments might ask them to consider other matters.
    The governments further agreed to give the stakeholder groups 
considerable flexibility. Each stakeholder group was to decide how to 
organize its efforts, including the selection of co-chairs if deemed 
desirable. The governments were to supply information, expertise, or 
other assistance.
    On the U.S. side, stakeholders were chosen by the States and 
tribes, with the concurrence of the U.S. Pacific Salmon Commissioners. 
Eight representatives were chosen for each group. The two governments 
also selected government observers for each group.
    The governments' chief negotiators--Yves Fortier on behalf of 
Canada and myself on behalf of the U.S.--first met with the newly 
appointed stakeholder groups in Portland the week of February 10 to 
formally give them their assignments. On subsequent occasions, Mr. 
Fortier and I held discussions to assess whether progress was being 
made, whether changes should be made in the charge to the stakeholder 
groups or the process being followed, and whether 1997 fishing regimes 
would be covered by the process already engaged, or whether they should 
be negotiated separately, and if so, when and how. The negotiators took 
a ``reality check'' on March 15 and determined that sufficient progress 
was being made to continue the process, but that it was too early to 
tell if the process could address 1997 fisheries regimes. The 
Canadians, however, insisted on setting an ending date for the 
stakeholders talks. Because the stakeholders' work did, in fact, need 
to be completed prior to the fishing season, we agreed with Canada to 
an ending date of May 9.
    The U.S. stakeholders met internally and with their Canadian 
counterparts a number of times between February 10 and May 9. U.S. 
stakeholders presented to their Canadian counterparts creative and far-
reaching proposals. These proposals, in fact, involved more potential 
sacrifice than the government representatives would have predicted, and 
they appeared to form a promising basis for potential solutions.
    By May 9, the northern stakeholders had made significant progress 
but had not yet finished their work. However, because many of the 
northern stakeholders on both the U.S. and Canadian sides began fishing 
for halibut in mid-May, followed immediately by the advent of the 
salmon fishing season, scheduling further meetings after May 9 proved 
an insurmountable difficulty.
    The southern stakeholder group defined proposals on sockeye and 
coho, and made progress in narrowing the differences on the sockeye 
fishery. One of the proposals of the group would involve a reduction in 
the U.S. non-tribal commercial sockeye fishery through a voluntary buy-
out of 40 percent of that fishery, creating an overall reduction of 20 
percent for the U.S. fishery. Because such a program would necessarily 
involve state and Federal funding, the stakeholders and U.S. Government 
representatives held initial consultations with the State of Washington 
and with Congressional staff concerning this matter. While those 
consultations revealed differing Congressional views, the general 
consensus was that funding of a buy-back might be possible in the 
context of an overall deal that is good for the U.S. and the fishery. 
Thus, the stakeholders went forward to discuss the proposal with their 
Canadian counterparts, making it clearly subject to Congressional 
appropriation action.
    By May 9, the southern stakeholders felt that they had reached the 
end of their ability to negotiate as a stakeholder group, and reported 
this fact to the governments. Subsequently, the governments undertook 
negotiations concerning the sockeye and coho fisheries.
    As you know, the governments were ultimately not able to achieve 
agreement on these issues. Although progress was made in narrowing the 
gap on sockeye, we were, in the end, unable to achieve agreement on 
either fishery. In particular, we were unable to get Canada to propose 
or to agree to consider a regime for the coho fishery which met what 
our science showed to be the minimum necessary standards for long-term 
conservation and rebuilding of the stocks harvested by that fishery 
while allowing for reasonable fisheries in both countries. Because 
conservation of coho was one of our major objectives, we did not see 
the possibility for an agreement.
    In addition, it was not possible at that late date to deal with 
1997 fisheries regimes. Although Canada attempted to put those 
regimes--including a regime for chinook--on the table, agreement on 
such regimes would not have been possible in the time frame before the 
commencement of the fishing season. Therefore, the U.S. proposed that 
the two sides agree on a framework for future talks addressing chinook 
and that we agree to exercise coordinated management on the other 
stocks for 1997--similar to the arrangements that had been in effect in 
1996.
    During the government-to-government talks, the two sides began to 
look at the type of framework that might exist for an ultimate 
arrangement bridging our differences on equity. It appeared that such 
an overall agreement would involve specific fisheries regimes 
establishing conservation and allocation systems for the fisheries at 
issue for a relatively long time period, such as, perhaps ten years. In 
order to resolve the equity issue, however, any overall arrangement 
would likely also need to involve another component such as the 
creation of a salmon resource fund. Such a fund would involve 
contributions by the United States--and perhaps by other public or 
private bodies--into a fund to be used for salmon conservation, 
management, research, enhancement and habitat restoration--likely both 
in Canada and the United States. We have yet to decide from where such 
funding would come, but it would have to be accomplished consistent 
with the Balanced Budget Act of 1997. We have discussed the concept of 
a fund with many of you and your staffs. Our view--and Congress' view--
of such a fund will, of course, depend on the nature of the overall 
solution, and whether it is viewed as good for the U.S. and good for 
the resource. We will continue to work closely with you and your staffs 
on this issue.
    Finally, let me speak briefly to the question of the problems that 
occurred in the stakeholders process this spring. I cannot be 
definitive, because this is the very issue we have asked Messrs. 
Ruckelshaus and Strangway to assess. However, let make two general 
points. First, there appeared to be considerable difference in the way 
the U.S. and Canada saw the stakeholders process and in commitment of 
the two sides to it. The U.S. viewed, and continues to view, the 
stakeholders process as the best opportunity to achieve a resolution. 
Canada, on the other hand, appeared to view the government-to-
government negotiations as the real forum for resolution. The 
differences in these two viewpoints meant that the stakeholders were 
working from different points of reference. That difference will have 
to be resolved if we are to proceed productively.
    Second, as I am sure we are all aware, Pacific salmon is a large 
and extremely complex subject, involving numerous fisheries and issues. 
In attempting to find a resolution, we are plagued by the need to put 
together the pieces of a puzzle that has many interrelated parts. 
Bringing all the issues to the table and finding solutions that can be 
crafted and implemented rationally and in a reasonable time frame has 
proved to be--and will continue to be--extraordinarily difficult. We 
have no illusions about the difficulty. But we believe we must try.
    I believe we must try, in particular, because we do not see any 
other really viable alternatives at this point. We have said publicly 
on numerous occasions that in view of the many processes we have tried, 
the stakeholders process appears to be, perhaps, the only remaining 
viable possibility of finding a way to bridge U.S. and Canadian 
differences under the Pacific Salmon Treaty. If we are not successful, 
then many may urge that we begin consultations with Congress and with 
the states and tribes to determine whether the Treaty is still useful. 
That is a decision I hope we do not have to face, and it is why the 
State Department intends to give the stakeholders process our full 
support in attempting to find a resolution.
    Thank you, Mr. Chairman. I would be pleased to respond to questions
                                 ______
                                 
  Statement of Jev Shelton, Alternate Commissioner for Alaska Pacific 
                           Salmon Commission
Mr. Chairman:
    My name is Jev Shelton. I own and operate the fishing vessel 
``Kirsten Anna'' in southeast Alaska where I have fished for the past 
26 years. I am honored and pleased to have the opportunity to submit 
testimony to the Committee on the topic of the Pacific Salmon Treaty 
(PST). As Alaska's alternate Commissioner in the Pacific Salmon 
Commission (PSC) and as a commercial fisherman, this Treaty at this 
time is to me a critical and most difficult subject. As issues 
surrounding the Treaty have evolved recently, review by this Committee 
is most appropriate and timely.
    I have been involved in negotiations with Canada regarding Pacific 
salmon since 1974, some 11 years prior to the conclusion of the PST. 
Subsequently, I have served on the U.S. Northern Panel of the PSC and 
for the past four years as Alaska's alternate Commissioner. With that 
background I would like, for perspective, to begin with some 
observations on the earlier stages of this Treaty and its negotiation.

PST Principles

    The PST typically is described, undoubtedly too simplistically, as 
founded on two principles. Conservation of the salmon resource in which 
both nations have long-standing interests was an obvious objective. 
Rather than being merely another motherhood and apple pie platitude, 
however, conservation issues were at the time of signing the PST 
particularly relevant. The immediate pre-Treaty years were a period of 
short-term depression of most northern salmon stocks and of 
acceleration in the more chronic decline especially of some southern 
chinook and coho salmon populations. The latter was due in large part 
to substantial loss of critical freshwater habitat from dam 
construction and other development. This trend was exacerbated by 
Canadian fishery policy, instituted in the late 1970's and early 
1980's, to increase harvests of chinook and coho stocks bound for 
spawning areas in the U.S. without regard for the conservation 
consequences to those salmon populations. This action was designed to 
pressure the U.S. into a treaty arrangement with provisions more 
favorable to Canada.
    The second principle, optimistically and unrealistically referenced 
as ``equity'', was historically the focus of fundamental disagreement 
between the U.S. and Canada. It remains the primary source of Treaty-
related conflict to this day. In the abstract, the proposition that 
each nation should derive benefits equivalent to the production of 
salmon originating in its waters seems reasonable and practical enough. 
However, for fish with life cycles as complex as those of the salmon 
species, their respective myriad stocks mixing and depending upon life 
stages spent and resources consumed in the waters of both countries, 
determining an agreed basis for equitable sharing of harvests of salmon 
is not at all simple or straightforward. This complexity was captured 
at least in part in Article III as a listing of factors to be taken 
into consideration in reaching agreed allocations. The desirability of 
reducing interceptions and of maintaining traditional fisheries as well 
as the need to account for the substantial fluctuations in annual 
abundance of salmon outline the extraordinarily intricate situation 
that surrounds negotiating fair sharing of salmon harvests.
    Taken in the abstract, limiting interceptions and maintaining 
traditional fisheries were incompatible, almost mutually exclusive. 
This polarity captured the different national perspectives on the 
desired basis for determining overall harvest allocations. In the view 
of the U.S., resolution of the conflicting perspectives could be 
achieved only in the context of concrete fishery negotiations. In the 
detailed negotiation of specific fishery arrangements, each side 
brought to bear all of the considerations it deemed to be of importance 
in a lengthy process of give and take. The practical expression of fair 
sharing, or equity, had to be what the respective sides could agree was 
proper and responsible conduct of each specific fishery. This is what 
was accomplished in the 1985 Treaty agreement, a document that in its 
specific fishery agreements clearly was accepted as fair and equitable 
to both sides.
    Certainly to Alaska, the acceptability of the PST in 1985 was based 
on the practical expression of the Treaty provisions in the individual 
fisheries incorporated under annex. Those agreed arrangements confirmed 
the meaning of the Treaty text. The U.S., and again certainly Alaska, 
did not agree to a document that could later be manipulated by Canada 
to restructure or destroy traditional American fisheries.

1985 PST Fishery Negotiations

    In the immediate pre-treaty period, Canada argued aggressively to 
curtail various U.S. fisheries that it maintained were adversely 
affecting Canadian interests. Canada focused primarily on the State of 
Washington fisheries for Fraser River sockeye salmon. Canada also 
initiated an aggressive fishing policy on stocks of importance to 
various U.S. fisheries. This involved both intensifying fishing effort 
in established fisheries, such as the troll fishery for chinook and 
coho salmon off Vancouver Island and the net fisheries along the Alaska 
boundary in Dixon Entrance, and by initiating new fisheries, such as 
the troll and net fisheries for Fraser River sockeye salmon outside the 
existing Convention area and fisheries in the transboundary rivers and 
in the western section of Dixon Entrance. These Canadian actions did 
influence the ultimately agreed fishery arrangements to Canada's 
advantage.
    The protracted negotiations leading up to the PST in 1985 involved 
very serious compromises and adjustments to U.S. fisheries. Alaskan 
fishermen paid a significant price for their inclusion in the final 
agreements. Substantial reductions in several long-standing fisheries 
were negotiated. A loss of more that 20 percent of its previous average 
annual harvest of chinook salmon was imposed on the Alaska troll 
fishery as part of the coastwide chinook rebuilding program. The 
District 104 (Noyes Island) purse seine fishery was restricted to an 
average numerical ceiling of sockeye salmon during the initial three or 
four weeks of the season, a limit that has resulted in foregoing the 
harvest of an estimated 66 million salmon by that fleet during the 
period 1985-1996. The vast majority (roughly 90 percent) of that 
foregone catch was destined for spawning streams in southeast Alaska. 
Alaska's drift gillnet fleets off the transboundary Taku River and 
Stikine River lost 15 percent and 35 percent respectively of the annual 
sockeye salmon catches to new inriver Canadian fisheries. Additionally, 
the Canadian net and troll fisheries along Alaska's boundary in Dixon 
Entrance were allocated harvest levels substantially greater than any 
observed historically.
    It is necessary to note that commercial fisheries are the backbone 
of the economy in southeast Alaska. The fishing industry is the largest 
employer in the region and, in many of the small, remote communities, 
it is virtually the only source of economic activity. To all residents 
of this region, alternative employment opportunities are scarce or non-
existent. Thus, the sacrifices made in Alaska's fisheries in order to 
accomplish Treaty agreement were and are deeply felt and economically 
very significant. They were agreed, however, in the belief that Treaty-
governed fishery stability and cooperation with Alaska's Canadian 
counterparts were necessary in the longer term to optimize production 
of the shared salmon resource and thus worth the costs.

Conservation Issues and Actions

    Contrary to Canadian rhetoric in the public media, Canada and the 
U.S. have established very different track records on salmon 
conservation issues while the PST has been in force. As a general 
matter Canada has continued the pattern established in pre-Treaty 
years, choosing to ignore or even aggressively to exacerbate specific 
salmon stock concerns identified by the U.S. This outrageous behavior 
has, in fact, been increasingly typical, not an isolated incident, and 
is part of Canada's attempts to force acceptance of its perspective on 
``equity''. Former Ambassador David Colson took Canada to task on this 
issue in a 1994 letter to his Canadian counterpart, Yves Fortier.
        ``Canada's insistence on its (equity) point of view has been 
        the direct cause of the inability of the Pacific Salmon 
        Commission to address in any reasonable and mature way coho and 
        chinook stock conservation problems associated with U.S.-origin 
        stocks in Canada's sport and commercial fisheries off the West 
        Coast of Vancouver Island. Since the beginning, Canada has 
        refused to address those problems unless the United States 
        promised to reduce its catches in totally different fisheries, 
        in different regions, on different stocks of fish, and where 
        there has been no call for cut-backs for conservation 
        reasons.''
        ``Canada's attitude stands in marked contrast to that shared 
        by, I believe, all U.S. constituents. I simply can not imagine 
        the United States government, or one of our constituent groups, 
        refusing to cooperate to address a stock conservation 
        problem.''
    It is noteworthy that later in 1994 Canada pursued its ``Tobin 
doctrine'', overtly attempting to maximize disruption to U.S. fisheries 
and fish stocks. The primary consequence of those actions was 
substantial damage to coho and sockeye salmon stocks returning to 
streams in British Columbia, but coho salmon returning to Washington 
waters also were impacted negatively. A somewhat similar ``Canada 
first'' policy is being employed in the current fishing season.
    Canada, especially in the most recent two or three years, has 
grossly overstated or misrepresented stock conservation circumstances 
in Canada. Specifically, in 1996 and 1997 Canada has exaggerated claims 
of severe depression of wild chinook salmon on Vancouver Island. 
Available data simply does not support those claims. Returns to one 
major hatchery have been suppressed for two years, but other hatchery 
returns and, most critically, wild chinook runs to the area have been 
stable or even increasing during this period. In fact, Canada has just 
announced the opening of another directed commercial fishery on those 
chinook stocks beginning this month. Yet for the past two years Canada 
has mounted a major public relations effort to castigate Alaska for 
fishing inappropriately in the face of looming stock extinctions, not 
just poor returns. Canada cynically is crying ``Wolf''. These 
assertions are nothing more than partisan Canadian hype, whether for 
internal Canadian political purposes or for leverage in American public 
opinion, but they do create the difficulty of casting doubt on the 
veracity even of Canadian-generated technical information.
    Canadian representatives also have demanded curtailment or closure 
of U.S. fisheries while failing to take comparable action in Canadian 
fisheries harvesting the same stocks, for example, fisheries harvesting 
Nass River sockeye salmon in 1997. Somewhat similar circumstances 
surround what Canada terms early Skeena River coho salmon. Repeated 
claims have been made in recent years that various Alaskan fisheries 
are overharvesting that population. However, despite intense inquiry by 
Alaska, Canada has provided virtually no data on coho stock status, 
Alaskan fisheries that might take those coho have been substantially 
curtailed compared to pre-Treaty years, and Canadian fisheries have 
been intensified greatly to harvest enhanced Skeena River sockeye 
salmon with which those coho must migrate.
    Clearly Canada has not made good on its Treaty obligation to 
cooperate in conservation of the shared salmon resource. Rather, its 
use of the stock conservation issue within the PSC and in the broader 
public arenas rendered the term ``conservation'' effectively 
meaningless. Similarly, Canadian claims of American ``overfishing'' 
refer only to harvests in U.S. fisheries that are larger than Canadian 
political officials would like, not at all to harvest levels that are 
biologically unjustifiable. Canada now employs this set of issues only 
as another tool in the political effort to achieve its aim of 
reallocating harvests into Canadian fisheries.
    The American record on salmon conservation actions stands in stark 
contrast to that of Canada. Numerous examples of fishery adjustments or 
closures in order to facilitate reaching biological escapement goals, 
including for stocks returning to Canadian rivers, are on record both 
in Alaska and in Washington. Notably, in 1994 the U.S. terminated its 
fisheries on Fraser River sockeye at the conclusion of the ``Tobin 
doctrine'' debacle. Although significant numbers of those sockeye 
salmon for the first time in that season were available to U.S. 
fishermen who had been denied any appreciable harvest allocation, 
Canadian overfishing had so decimated the return that its future was 
seriously threatened. In this case, American fishermen bore virtually 
the entire conservation burden for a return to a river in Canada, a 
salmon run the harvest of which Canadian policy explicitly is 
attempting to minimize or deny in U.S. fisheries. The restraint 
demonstrated in requiring conservation objectives to override 
allocation concerns highlights the completely opposite priorities 
governing American and Canadian behavior in this Treaty.
    In Alaska, where salmon runs generally are very healthy, the State 
management agency always has responded with fishery restrictions in 
response to indications of poor returns to Canada of stocks that can be 
identified in Alaskan fisheries. For example, the District 101 (Tree 
Point) drift gillnet fishery and even the Noyes Island purse seine 
fishery have been restricted in time and/or area in at least 9 of the 
13 years of the Treaty in order to facilitate obtaining escapement 
objectives for Nass River sockeye salmon. In Alaska's abundance-driven 
fishery management system, such restrictions are an ordinary, accepted 
occurrence in all fisheries whenever stock abundance is low from 
whatever cause. Much of Alaska's success in maintaining consistently 
healthy salmon populations undoubtedly is due to the commitment to 
place the biological status of the resource as the first priority. No 
real distinction is to be drawn in Alaska for stocks that happen to 
spawn in Canada as long as appropriate reciprocal action is taken to 
protect those populations by Canadian fishery managers.
    Beyond specific stock considerations, the U.S., at Alaska's 
instigation, has moved to place all negotiated Treaty fishery 
arrangements onto a basis that is more consistent with long-term salmon 
conservation needs. Primarily at Canada's insistence, most fishery 
annex arrangements under the PST have involved set annual ceilings, or 
quotas. Such a system fits with the Canadian fixation on balancing 
interceptions numerically, but it is not compatible with the nature of 
the salmon resource, given the large annual fluctuations in abundance, 
or with rational fishery management strategies. In fact, numerical 
ceilings are certain ultimately to produce entitlements that are above 
sustainable levels. This already has occurred in both the chinook and 
coho salmon fisheries off Vancouver Island.
    Although Canada has yet fully to concur, the U.S. has committed to 
placing all Treaty fishery arrangements on an appropriate abundance-
driven basis. This means sharing an, harvestable surplus proportionally 
such that systematic overharvest does not occur and that each country 
shares both the benefits of large returns and the obligation to insure 
the long-term health of the resource through necessary fishery 
restrictions when abundance is low. After all, one feature of real 
fishery equity must be appropriate sharing of the burden of sustaining 
the resource. It cannot only refer to the benefits in the division of 
the catch.

Canadian ``Equity'' Dogma in the PST Impasse

    Although the initial several years under the PST passed relatively 
smoothly, it was evident even early on that Canada's objective was to 
accomplish a significant reduction or restructuring of traditional U.S. 
fisheries in Alaska as well as those directed at Fraser River sockeye 
salmon in Washington. Canada's simplistic view of ``equity'' as a 
national balancing of the value of interceptions was the primary factor 
underlying their drive to impact U.S. fisheries. Rather than embarking 
on a cooperative effort to enhance a shared salmon resource, and thus 
also the viability of the traditional fisheries in both nations, Canada 
increasingly has narrowed its focus on PST issues to an effort to 
benefit only Canadian interests at the expense of U.S., particularly 
Alaskan fisheries. A Treaty that, to be successful, needed to generate 
practical, mutually acceptable, and stable fishery arrangements has 
instead become the platform for Canadian ideological assaults on U.S. 
fisheries as well as overtly aggressive fishery actions and now 
rhetoric and action that is no longer confined to the fishery realm.
    Canada steadfastly maintains that it is systematically and 
substantially disadvantaged in the harvests of Pacific salmon. This is 
a position that follows from Canada's peculiar, I would say 
preposterous, view of what constitutes fishery equity. Theirs is a 
point of view that, as Ambassador Colson noted, the United States did 
not accept during Treaty negotiations, in the Treaty text, or since. It 
is worth reviewing briefly the Canadian position on ``equity'' and 
noting at least some objections to that position that are of most 
significance to Alaska.
    Canada asserts gratuitously that any salmon spawned in Canada 
belongs fully to Canada wherever it migrates in its complex life cycle. 
If a Canadian-spawned salmon is caught in any U.S. fishery, its value 
is to be calculated as debt owing Canada. Fishery equity, then, is 
simply an equivalence in the value of salmon ``intercepted'' in the two 
nations after all of the fisheries coastwide are accounted together. 
Whenever an imbalance of the value of ``interceptions'' exists, an 
obligation is incurred by the advantaged party. In Canada's view, that 
obligation should be satisfied by adjusting fisheries, either to 
decrease ``interceptions'' in the fisheries of the advantaged country 
or to increase those in the disadvantaged nation. Canada claims that no 
other considerations bear on fishery equity in the PST and that their 
view must form the basis for any long-term resolution of the issue. 
This highly contentious proposition has sharply divided the U.S. and 
Canada for over 30 years and that division arguably has been the sole 
cause of the degeneration in the functioning of the PST, including the 
failure to reach resolution in the recent stakeholder process.
    To the United States, and especially to Alaska, the Canadian equity 
viewpoint is and always has been completely unacceptable. The issue was 
not resolved in the agreed Treaty text, as clearly stated by Ambassador 
Colson and noted above. Rather, all who participated in the Treaty 
negotiations understood clearly that the wording in Article III did not 
accomplish an agreement on a theoretical level. Subsequently, the U.S. 
Section of the PST has made a number of attempts to demonstrate to 
Canada that the Canadian approach to fishery equity is neither 
equitable nor workable and has suggested various alternative 
formulations. In particular, the U.S. argued that a theoretical 
solution was not necessary and that finding ways to cooperate in 
achieving each nation's goals and objectives for its salmon fisheries 
was both practical and a far more productive use of the human resources 
committed into the PST. In recent years, the U.S. has elaborated a 
proposal for accomplishing agreed proportional sharing within each of 
the relevant fisheries as an equitable and practical basis for 
implementing the Treaty. Canada has refused to consider all suggested 
approaches.
    The problems posed by the position on which Canada is so insistent 
are sufficiently fundamental and pervasive that ultimate U.S. 
acceptance is out of the question. A sample of the reasons for this 
assessment follows.

          Canada refuses to accept that all of the considerations 
        included in Article III of the PST must have a meaningful 
        bearing in generating equitable Treaty arrangements. 
        Specifically, continuation of traditional fisheries and, most 
        critically, taking into account the very substantial variations 
        in annual abundance of salmon as essential elements in any 
        agreed scheme of fair sharing in the PST are simply dismissed 
        by Canada. They demand that only their peculiar view regarding 
        ``interceptions'' be treated as relevant to a settlement of 
        standing with regard to fishery equity.
          The Canadian position ignores most of the biological and 
        economic realities of the salmon resource. It is simply 
        capricious to insist that full ownership of salmon is conferred 
        by the location of spawning. For the stocks in question in the 
        PST, most of the life cycle of salmon spawned in Canada is 
        spent in U.S. marine waters where they gain all of their 
        economic value. It takes the ocean, indeed the U.S. ocean in 
        this case, to produce a salmon. Their very survival is 
        dependent on this residence and while in U.S., and Alaskan, 
        waters they consume important and valuable American marine 
        resources at substantial cost to U.S. interests. These salmon 
        are truly a shared resource to which both nations make 
        necessary contributions and in which both nations have 
        legitimate long-term interests. Demanding all of the benefits 
        from stocks that happed be spawned in Canada does not square 
        with the respective costs and responsibilities involved in 
        their production and certainly not with the basis for the U.S. 
        entering the Treaty agreement in the first place.
          Balancing the value of interceptions is simply a numerical 
        accounting exercise. As such it is inherently inconsistent with 
        the biological functioning of the salmon resource and its 
        rational management, especially when applied across the vast 
        areas and very different stock conditions encompassed by the 
        PST. Application of such an approach to fisheries coastwide 
        inevitably will generate fishery limits not keyed to the status 
        of the resource. By creating obligations that are unrelated to 
        stock abundance on a fishery-by-fishery basis, Canada's 
        proposed system will cause the loss of substantial harvestable 
        surpluses in years of high abundance, particularly in fisheries 
        that are keyed to local stocks not of concern to Canada. Even 
        more seriously, it will lead to serious overfishing in years of 
        poor returns under the guise of achieving an ``equitable'' 
        balance of harvests. The latter is not at all a theoretical 
        concern only. Canada has fished far beyond what was justified 
        on a number of occasions, in their own words for the purpose of 
        approaching their version of equity, both on the west coast of 
        Vancouver Island where chronically depressed stocks of chinook 
        and coho salmon have been damaged further and in Dixon Entrance 
        in years of very poor returns of pink salmon to southern 
        southeast Alaska. No method for determining fishery equity in 
        the PST can be acceptable if it leads to sanctioning such 
        abuses, if it more generally is incompatible with the essential 
        variations in salmon abundance, or if it can be employed to 
        drive unrelated fisheries without regard to the status of the 
        stocks in those fisheries.
          Implementation of Canada's approach to equity would 
        unacceptably allow Canada to manipulate and control U.S. 
        domestic fisheries in at least two ways. For reasons wholly 
        unrelated to the strength of the resource, such as altering the 
        allocation pattern among Canadian users, Canada may reduce or 
        terminate traditional fisheries that harvested some salmon 
        spawned in U.S. territory. Reallocating harvests into in-river 
        First Nations fisheries is one ongoing example of such change 
        in Canada. By thus reducing ``interceptions'', Canada's system 
        would force compensatory adjustment of unrelated U.S. fisheries 
        even though no biological reason for such adjustment existed. 
        Second, U.S. fisheries would be vulnerable to internal 
        production decisions taken unilaterally in Canada. Large-scale 
        hatchery or other enhancement projects in Canada can introduce 
        massive numbers of salmon into Alaskan waters particularly 
        where traditional fisheries harvest primarily domestic stocks. 
        By saturating, or ``flooding'', a fishery in this manner, 
        Canada could force significant restructuring of those 
        fisheries. This would amount to Canada being able to treat 
        Alaska as a subordinate colony, required to sacrifice its 
        resources for the development of a valuable commodity for 
        Canada and at the same time required to disrupt its local 
        economy in order not to interfere with Canada maximizing its 
        benefits from that artificially enhanced resource. This latter 
        circumstance already is a matter of practical concern as 
        Canadian enhanced production of both chinook and sockeye salmon 
        have significantly altered the species and stock composition of 
        long-standing Alaskan fisheries that are now primary targets in 
        Canada's public relations assault on Alaskan salmon harvests.
          Finally, but by no means exhausting the list of criticisms of 
        Canada's equity dogma, Canada has used their theory as an 
        excuse to justify whatever fishery actions they deem to be in 
        their interest. By simply maintaining that they perceive 
        themselves to be disadvantaged in the balance of interceptions, 
        Canada has prosecuted fisheries in circumstances where 
        conservation of the stocks involved obviously was jeopardized. 
        Examples of such behavior occurring off the west coast of 
        Vancouver Island and in Dixon Entrance have been noted above. 
        Canada also has fished substantially outside any reasonable 
        interpretation of the limitations stipulated in agreed fishery 
        annex arrangements, as in their Area 3 net fisheries where 
        their annual catches have averaged more than twice the agreed 
        limit. They simply shrug off any criticism of those actions by 
        claiming that these are ``equity fisheries''. Canada thus uses 
        its unilateral view of equity as a self-serving tool that, in 
        its estimation, overrides all other Treaty obligations. The 
        U.S. clearly cannot continue to condone such Canadian behavior 
        or the attitude and theory that underlie it.
    Settlement of the fishery equity issue wholly on their terms has 
become the Canadian prerequisite for substantive talks on any practical 
fishery issue of concern to the U.S. for the past four years. This was 
true initially within the PSC, subsequently in a series of less public 
government-to-government settings, and most recently in the 
stakeholders process. As Canada has become more strident and more 
entrenched in its ideological position, the PSC has been rendered 
wholly ineffective and Canadian actions dangerous to the well-being of 
the salmon have increased. The U.S. is fully justified, rather is 
obliged, not to capitulate to the Canadian demands, both due to the 
lack of merit in Canada's equity argument and to the totally 
unacceptable actions that Canada is willing to take in its name.

Stakeholders Process and Its Future

    Others will submit testimony to the Committee regarding the events 
and details surrounding the stakeholder discussions conducted earlier 
this year. I will not attempt to cover that material except for a few 
brief observations on that process and the possibility of its 
continuation.
    In retrospect it is apparent that this year's stakeholders 
discussions took place with incompatible expectations prevailing on the 
two sides. Both northern and southern groups on the U.S. side were 
prepared fully to negotiate all aspects of the fishery issues in their 
regions. Had they succeeded in reaching agreement with their Canadian 
counterparts, it was clear that those negotiated terms would indeed 
have been approved for implementation by all in the U.S. Canada, 
however, gave no such authority or latitude to its stakeholders, 
requiring them to meet daily with their national section leaders ``for 
instructions'' and assuming throughout that those discussions were only 
a preliminary to government-to-government negotiations where all 
decisions would be taken.
    In the discussions themselves, both U.S. groups made sincere 
attempts to find the way to acceptable specific fishery arrangements. 
In doing so, dramatic and far reaching concessions were offered to 
Canada in both the Washington sockeye and Alaskan Noyes Island 
fisheries, the two American fisheries of most sensitivity to Canada. 
All on the U.S. side were impressed by the extent of the sacrifices 
offered in the attempt to move sufficiently toward Canadian positions 
to make agreement possible. These U.S. offers went well beyond any 
previously made in Treaty-related negotiations. Canadian stakeholders 
offered little new that was of substance and, at least in the north, 
avoided any substantive discussion of Canadian fisheries. The northern 
Canadian stakeholders were candid from the beginning that they viewed 
the purpose of the discussions only to be the transfer of more fish 
from Alaskan into Canadian fisheries. Clearly they were authorized only 
to get what commitments that they could from Alaska and not to offer 
substance in return. These were not negotiations. When the respective 
discussions ended over Canadian equity demands in the north and 
Canadian refusal to be responsive to a serious U.S. conservation 
proposal without even greater equity compensation in the south, both 
U.S. stakeholder groups were fully justified to feel unfairly used.
    Canadian officials obviously never took the stakeholder process 
seriously. It remains unclear whether Canada ever would empower such a 
group to negotiate their own interests in a manner that would, as a 
practical, political matter, obligate Canada to accept the outcome. If 
further stakeholder negotiations are to be scheduled, this issue 
certainly needs to be clarified.
    United States officials failed to insure that the two countries' 
stakeholder groups were on equal footing when the discussions were 
initiated. By committing to Canada that subsequent government-to-
government negotiations were in the offing to deal with equity issues 
and any specific fishery matters not resolved by the stakeholders, 
Canada was presented with yet another opportunity for two bites of the 
apple. This simply continued the pattern that has surrounded the PSC in 
recent years where all incentive was removed from the Canadians to 
reach agreements in that forum because they had available a less 
technically restrictive and, in their estimation, more politically 
advantageous route available in higher levels of the governments.
    This Treaty is in very serious trouble. Its Commission is hardly 
functioning. Repeated government-to-government efforts have failed to 
break the stalemate. The initial stakeholder process came to nothing. I 
must say that, in the present climate, I am most skeptical that a 
further stakeholder process can be established that will generate a 
reasonable opportunity to reach bilateral agreement. Nonetheless, it 
may well be worth another attempt at establishing stakeholder 
discussions that truly are negotiations as long as a set of necessary 
conditions are met.
          Canada needs to be put on notice, and to accept, that binding 
        negotiations of Treaty fishery arrangements will occur within 
        the stakeholders groups only. Any unresolved issues could be 
        passed only to the PSC for additional work.
          This process should be put to Canada as the final chance to 
        salvage the PST. Failure of the stakeholders to find acceptable 
        common ground should lead to termination of the Treaty 
        agreement. Canada must be given no reason to believe that it 
        can return to discussion between the governments on these 
        issues.
          No unreasonable time restrictions should be placed on the 
        stakeholders' efforts. It will at the least take some time to 
        overcome the tensions and ill-will that currently dominate the 
        atmosphere around these fisheries.
          Negotiations should continue on the basis of separate 
        northern and southern regions. Dealing with the set of 
        fisheries with which the stakeholders are directly familiar 
        should be a manageable task. Only confusion and pressure for 
        unacceptable trading of fishery interests across regions could 
        result from recombining into a coastwide forum.
    In conclusion, Canada has made a mockery and a travesty of the PST. 
They have turned a practical arrangement that held promise for long-
term benefits for all in the north Pacific region into a contentious, 
polarizing political circus. Their narrow and overzealous insistence on 
a wholly inequitable implementation of the Treaty plays well in 
Canadian internal politics, but the accompanying Canadian actions have 
only negative effects on the salmon resource and on the working 
relationships of those who manage or utilize the salmon resource. The 
real frustration now is not so much that many talented people's time 
and efforts have been wasted to date but that this Treaty at present is 
arguably the cause of significant damage to certain salmon stocks and 
to the working people who depend on them. It also now is perceived as 
an irrational threat to the continued viability of a number of 
traditional fisheries that are responsibly managed and economically 
critical in their region. That these effects are ongoing creates the 
urgency to begin a stakeholder process that is structured such that it 
might succeed or to proceed to terminate the Treaty. Time is not a 
passive element if present conditions are permitted to continue.
    What is needed now is a clear and unequivocal message to Canada 
that increased Canadian flexibility and good-faith negotiations among 
participants who are immediately knowledgeable about the fisheries are 
required if the Treaty is to be salvaged. Failing an honest Canadian 
commitment to negotiations at that level, there seems little wisdom in 
continuing the charade of this Treaty. I do not suggest withdrawal from 
the PST lightly.
    However, if the PST serves only to provide a pretext for Canadian 
political posturing and policies that ultimately damage the salmon 
resource, then regrettably its termination is in the best interests of 
both U.S. and Canadian citizens who depend on the well-being of those 
salmon.
    Thank you for the opportunity to offer some of my thoughts to the 
Committee. I would be happy to respond to questions that Committee 
members might have.
                                 ______
                                 
   Statement of David Benton, Chairman, U.S. Section-Pacific Salmon 
     Commission, Deputy Commissioner-Alaska Dept. of Fish and Game
    Thank you for the opportunity to appear before the House 
Subcommittee on Fisheries Conservation, Wildlife and Oceans regarding 
the Pacific Salmon Treaty, embodied in U.S. Public Law 99-5 and adopted 
by the 99th Congress on March 15, 1985. Following several decades of 
international meetings and negotiations, the United States and Canada 
signed the Pacific Salmon Treaty in March, 1985. An earlier draft 
treaty, presented to the two governments by the respective negotiators 
in 1982, was not ratified by the United States due to opposition by 
Alaska and several Pacific Northwest fishery groups. Alaska supported 
ratification of the 1985 Treaty after some of the controversial 
provisions in the 1982 draft treaty were amended. While supporting 
ratification, Alaska's delegation to the negotiations at that time was 
under no false illusion that the Treaty would provide only benefits. 
There would be some costs and these were recognized. The assessment was 
made, however, that potential treaty benefits would significantly 
outweigh the costs, especially in the long term.
    Article III of the Treaty sets forth the Treaty's basic tenets. It 
states, in part, that each Party shall conduct its fisheries and 
enhancement programs so as to prevent overfishing, provide for optimum 
production, and provide for each Party to receive benefits equivalent 
to the production of salmon originating in its waters. In fulfilling 
these obligations the Parties shall take into account the desirability 
in most cases of reducing interceptions, the desirability in most cases 
of avoiding undue disruption of existing fisheries, and annual 
variations in the abundance of stocks. Clearly, these provisions were 
crafted as a package and no one provision can be isolated from the 
others. The various fishery arrangements, or ``annexes'', negotiated on 
an ongoing basis by the U.S. and Canada are intended to implement these 
provisions. The Pacific Salmon Commission is the forum established 
under the Treaty where these negotiations are to take place. The Treaty 
directs the two countries to ``cooperate in management, research and 
enhancement'' to achieve the goals outlined in the Treaty.

PACIFIC SALMON TREATY PRINCIPLES

    The Treaty's general conservation principle is expressed in Article 
III, section 1(a): ``Prevent overfishing and provide for optimum 
production.'' This principle is, of course, fundamental not only to the 
Pacific Salmon Treaty but to Alaska's fisheries management program, as 
well as those of Canada and the Pacific Northwest states.
    The potential benefits of managing fisheries according to this 
principle are obvious, the costs of ignoring it, as has happened in 
some cases are also obvious. Management of Alaska's salmon fisheries, 
based on this principle which is also embodied in the state 
constitution, has greatly increased salmon runs and the harvests 
realized by Alaskan fishermen since statehood.
    Certain salmon stocks from Canada and the United States intermingle 
in the domestic waters of both countries as they migrate and rear in 
marine coastal areas. As a result, salmon from one country are 
harvested by the other country's fishermen as they harvest salmon in 
their own country. Clearly, conservation is an obligation of both 
countries.
    To the extent that the Treaty encouraged cooperative management 
arrangements between Canada and the U.S. that fostered the conservation 
principle, fishermen of both countries benefited. Prior to the Treaty, 
instances occurred where uncoordinated, and, in some cases, 
uncontrolled fisheries resulted in conservation problems which reduced 
potential harvests. As I will elaborate further, there are still 
instances where the conservation obligation has been compromised 
because of Canada's perspective on implementation of the so called 
``equity'' provisions of the Treaty.
    Because the Treaty directed the two countries to ``cooperate in 
management, research and enhancement,'' Alaska expected to see the 
information bases required to manage salmon stocks for optimum yield 
increase and expand much faster than without a treaty. In some cases it 
would be impossible for either country to fully develop information 
bases for certain salmon stocks without the cooperation from the other 
country. The intent was for Alaska, the Pacific Northwest states, and 
treaty tribes to expand and improve their salmon management and 
research programs.
    The Treaty's sharing principle is stated in Article III 1(b) 
``provide for each Party to receive benefits equivalent to the 
production of salmon originating in its waters,'' and elaborated upon 
further in Article III (3); ``In fulfilling obligations pursuant to 
paragraph 1, the Parties shall take into account: (a) the desirability 
in most cases of reducing interceptions; (b) the desirability in most 
cases of avoiding the undue disruption of existing fisheries; and (c) 
annual variations in the abundance of the stocks.''
    This is the so called ``equity'' principle. On the surface, these 
provisions appear very reasonable, but in reality they have been the 
source of the most controversial issues for the Commission. Much of the 
problem is due to Canada's interpretation that Article III 1(b) 
supersedes all other provisions of Article III. Although information 
and interpretations on both salmon interceptions and ``benefits 
equivalent to the production of salmon'' is incomplete, and no 
bilaterally agreed approach exists to determine ``benefits,'' Canada 
has mounted an ever-escalating campaign to force its view on how these 
provisions are interpreted and applied. Canada has initiated a pattern 
of fishing that has exacerbated conservation problems, and they have 
mounted a distorted public relations campaign, including acts of civil 
disobedience, in attempts to force the U.S. to accept Canada's 
interpretation of the Treaty. Canada's actions are not those of a 
country that is trying to reach an acceptable, negotiated resolution of 
the issues.

BENEFITS OF THE PACIFIC SALMON TREATY

    Both Parties have received benefits from the Pacific Salmon Treaty. 
The Treaty established a set of fishery performance standards that 
have, in many instances, stabilized the fisheries coastwide and 
provided realistic expectations of fisheries for the industry on an 
annual basis. The Treaty has contributed to a substantial increase in 
some, but not all salmon populations. Significant exceptions include 
some southern chinook stocks and some southern coho stocks which have 
been adversely affected by aggressive fishing strategies in Canada, 
poor ocean survival, negative freshwater habitat impacts from upland 
activities, or some combination of all these. For many of these stocks, 
Canadian actions have been a significant factor in their decline.
    The Treaty has permitted full utilization of the resource where 
surpluses have developed, while at the same time potentially limiting 
impacts on stocks of importance to the other Party. During the Treaty 
years, Alaska has managed its fisheries consistent with negotiated 
annex arrangements. Even in years when agreements were not reached, 
Alaska has managed consistent with previous annex arrangements or based 
on the abundance of our own salmon stocks. Those arrangements and 
management approaches have constrained the fisheries during periods 
where there is a significant presence of Canadian spawned salmon. In 
other words, we believe that Alaska has met its Treaty obligations.
    Also, under the Treaty, bilateral sharing of data for all salmon 
stocks has become routine. The status of knowledge of major salmon 
stocks in Southeast Alaska and Northern British Columbia has increased 
significantly through the Commission's bilateral Northern Boundary and 
Transboundary River Technical Committees. Cooperative bilateral 
management of transboundary river fisheries (Taku and Stikine Rivers) 
in Southeast Alaska and Northern B.C. has resulted in significant 
increased harvests of sockeye salmon for both countries. A major 
component of this is the bilateral enhancement program, using 
Snettisham Hatchery in Southeast Alaska.
    These efforts have moved the parties towards optimum production, a 
main objective of the Treaty. Southeast Alaska fishery managers 
routinely coordinate inseason with Canadian Department of Fisheries and 
Oceans (DFO) managers in Prince Rupert, B.C. and Whitehorse, Yukon 
Territory. This has led to greatly improved estimates of population 
levels inseason and the ability to adjust fisheries for agreed 
proportional sharing of the harvestable surplus. We believe that these 
examples show that cooperative management has worked in the past and 
can continue to work effectively in the future.
    Chinook salmon is another area where recent progress has been made. 
In June, 1996, the U.S. Section of the PSC reached an historic 
agreement for Southeast Alaska chinook fisheries, the U.S. Letter of 
Agreement (LOA) for managing the SEAK chinook fishery. Instead of fixed 
ceilings, the approach establishes catch levels that fluctuate annually 
with the expected abundance of chinook salmon. Both conservation and 
fair sharing would be achieved by lowering harvests at reduced fish 
abundance and increasing harvests only when fish abundance increases. 
The abundance-based approach for Southeast Alaska chinook fisheries 
incorporates harvest rate reductions 30-45 percent BELOW the original 
treaty base period.
    We believe that the LOA represents a major step forward in chinook 
conservation and management. In response to conservation concerns, the 
1996 Southeast Alaska harvest was reduced to 147,000 chinook, 44 
percent below the catch ceiling established under the Treaty with 
Canada, and the lowest in 85 years. However, in 1997 abundance 
increased and harvest levels were imposed accordingly, with harvest 
reaching the 280,000 range. Most importantly, scientific work conducted 
this year resulted in significant improvements to the model used by the 
Chinook Technical Committee to measure abundance pre-season, as well as 
a new methodology to use inseason fishery performance data to more 
accurately measure abundance and adjust fisheries accordingly. The 
bilateral Chinook Technical Committee confirmed that this methodology 
gives the most accurate measure of chinook abundance.

CANADIAN BEHAVIOR IN TREATY NEGOTIATIONS

    Canada has refused to actively negotiate in the Pacific Salmon 
Commission forum since 1993, seriously disrupting progress on critical 
conservation problems and cooperative resource management programs. 
Canada walked away from bilateral negotiations in the Chinook Work 
Group in 1993, and has refused to participate in this forum since. 
Canada refused to negotiate any fishery arrangements for the 1993 
fishing season within the Pacific Salmon Commission. They demanded 
government-to-government, last minute arrangements, and the U.S. 
reluctantly complied because of conservation concerns for some salmon 
stocks. This same pattern of non-cooperation carried over into the 1994 
negotiating cycle for the Pacific Salmon Commission. Canada once again 
inappropriately mixed conservation and allocation issues to get 
concessions associated with their perspective on ``equity.'' Canada did 
not respond to a U.S. proposal for chinook salmon arrangements in 1994, 
and boycotted a treaty negotiation session scheduled in February, 1994. 
All of this over the ``equity'' allocation issue. After they boycotted 
the meetings, Canada implemented the infamous transit fee on American 
boats traveling through Canada to Alaska, an act clearly in violation 
of international law.
    Canada's attitude towards conservation was clearly identified on 
June 9, 1994 when Fisheries Minister Brian Tobin announced that Canada 
would fish aggressively in order to ``maximize disruption'' to U.S. 
fisheries. Canada relentlessly pursued an aggressive fishing regime in 
its West Coast of Vancouver Island (WCVI) coho and chinook fisheries 
with the publicly stated purpose of increasing pressure on the U.S. to 
resolve the ``equity'' issue. Canada's aggressive fishing policy in 
WCVI and Georgia Straits fisheries came at the expense of its own 
chinook and coho stocks. In 1994, Canadian fishermen were encouraged by 
the Canadian government through Mr. Tobin to harvest as aggressively as 
possible, contributing to the ``grab all'' attitude in the Canadian 
commercial fleets. This strategy contributed significantly to the 
``disappearance'' of over one million Fraser River sockeye salmon, and 
exacerbated conservation concerns for southern Canadian coho stocks. 
The Fraser River Public Review Board, established by Canada following 
the disastrous 1994 Fraser River sockeye salmon fisheries, made a 
determination that as a result of these actions, one more 12-hour 
commercial fish opening for the Canadian fleet could have virtually 
eliminated the late run of sockeye salmon into the Adams River.

THE 1997 NOYES ISLAND (ALASKA DISTRICT 104) PURSE SEINE FISHERY

    This pattern has carried through to this day, and has led to the 
illegal ferry blockade in Prince Rupert and the aggressive ``Canada 
First'' strategy of Minister Anderson, which is reminiscent of Mr. 
Tobin's actions in 1994.
    Canada claims that the events of this year have been caused in part 
by what they refer to as Alaskan overfishing of Nass and Skeena sockeye 
salmon early in the season (pre-week 31) in 1997. Let's set the record 
straight and put this fishery into perspective.
    Overfishing in the Treaty means harvesting at levels that will 
adversely impact the parties ability to achieve escapement goals. It 
does not mean, as Canada now interprets, that the U.S. is harvesting 
more than Canada likes. What Canada fails to acknowledge is that there 
is no agreement between the two parties regarding early-season 
management of the Noyes Island fishery. The annex expired in 1993 and, 
since Canada chose to scuttle the Stakeholder negotiations in May, 1997 
there was not any interim arrangement for the 1997 fishery. Alaska 
managed this fishery based on the abundance of pink salmon and the 
desire to spread the fleet out into other fishing districts in 
Southeast Alaska.
    If the Alaska management intent was to maximize interceptions of 
sockeye salmon, the number of hours of fishing at Noyes Island would 
have been far higher. Allowing considerably more fishing time at Noyes 
Island would have maximized sockeye harvests without negatively 
affecting our domestic stocks. Instead, fishing time was restricted 
even though this meant that Alaska had to forego harvests of sizable 
pink and chum salmon runs.
    Previous annex arrangements covered the early part of the fishery, 
referred to as the pre-week 31 period. In the 1997 pre-week 31 (July 
27) period, 573,000 sockeye salmon were harvested at Noyes Island, with 
386,557 being of Nass/Skeena origin. At the same time Alaska had caught 
1.2 million pink and chum salmon. Canada's harvest of Nass/Skeena 
sockeye salmon for the same period was 1,842,000. About one out of 
every three sockeye caught at Noyes Island come from Alaska, not 
Canada. The pink and chum salmon are almost all Alaska spawned fish. 
The ratio of sockeye to pink in the Alaska fishery was lower than the 
5-year average for this time period. For this year, keep in mind Alaska 
had 100 boats on the water in this fishery. They worked about 15 hours 
per week at Noyes Island. By contrast, 800 Canadian boats are 
participated in their nearby sockeye fishery, with 48 hours on and 24 
hours off. If Alaska were redirecting its fishery to target on Canadian 
fish, these numbers would be far different.
    Skeena sockeye usually comprise about 80-90 percent of the total 
Canadian Nass/Skeena return. Note that approximately 70 percent of the 
Skeena sockeye return is produced in man-made spawning channels. When 
the Canadians built these facilities they were well aware that some of 
these fish would return through traditional Alaskan fishing areas. 
These facilities have been very successful at producing fish and as 
their production has increased so has the Alaskan catch. The fact that 
these Canadian enhanced fish flood through Alaska waters has meant 
severe disruption to Alaska's traditional fisheries and is at the heart 
of Canada's ``equity'' dispute in the north. Without the artificially 
produced fish wild Canadian sockeye would only account for about 1 
percent of the southern Southeast Alaska gillnet and seine salmon catch 
on an annual basis.
    In addition, there has been no overfishing of these fish. 
Escapement goals for Skeena sockeye have been met, and there are no 
conservation problems. The escapement goal is 900,000 sockeye, and the 
current escapement is at 1.65 million sockeye. In fact, the escapement 
goal for sockeye salmon has been exceeded for the past 5 years to the 
detriment of the run. The result is that in both 1998 and 1999, sockeye 
returns to the Skeena River may be significantly reduced because of 
DFO's inability to prevent over-escapement.
    Earlier in the season, there was some concern expressed by Canadian 
managers about escapement goals for the Nass River. In response to 
these early-season concerns, Alaska restricted our boundary fisheries, 
yet Canada refused to close their outer Area 3 fishery even though 
large numbers of Nass sockeye are harvested in this fishery, stating 
that this would result in foregone harvest by their fishermen. These 
actions speak loudly about Canada's participation in reciprocal 
conservation efforts, and in retrospect appears to have been more 
closely tied with their political strategy. As it turns out, they have 
achieved an escapement of over 240,000 sockeye salmon, with an 
escapement goal of 200,000.
    This continuous pattern of politicizing basic fishery conservation 
and management makes it very difficult for Alaska fishery managers to 
coordinate and cooperate with their Canadian counterparts. In the end, 
Canada's actions simply serve to build distrust and suspicion, to the 
detriment of our respective salmon management programs and our shared 
salmon resource.
    As a final point with regard to sockeye, Canada will no doubt 
complain about the incidental harvest of Fraser River sockeye in the 
Alaska fishery in 1997. El Nino events pushed Fraser River sockeye 
further north this year, as evidenced by the fact that approximately 89 
percent of the run is returning through Johnstone Straits as opposed to 
the more traditional route through the Straits of Juan de Fuca. This 
has lead to the ``Canada First'' fishing strategy, designed to deny, to 
the extent possible, the harvest of Fraser sockeye by the southern U.S. 
Canada complains about Noyes Island, saying that we are violating the 
Treaty, even though there is no agreement. Yet, down south, they are 
doing everything possible to reduce the U.S. share of Fraser sockeye.
    Assuming that we've caught 250,000 Fraser sockeye in the District 
104 fishery this year, that would equal 3 percent of the total harvest 
in the District. That would be the highest percentage since we've been 
keeping track of those numbers. It would also be around 1 percent of 
the total Fraser run if it comes in at 24 to 25 million. That would be 
in line with harvest levels in 1989, 1990, 1992, and 1994.

CHINOOK SALMON

    As mentioned earlier, in June, 1996, the U.S. Section of the PSC 
reached a historic agreement for Southeast Alaska chinook fisheries, 
the U.S. Letter of Agreement for Managing the SEAK chinook fishery. 
Canada has been critical of the U.S. agreement, but for over one year 
has refused to meet with the U.S. to discuss the proposal, let alone 
jointly develop a mutually acceptable approach to managing chinook 
salmon coastwide.
    The U.S. has repeatedly called for chinook negotiations, and Canada 
has refused to come to the table. They have taken every possible 
opportunity to avoid substantive negotiations. We believe this is 
because they know that if they matched the reductions in the LOA in 
their fisheries, they would be severely limited due to the status of 
the stocks in their fisheries.
    Since the Treaty began, chinook stocks comprising the catch in WCVI 
and Georgia Straits fisheries are in serious trouble compared to the 
stocks in the SEAK fishery:

          WCVI--chinook abundance (worst year, down 63 percent) remains 
        consistently low (except for one year) averaging 25 percent 
        below pre-Treaty levels. Forty percent of the catch comes from 
        non-rebuilding stocks.
          Georgia Straits--chinook abundance (worst year, down 71 
        percent) remains consistently low in all years averaging 41 
        percent below pre-Treaty levels: 76 percent of the catch comes 
        from non rebuilding stocks.
    The conservation ethic embodied in the U.S. Letter of Agreement for 
the SEAK chinook fishery is exemplified in its application to both the 
WCVI and Georgia Strait fisheries. Under abundance-based management, 
both of these Canadian fisheries would have had past actual harvests 
reduced by about 50 percent, and in several years both fisheries would 
have been canceled with zero allowable harvest because of low abundance 
for their respective chinook stock components.

CANADIAN THEOLOGY AND THE ``CANADA FIRST'' FISHING STRATEGY IN 1997

    It is quite ironic that Canada expects the U.S. in the north to 
follow expired fishery annex terms (Pre-week 31 sockeye restrictions at 
Noyes Island), yet they are doing everything possible to punish the 
southern U.S. in terms of denying access to Fraser River sockeye. 
Canada has taken advantage of the high proportion (89 percent) of the 
sockeye run that is approaching the Strait of Georgia from the northern 
(Johnstone Strait) route. As of August 15, cumulative catches in 
commercial fisheries now amount to 4,015,000 in Canadian waters and 
551,000 (including 116,000 at Noyes Island). This Canadian total does 
not include 623,000 sockeye harvested in river by the First Nations.
    As part of their strategy, Canada also initiated purse seine 
fisheries in Area 20 in an effort to ensure no U.S. catch of Fraser 
sockeye. These net fisheries were heavily criticized by former DFO 
officials and environmental groups because of the adverse impacts on 
endangered coho salmon stocks in the southern U.S. and southern B.C. 
According to the groups, more than 60,000 endangered coho may have been 
harvested. The groups were particularly critical of DFO's decision to 
open fishing to large-scale seiners, creating a ``wall of nets'' that 
prevented almost any fish from escaping. This aggressive fishing plan 
has been described by Canadian conservationists as a ``scorched earth'' 
policy.
    Canada implemented these aggressive fishing strategies in an 
attempt to force the U.S. to move toward the Canadian interpretation of 
the sharing principle of the Treaty. The Canadian interpretation is 
that U.S. fisheries must be restructured to ``numerically balance'' the 
inevitable interceptions between the two countries. This numerical 
based approach fails to address key components of the Treaty. It is 
inconsistent with the optimum production of salmon, it does not address 
Treaty language regarding no undue disruption of traditional fisheries, 
and it does not adequately address annual variations in the abundance 
of the stocks. ``Equity'' is not a simple minded balancing of 
interceptions. The U.S. has not agreed with the Canadian approach and 
has instead proposed an ``abundance-based'' approach to equity whereby 
the two countries would negotiate shares of the abundance based on the 
status of the stocks in each fishery. This approach would address 
conservation issues, would promote optimum production and would result 
in the fair sharing of coastwide salmon stocks.

STAKEHOLDER NEGOTIATIONS

    Numerous attempts have been made over the past few years to resolve 
the ``equity'' allocation dispute. These have included several 
government-to-government negotiations as well as one attempt using an 
outside expert to mediate between the two sides. All failed. This 
dismal record clearly showed that something new had to be tried.
    In the fall of 1996, the U.S. proposed to Canada that Stakeholders 
be charged with negotiations on Pacific Salmon Treaty matters. In 
February, 1997 the governments of Canada and the United States convened 
a Stakeholder process in a renewed effort to resolve differences. They 
agreed to a process in which salmon industry representatives, or 
Stakeholders, were authorized to review individual fisheries and 
negotiate long-term fishing arrangements. The concept, originally 
proposed by the Governors of Alaska, Washington, and Oregon, was 
designed to achieve regional solutions for salmon harvests and 
allocations between the two countries. This led to the creation of two 
stakeholder groups: one to address Canadian and U.S. salmon fisheries 
in the northern boundary area, or Dixon Entrance, and the other to 
address Canadian and U.S. salmon fisheries in southern British Columbia 
and the Pacific Northwest. The charge was to develop pragmatic 
recommendations for each fishery that would implement the principles of 
Article III of the Pacific Salmon Treaty.
    The bilateral Northern Stakeholders met four times between February 
and May, 1997. U.S. Northern Stakeholders focused on abundance-based 
approaches which addressed conservation needs and proportional sharing 
of the resource (as opposed to ceiling fisheries which are not 
responsive to abundance). Canada's primary focus was on reducing U.S. 
interceptions of Nass and Skeena sockeye salmon caught incidentally in 
the Alaska District 104 purse seine fishery. During these negotiations 
U.S Northern Stakeholders proposed a number of concessions designed to 
reach long-term fishery arrangements and satisfy all provisions of 
Article III of the Pacific Salmon Treaty. One of the main problems 
encountered in these negotiations was that between meetings, the 
Canadian side appeared to retrench to their ``equity'' ideology, and 
any progress which was made in previous talks was often lost. Another 
major problem was the specter of government-to-government talks 
following the conclusion of the Stakeholder negotiations.
    It is our anticipation that sometime this fall that at least the 
Northern Stakeholder group will reconvene in another attempt to reach 
long-term fishing arrangements satisfactory to both parties. Alaska 
still believes that this process is the only way we can resolve these 
issues. However, we need to learn from our experiences earlier this 
year if this process is to have any chance of success. First, 
separating northern issues from southern issues is the only logical way 
to proceed in the Stakeholder negotiations. Combining northern and 
southern issues will significantly complicate the issues and frustrate 
the negotiations.
    Second, and most importantly, the Stakeholders from both sides of 
the border must be empowered to negotiate. There was great concern 
among our Stakeholders regarding the ability of the Canadian 
Stakeholders to make a deal and have it stick. And third, it has to be 
absolutely clear that the Stakeholder process is the forum where these 
allocation issues will be resolved. As long as the Canadians believe 
that they can negotiate these issues in some other forum if the 
Stakeholders don't reach agreement, the process is doomed to failure. 
The Canadians can no longer be offered two bites of the same apple. The 
responsibility to get this point across to Canada rests with the U.S. 
Federal Government.
    Alaska believes that the Stakeholder process is the only way these 
allocation issues can be resolved. If the issues can not be resolved at 
the Stakeholder level, then the U.S. must seriously evaluate further 
participation in this Pacific Salmon Treaty.
    Thank you for the opportunity to testify and I will be pleased to 
answer any questions.
                                 ______
                                 
     Statement of Rick Applegate, Chair, U.S. Southern Stakeholders
    Mr. Chairman and members of the Committee, I am Rick Applegate, 
appearing today as Chair of the U.S. Southern Stakeholders in the 
Pacific Salmon Treaty negotiations. During the course of the 1997 
Treaty negotiations, I was West Coast Conservation Director for Trout 
Unlimited--covering Alaska, Washington, Oregon, Idaho and California 
for that national fishery conservation organization. I have left that 
position, and am currently serving as Senior Policy Advisor at the 
National Marine Fisheries Service. I am still an avid fisherman and a 
vitally interested stakeholder in this important negotiation process. 
Obviously, my views today do not necessarily represent the position of 
the National Marine Fisheries Service or the Federal Government.
    I believe we, as stakeholders, were fortunate to have the 
opportunity to participate in this unique negotiating effort. For us, 
it was a creative and demanding time, where we examined our own long-
held views, made significant and unprecedented proposals and almost got 
the job done for coho and sockeye in the South. No amount of subsequent 
controversy should cloud that fact. And even now, with so much acrimony 
and recrimination from this fishing season, we still know the terrain 
of an agreement with Canada. Its rough dimensions lie before us and 
they are not all that hard to discern. Both nations suffered a great 
deal in the absence of an agreement this year--in ways more critical, 
more harmful and sometimes more ridiculous than any of us would have 
hoped.
    As charged by our convening governments, the U.S. stakeholders 
sought to avoid the ritualistic debates of past deliberations on the 
equity issue. We attempted to offer and discuss with the Canadian 
stakeholders a series of pragmatic and creative proposals that would 
ensure conservation of West Coast salmon and a reasonable sharing of 
the fishery. From the beginning, we insisted as a first principle that 
the wild coho resource had been harvested at excessive rates--nearly 
double what they should have been--rates that could not be continued. 
We made the point that large harvest reductions were required to 
conserve the wild stocks of both nations, not just U.S. stocks, and 
that those reductions were needed immediately. We submitted a 
substantial amount on technical analysis to accompany our coho proposal 
and ensured that U.S. and Canadian scientists had the opportunity to 
review our proposal within the confines of the negotiations.
    We also noted the importance of a reasonable level of continued 
fishing opportunity in the U.S. and our coho harvest regime would have 
accomplished both the conservation and fishery objectives. At the same 
time, we were well-aware that any Canadian coho harvest reductions 
beyond those required to conserve wild coho stocks would be met with an 
understandable insistence on concessions from U.S. fishers on the 
levels of Fraser River sockeye harvest. However, we insisted that 
Fraser River sockeye harvest reductions by U.S. Treaty and non-Treaty 
fishers should not be required to obtain conservation-based reductions 
in the West Coast Vancouver Island coho troll fishery. We were 
perfectly willing to pay for coho reductions that allowed for a U.S. 
coho fishery, but not for the substantial reductions necessitated by 
the conservation requirements we all knew were needed to protect and 
restore naturally spawning coho.
    Unfortunately, notwithstanding the depressed status of Canadian 
wild coho that required a complete shutdown of the West Coast Vancouver 
Island coho fishery this year, Canada was not willing to table a firm, 
scientifically sound, long-term coho harvest regime as part of these 
negotiations. They indicated that significant reductions would be 
achieved in the current harvest year, but were unwilling to commit in 
any detail to an abundance-based regime for the future. Nor did they 
supply any substantial technical analysis accompanying their coho 
regime proposals. That, more than any factor, is why we were unable to 
reach an agreement. It wasn't for lack of willingness on our part.
    On the sockeye side of the ledger, we made unexpected and 
unprecedented progress within the U.S. stakeholders in a relatively 
short period of time. We proposed and discussed with the Canadian 
stakeholders a substantial reduction in the U.S. interception of Fraser 
River-bound sockeye. These were permanent harvest share reductions that 
would be reflected in lower Treaty and non-Treaty harvests. In order to 
table cuts of significant magnitude, we agreed among the U.S. 
stakeholders on a sizable and unprecedented buyout of a large portion 
of the non-Treaty U.S. sockeye harvest share. This was a difficult and 
painful step for U.S. fishers, but one we agreed was essential if an 
agreement was to be reached with Canada. In considering this buyout to 
be merely a minor matter, and in treating it on occasion as something 
of a nuisance, the Canadian stakeholders made it extraordinarily 
difficult for the U.S. stakeholders to remain at the negotiating table.
    In effect, with our sockeye harvest proposal, we offered to leave 
Canada with over 80 percent of the allowable Fraser River sockeye 
harvest, maintaining a U.S. harvest that was substantially below the 
pre-Salmon Treaty levels. We would have retained significantly less 
than 20 percent of the harvest for traditional U.S. fisheries; and we 
were very disappointed with the ultimate Canadian reaction to this 
important and unprecedented U.S. proposal.
    Obviously, we should not try to negotiate or second-guess the 
specific terms of a potential agreement here today. This is not the 
forum in which an agreement under the Treaty will be reached. Nor 
should we simply congratulate ourselves for being reasonable in the 
negotiating process. I will not do that. But I do believe that the U.S. 
Southern stakeholders took practical and courageous positions--and they 
have more than a few scars to prove it. They went well beyond what was 
anticipated when the process began and they tasted briefly the 
possibility of that elusive long-term agreement with Canada on North 
Pacific salmon issues.
    To the ultimate question why we did not get an agreement with 
Canada, no one will ever have a complete answer. We certainly felt, 
based on signals we received from the Canadian side, that we were 
getting very, very close to what was required to reach that agreement. 
So we were baffled and discouraged by the turn of events at the end of 
the negotiations--when we suddenly seemed farther apart than ever.
    Several items are worthy of note for future negotiating efforts on 
these important issues. First, we--or some other set of negotiators--
need to have a clarification or reclarification of the terms of 
engagement and those terms need to be clearly understood and committed 
to by the stakeholders from both nations.
    For example, we worried from time to time whether the Canadian 
stakeholders were actually empowered to and intending to negotiate a 
long-term solution with us--or whether they were simply testing the 
U.S. proposals and positioning themselves and their government for what 
they anticipated would be a later negotiating process in some other 
government-to-government forum. The U.S. stakeholders did not look to 
some other process and, for that reason, we put on the table our 
strongest, best and most creative options early in the discussions. 
That is why we were unhappy when Canada consistently reacted as if we 
were not moving far enough later in the negotiations.
    Second, at critical times, there seemed to be an unspoken 
connection between progress on Southern issues and the status of 
discussions on Northern matters. When things went well in the North, we 
rolled along in good order in the South. When things bogged down in the 
North, we seemed instantly to have more difficulty in the South. Given 
that the issues were to be separated for these negotiations, that was a 
troublesome linkage. It was disappointing and unfortunate and bears 
clarification so that it does not impair further proceedings.
    Third, to note that not all these problems were the province of one 
side in the negotiations, it can be noted that, at a most critical 
juncture in the negotiations, we encountered some serious difficulties 
within the State of Washington. Notwithstanding our consistent 
briefings on the negotiations, we suffered an unfortunate and decisive 
period of confusion and delay during which it appeared that the 
Washington Department of Fish and Wildlife was actually in disagreement 
with both the negotiating process and the substantive positions we as 
stakeholders were advancing. We were able to clear up those issues, but 
not before the damage was done. The chaos at that critical time was 
very distressing to the U.S. stakeholders and to those who were 
following our work--and it was not lost on the Canadian negotiators. It 
put our Federal negotiator in a very difficult position and, in short, 
it was very costly. It was clear that the confusing skirmish could not 
have occurred at a worse time and it disrupted our work as stakeholders 
and our negotiations with Canada. I am optimistic that Washington has 
taken the necessary steps to ensure that this unfortunate circumstance 
will not occur in the future. That is important because these 
negotiations are complex and need to be pursued in a manner that 
provides for public involvement while allowing the negotiators to 
continue the negotiating process. That will always be a difficult 
challenge and we need to ensure that appropriate entities are well-
coordinated and in the loop to avoid future misunderstandings as these 
difficult issues are pursued.
    I would be remiss today if I did not note that the Commissioners 
and U.S. government negotiators fully abided by the rules set for the 
negotiating process. Commissioners Turner, Pipkin, Allen, and Benton 
and their alternates received our reports--both the promising news and 
the disappointing--in good humor and made no effort whatsoever to 
intrude upon or sway our further stakeholder negotiations. The 
Commissioners were very helpful and were profoundly surprised with the 
rapid strides we were able to make against the backdrop of so little 
progress in spite of all the best efforts in the past.
    In addition, we all had and continue to have a high regard for the 
depth of knowledge, persistence and patience Mary Beth West and Jim 
Pipkin brought to this process. They maintained their respected 
presence throughout, even when some of us were ready to throw up our 
hands--or put up our fists--with the Canadian negotiators.
    Of course, all this good work still languishes in the shadow cast 
by the absence of an agreement with Canada. It leaves people of good 
heart and minds to wonder what an unfulfilled and largely inoperative 
Salmon Treaty is worth. For me, and I believe for the clear majority of 
those who have tried to make this Treaty work for a decade and more, it 
is not irretrievably broken yet, even though it may appear to be. We 
are willing to persevere and try once again if asked to do so and there 
are other fishery leaders who could pursue this work if a new team is 
in order. We are, of course, very disappointed that agreement has not 
been reached, but there is no point in giving up or succumbing to 
another few months of bellicose rhetoric. The issues are simply too 
important to all of us and to the resource.
    I do not believe that the stakeholders somehow failed. We have not 
achieved an agreement to be sure. That is at once frustrating, 
disappointing and even a bit embarrassing--as I hope it is to our 
Canadian counterparts. But, when the dust of this year's feuding clears 
and we have all sobered up again, we will still be left with the same 
problems and the same basic prospects for a resolution. These issues 
are not intractable. And I still believe that, on the Southern issues 
at least, we are but a series of difficult negotiations and a set of 
handshakes away from a long-term agreement with Canada.
    Thank you for the opportunity to appear. I would be happy to answer 
any questions you may have.
                                 ______
                                 
                 Statement of Jim Bacon, Juneau, Alaska
Mr. Chairmen, members of the Committee,
    Thank you for the opportunity to testify today. My name is Jim 
Bacon. I am a commercial fisherman from Juneau, Alaska. I have been 
fishing for over 20 years and currently serve as the chairman for the 
U.S. Northern Stakeholders.
    No international agreement is of greater importance to Alaska and 
my fishing industry than the Pacific Salmon Treaty. Commercial fishing 
is the largest private employer in Alaska--and the Pacific Salmon 
Treaty plays a major role in the management of our state's salmon 
resource.
    Since the inception of the Treaty in 1985, the boundary area 
between southeast Alaska and northern British Columbia has experienced 
several record salmon returns. It is important to note these facts when 
attempting to navigate through the sea of rhetoric generated by the 
Canadian media machine. The issue now before us in the boundary area is 
not conservation of depleted salmon stocks--but rather how to devise a 
fair sharing arrangement which allows both countries to effectively 
harvest its salmon resource.
    The Pacific Salmon Commission established by the Pacific Salmon 
Treaty, is to serve as the forum for both countries to exchange 
information for the dual purpose of conserving salmon and achieving 
optimal salmon production. Canada, unfortunately, has subverted these 
Treaty principles by dwelling solely on the issue of accounting for 
Canadian spawned salmon caught incidentally by U.S. fishermen. When 
Canada could not prevail on this single issue, it abandoned the 
Commission process.
    Unwilling to follow the Canadian lead, the U.S. proposed a new 
format involving stakeholders--or those who actually fish for or 
process salmon. The stakeholders task was to break the ideological 
gridlock that had stalled previous talks within the salmon Commission 
and between the governments. That is, formulate realistic fishing 
agreements that protected and enhanced the salmon resource while 
preserving the tens of thousands of jobs dependent on Pacific Coast 
salmon stocks.
    In hindsight it is obvious that Canada had no intention of allowing 
its stakeholders to reach agreement. This was never more evident than 
on the last day of stakeholder talks when, after a lengthy consultation 
with its government, the Canadian stakeholders returned with a hardline 
position designed to bring the talks to a halt.
    Premier Glen Clark then unleashed a barrage of anti-American 
sentiment which brought his fishing community to a boiling point, 
culminating with the blockade of the Alaska Ferry in Prince Rupert, 
despite condemnation by the community of Prince Rupert, the Canadian 
federal government, and members of this committee, Premier Clark termed 
the blockade courageous.
    This atmosphere of lawlessness then turned itself on the Canadian 
government with the staging of illegal fisheries in northern British 
Columbia. The Canadian fishermen cited a tremendous surplus of salmon 
returning to the Skeena River as the basis for conducting these illegal 
fisheries. It is notable that the catch of these same Skeena River 
salmon by Alaska fishermen provides the basis upon which Canada claims 
that we are pirating Canadian fish or alternatively-fishing Canadian 
stocks to extinction. These claims are insupportable. And this, best 
illustrates our point of departure with Canada. The State of Alaska and 
its fishing industry have an unparalleled history of salmon management 
success. We would never embark upon a fishing regime detrimental to 
salmon, either U.S. or Canadian origin. However, we refuse to adopt a 
Canadian ideology which relegates the harvest of Alaskan salmon to the 
avoidance of Canadian origin salmon present during our fisheries. 
Simply put, the salmon are not segregated while in Alaskan waters. Such 
a policy would not benefit Canadian salmon stocks or its fishermen, and 
would cause grave economic hardship to the coastal communities of 
southeast
    I do believe the stakeholder process can lead to a fair and durable 
agreement between our countries. However, without a strong message from 
our government to Canada, that the stakeholder process is the only 
forum outside the Pacific Salmon Commission for negotiation. Without 
this commitment, the process will fail. Equally important, Canada must 
plainly understand that theatrics and media sound bites will not bring 
forward U.S. concessions. We are gravely troubled by the lawsuit filed 
last week in Seattle by the British Columbia government and its fishing 
industry seeking $325 million in damages against the U.S. for alleged 
treaty transgressions. The filing of a lawsuit cannot lay the ground 
work for a productive negotiation.
                                 ______
                                 
 Statement of W. Ron Allen, Pacific Salmon Treaty Commissioner, Treaty 
                             Indian Tribes
    Mr. Chairman and members of the Committee, I am W. Ron Allen, 
appearing before you today as U.S. Commissioner to the Pacific Salmon 
Commission. I, and my colleague Mr. Ted Strong, serve on the Commission 
as representatives of the Treaty Indian Tribes of Washington, Oregon, 
and Idaho.
    As you know, our tribes have a huge historical, cultural and 
economic stake in all matters relating to salmon in the Pacific 
Northwest. Our interests are manifest in treaties between our tribes 
and the United States, treaties recognized in numerous Federal court 
rulings and many statutes, including in particular the Pacific Salmon 
Treaty Act, the law that implements the Pacific Salmon Treaty on the 
U.S. side.
    Tribes were at the forefront of the negotiations which led to the 
Pacific Salmon Treaty in 1985, and have involved themselves 
constructively in every step taken since that time. We intend to be 
involved in every step taken to implement the intent and commitments, 
whatever they are including technical and policy actions.
    As you might expect, we share in the frustration over the failure, 
so far, to find a solution to the disputes with Canada over 
implementation of the Pacific Salmon Treaty. More importantly, our 
people have felt the consequences of that failure in the form of a 
continuing erosion in our fisheries, and therefore our treaty rights, 
and in the lost opportunities to rebuild and restore the salmon runs 
that our so vital to our cultures.
    The stakeholder process begun earlier this year was not an idea 
that originated through the tribal leadership. Nevertheless, hopeful 
that this process afforded a unique opportunity finally to resolve 
issues that have dogged us for too many years, the tribes actively 
supported the proposal. We did so despite serious concerns that this 
new process, for a time at least, would supplant the normal PSC 
process, including the institutional treaty and statutory safeguards, 
at our insistence, to help ensure that our treaty rights would be 
protected.
    We committed time and resources to the stakeholders process to give 
it every opportunity to succeed. We appointed five of the eight members 
on behalf of United States on the southern stakeholder group. One of 
the tribal stakeholders, Mr. Charles ``Pete'' Hayes, a beloved and 
widely respected former chairman of the Nez Perce tribe, passed away 
during the process. Despite our sadness at the loss of this great man, 
whose memory we honor, we forged ahead, appointing a replacement to 
continue the important work that he helped begin.
    The tribes provided key technical and policy staff to support the 
efforts of the U.S. stakeholders. We also called together tribal 
representatives, frequently and at short notice, to interact with the 
stakeholders, and to hold together the unusual coalition that would be 
essential to making their innovative proposals work.
    In short, we did whatever we could to make the stakeholders process 
a success. You can imagine our frustration and disappointment at the 
failure, so far, to reach agreement, especially in light of the highly-
charged political environment in which we now find ourselves.
    Now, let me try to get more directly to the specific questions 
posed to us by the Committee. The stakeholder process differed from 
previous negotiations in a number of significant ways.
    First, it involved persons with a direct stake in the outcome, 
persons arguably more interested in pragmatic solutions to the problems 
of the fishery than in carrying on the philosophical debate over the 
meaning of the treaty's so-called equity principle. Any solution that 
might emerge from such a group, it was thought, would be far more 
likely to gain acceptance by the affected constituents than an 
``answer'' emanating from government negotiators.
    Second, by separating into two regional groups, the process 
afforded an opportunity to find solutions tailored to the specific and 
unique circumstances of fisheries in those regions. This approach, 
which is not without some controversy within our group, was intended to 
reduce the fear that one region would be played off against another in 
order to satisfy perceived national obligations.

          It is important to note, however, that the initial charge 
        given to the stakeholders did not include management of chinook 
        salmon fisheries, an enormously complicated problem because of 
        the far ranging migratory nature of that species. (Chinook 
        originating in the Columbia River, for example, are harvested 
        in Southeast Alaska and Canada, as well as in Washington, 
        Oregon, and Idaho.) Thus, the ability of the stakeholder 
        process to make progress on chinook issues remains untested. It 
        is the tribes' view that chinook management and conservation 
        issues must be dealt with on a coast-wide basis. This will 
        require a melding of the northern and southern stakeholder 
        groups into a unified forum, if indeed the stakeholder process 
        continues.
    Third, at the same time that fisheries were split into northern and 
southern regions for the stakeholder process, fisheries within a region 
were combined. For example, in the south the stakeholder process vested 
within one group license to negotiate regimes for both coho and 
sockeye. This contrasts with the way things are set up within the 
Pacific Salmon Commission panel process, wherein Fraser sockeye and 
pink fisheries are dealt with by the Fraser River Panel, and all other 
southern area fisheries are dealt with by the Southern Panel. This can 
have both positive and negative implications; whereas it lends itself 
to negotiation of a ``package'' of arrangements in the south, it 
increases the likelihood of tradeoffs between southern fisheries that 
affect and involve different sets of constituents.
    Fourth, and also in contrast to the normal PSC process, the 
stakeholder process was relatively unencumbered with the sometimes-
burdensome requirements of the bilateral PSC panel process. Among other 
things, this allowed negotiations to occur at a much faster rate, and 
within the relative ``safety'' of an environment shielded from the 
constant scrutiny of onlookers. Of course, as you can imagine, this 
approach also carries with it a certain downside, particularly from the 
point of view of those who are excluded from the room, and reduces the 
protections afforded by a more open, inclusive process. For this 
reason, the closed process employed in the stakeholder process likely 
would not be acceptable for very long, and certainly not as a permanent 
replacement for the normal panel structure and process of the PSC.
    As to the question of the major impediments to an agreement, there 
are many levels at which this question could be addressed. Obviously, 
the two countries hold fundamentally different views on interpretation 
and application of the Treaty's so-called ``equity principle'' and, in 
particular, how that principle should be manifest in the various 
fishery regimes.
    But I could also describe to you impediments rooted in different 
views about how much weight should be afforded to the historical nature 
of certain fisheries, and the degree to which these fisheries should be 
shielded in some way from equity adjustments. I could expound on the 
standing of aboriginal and treaty-Indian fisheries relative to 
commercial and recreational fisheries, in both countries. I could tell 
you about a number of unresolved scientific and technical issues. I 
could elaborate on roadblocks we have encountered in our efforts to 
move from management by fixed ceilings to management based on the 
annual abundance of stocks. And, of course, I could describe to you in 
considerable detail the difficulties inherent in any multi-party 
negotiation process that depends upon broad consensus to achieve 
success.
    Each of these issues, and many more, have contributed to the 
impasse, and every one of them would take more time to describe in 
detail than we have here today.
    We were asked to identify some of the problems encountered in the 
stakeholder process. The purpose of the question, I believe, is to help 
answer another question, which is how to avoid those problems in 
subsequent negotiations. The problems fall into two broad categories. 
One category of problems is rooted in process, and in particular the 
nature of the instructions given, either explicitly or implicitly, by 
both sides to their respective stakeholders.
    There is no doubt on the part of U.S. participants that the 
Canadian stakeholders entered the talks fully expecting that they would 
not be cutting the final deal. That step would occur in a subsequent 
government-to-government negotiation. In contrast, the U.S. side made 
it clear from the beginning that the stakeholder process is where the 
action is. And, I believe, we took great pains as U.S. Commissioners 
not to interfere with the course of their deliberations. Admittedly, 
from my point of view, this was a somewhat risky proposition; who knew 
what they might come up with, and at what cost? As it turned out, 
thanks to the hard work of our stakeholder team, they broke some new 
ground, coming up with surprisingly innovative proposals. 
Unfortunately, total success proved illusive. But a clear lesson has 
emerged: the success of a stakeholder-driven process requires a 
commonly understood set of instructions. All participants must believe 
that theirs is the exclusive venue for decisions; they cannot believe 
that someone else eventually will make the final hard decision or 
overrule them.
    The second class of problems is, unfortunately, much harder to 
address. No matter what process ``fixes'' we might come up with, at the 
end of the day we will get to the point where we must confront, and 
resolve, differences of substance. The nature of those differences, as 
a result of many years of negotiations, the stakeholder process, and 
the recent government-to government discussions that followed, are 
relatively well-defined. Canada will want certain changes in our 
fisheries, and we will want certain changes in theirs. Both sides know 
what those changes are. Tough choices eventually will have to be made, 
or expectations radically modified. Trust that if it comes down to 
imposing changes upon fisheries against the will of affected 
participants, the cost will be very high. Trust also that the tribes 
will be ever vigilant that their treaty rights not be further eroded by 
any ``solution.''
    Can the two countries get beyond their differences and agree to 
long-term fishery regimes? I do not know the answer to that question, 
but I can tell you that tribes stand ready to continue trying.
    As to what should be the U.S. position in future negotiations, it 
would be a mistake to lay them all out today, for obvious reasons. 
However, I do believe that the stakeholder process has gone a long way 
toward clarifying the key elements of an agreement. Future negotiations 
should build upon that foundation. In some cases, clarification of 
underlying scientific issues might help, particularly for southern coho 
management. It is unlikely that a completely new set of substantive 
proposals will emerge to take the place of what already has been 
developed.
    Your last written question asks if it is time to serve notice to 
the Canadians to withdraw from the Pacific Salmon Treaty. It is, in 
some respects, an odd question to put to us, the representatives of the 
treaty tribes, embroiled as we are at this very moment in yet another 
difficult struggle in this Congress to defend our treaty rights.
    No, it is not time to withdraw from the Pacific Salmon Treaty. The 
Treaty clearly has problems. But throw it away? Of course not. Where 
would we be then? How long will it take to get a new treaty? How many 
of the salmon will disappear before we get our human act together.
    No, the answer is not to terminate the Treaty, in abandoning the 
basic promises our two countries gave to each other. That is not the 
way great nations should behave. The only honorable thing we can do is 
to continuing trying, to work on these problems until we succeed in 
solving them.
    Congress can help the U.S. delegation resolve these fishery 
management problems by building upon the foundation established by the 
Governors of Alaska, Oregon, and Washington at last year's Sitka Salmon 
Summit. In Sitka, the Governors committed to working together to 
rebuild and restore wild salmon populations as well as the habitat 
essential to this restoration goal. The Tribes support this commitment 
calling on the States and Federal governments to endorse this 
initiative regarding our shared resource.
    The success of future PSC agreements with Canada regarding harvest 
sharing, long-term health of the salmon resource, and the cultural and 
economic benefits derived by our communities depend on the Federal 
commitment to the recommendations of the Governors.
    We look forward to working with this Congress regarding these 
proposed solutions. Thank you for the opportunity to be here today. Ted 
and I will be happy to try to answer any questions.
</pre></body></html>
